           SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

               Ofﬁce of Inspector General





                 Report of Inspection


 Embassy Islamabad and 

Constituent Posts, Pakistan


  Report Number ISP-I-10-64, June 2010




                            IMPORTANT NOTICE
 This report is intended solely for the ofﬁcial use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
 in whole or in part, outside the Department of State or the Broadcasting Board of
 Governors, by them or by other agencies or organizations, without prior authorization
 by the Inspector General. Public availability of the document will be determined by
 the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
 this report may result in criminal, civil, or administrative penalties.




           SENSITIVE BUT UNCLASSIFIED

             PURPOSE, SCOPE AND METHODOLOGY

                    OF THE INSPECTION


This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the President’s Council on Integrity and Efﬁciency, and
the Inspector’s Handbook, as issued by the Ofﬁce of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors
(BBG).

PURPOSE

The Ofﬁce of Inspections provides the Secretary of State, the Chairman of
the BBG, and Congress with systematic and independent evaluations of the
operations of the Department and the BBG. Inspections cover three broad areas,
consistent with Section 209 of the Foreign Service Act of 1980:

       	 Policy Implementation: whether policy goals and objectives are being
           effectively achieved; whether U.S. interests are being accurately
           and effectively represented; and whether all elements of an ofﬁce or
           mission are being adequately coordinated.

       	 Resource Management: whether resources are being used and
           managed with maximum efﬁciency, effectiveness, and economy and
           whether ﬁnancial transactions and accounts are properly conducted,
           maintained, and reported.

       	 Management Controls: whether the administration of activities and
           operations meets the requirements of applicable laws and regulations;
           whether internal management controls have been instituted to ensure
           quality of performance and reduce the likelihood of mismanagement;
           whether instance of fraud, waste, or abuse exist; and whether adequate
           steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as
appropriate, circulated, reviewed, and compiled the results of survey instruments;
conducted on-site interviews; and reviewed the substance of the report and its
ﬁndings and recommendations with ofﬁces, individuals, organizations, and
activities affected by this review.
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                        TABLE OF CONTENTS


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

       Islamabad . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

       Karachi . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

       Lahore . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

       Peshawar . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

       Rightsizing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

       Political, Economic, and Commercial Affairs . . . . . . . . . . . . . . . . . . . . . . . . 19 

       The Political-Military Function . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 

       Foreign Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 

       Public Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

       Consular Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

RESOURCE MANAGEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

       Management Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

       Management Consolidation and Outsourcing . . . . . . . . . . . . . . . . . . . . . . . . 51

       Interagency Cooperative Administrative Support Services . . . . . . . . . . . . . . 52

       Facilities: The Building Boom . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

           Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

           Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64

           General Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71

           Visitor Support Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

           Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83

           United States Employee Association . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83

           Health Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86

           Community Liaison Ofﬁce . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87

           Equal Employment Opportunity and Federal Women’s Program . . . . . . . . 88

                   SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91

           Business Class Travel Internal Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91

           Cost-Constructive Travel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 92

           Consulate General Karachi Class B Cashier Controls . . . . . . . . . . . . . . . . . . 93

           Blanket Purchase Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94

           Voucher Payment Internal Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94

           Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95

           Facilities Maintenance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 96

           The Accountable Consular Ofﬁcer. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 96

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 99

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 105

PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 121

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 123

                      SENSITIVE BUT UNCLASSIFIED




                                   KEY JUDGMENTS


• 	 The staff of Embassy Islamabad and the three constituent posts are dedi­
    cated to the success of the President’s strategy for Afghanistan and Pakistan,
    spending long hours and immense physical and intellectual effort to meet the
    demands of the recent rapid growth in stafﬁng and programs generated by
    increases in funding.
• 	 Violent extremist organizations, including al-Qaeda, operating in and from
    Pakistan are committed to destabilizing Pakistan’s democratically elected
    government and attacking the United States and its interests. In almost every
    decision, embassy leaders balance the imperative to pursue without reserve the
    President’s strategy for Pakistan against the risk to life for mission staff. Risk
    management is a full-time job.
•   Life in Pakistan for U.S. direct-hire employees and locally employed (LE) staff
    alike is difﬁcult and will remain so for some time. Morale varies throughout the
    mission. Special compensation and incentives for work in a high-danger envi­
    ronment, together with awareness that employees are contributing to one of
    the President’s most important priorities, is a source of satisfaction for many,
    but more can be done to keep mission staff informed of plans and policies.
• 	 The rapid pace of embassy growth and demands for new staff to support visi­
    tors, reporting, representation, engagement, and other priority tasks leaves mis­
    sion managers little time to consider whether established procedures or stafﬁng
    are producing the best results. The management section has taken the time to
    step back, evaluate, and improve. This is a best practice within this mission.
• 	 Embassy Islamabad and the three consulates general all have space and infra­
    structure challenges. In Islamabad, the $1 billion construction plan to replace
    nearly all facilities may be delayed by problems in land acquisition (b) (2)
    (b) (2)             in Karachi, the consulate has outgrown the new compound
    before moving in; and in Peshawar, efforts to locate a suitable property have
    proven difﬁcult although the host nation has offered a new option that will
    soon be evaluated for feasibility. The consulate in Lahore can accommodate
    expected growth but needs physical upgrades.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   1 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




      • 	 After a hiatus of more than 13 years, the embassy is considering reestablish­
          ing nonimmigrant visa (NIV) services in Lahore in response to interest by
          the Special Representative for Afghanistan and Pakistan (S/SRAP). The OIG
          team believes that the embassy should not reinstitute NIV services in Lahore.
          Further devolution of Pakistan’s moderate but complex NIV workload is not
          in the interest of consistency, efﬁciency, or management oversight, and would
          increase security vulnerabilities.
      •



      • 	 The embassy’s political-military function is divided between the political
          section and the border coordinator’s ofﬁce. Although this arrangement has
          worked well under the present leadership, the embassy could follow the prac­
          tice of other embassies with large portfolios of political-military issues by
          creating a new section that would address all political-military issues.
      • 	 Although the mission produces quality reporting, coverage of issues is uneven.
          Time spent on high-level visitor support has had an adverse impact on the
          volume of reporting. The embassy needs to reinvigorate its political and eco­
          nomic reporting by consulting Washington agencies and developing achievable,
          countrywide political and economic reporting plans that reﬂect policy priorities
          and user needs.
      • 	 The embassy has managed foreign assistance coordination effectively. In the
          near term, the embassy will need to manage the substantial and growing fund­
          ing pipeline, increase cooperation between the narcotics affairs section (NAS)
          and the United States Agency for International Development (USAID), and
          develop strategies to monitor performance in high-risk areas.
      • 	 Embassy Islamabad’s public affairs section (PAS) functions very well under dif­
          ﬁcult circumstances but suffers from a severe shortage of ofﬁcers and a serious
          deﬁcit in public diplomacy experience. Until the section is staffed with a full
          complement of ofﬁcers with at least some public diplomacy experience, it is
          unfair to judge the work of the section by all the traditional criteria.
      • 	 The management staff is doing a good job despite a crushing workload. At the
          same time, the effects of one-year tours and the sheer volume of work have
          left a number of areas where procedures and internal controls need improve­
          ment
      • 	 With the mission’s rapid growth, agencies have duplicated a number of admin­
          istrative services, constraining the embassy’s ability to support the mission as
          a whole. The embassy is working to consolidate support services, especially
          motor pool resources.

2 .       OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    The inspection took place in Washington, DC, between January 4 and February
2, 2010; in Islamabad, Pakistan, between February 4 and March 6, 2010; in Karachi
and Lahore (two subteams) between February 15 and 20, 2010; and in Peshawar on
February 13 and February 23, 2010.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   3 .


                      SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED





4 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                  SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                                           CONTEXT


     The 2009 President’s Strategic Review for
Afghanistan and Pakistan made it clear that
sustaining Pakistan as a moderate Islamic re­
public committed to the ﬁght against militancy
and extremism, with a democratically elected
civilian government, solid economic growth,
and at peace with its neighbors, is a vital U.S.
national interest. Yet, Pakistan faces severe
challenges that threaten its stability. America’s
overriding goal in Pakistan is to disrupt, dis­
mantle, and defeat al-Qaeda and its extremist
allies. Embassy Islamabad and the three con­
stituent posts focus on these priorities.

     Pakistan’s economy confronts macroeconomic and structural impediments to
sustainable economic growth. With the support of the International Monetary Fund,
the government is making efforts to stabilize the economy by taming inﬂation, re­
ducing the ﬁscal deﬁcit, and building international reserves. Two-thirds of Pakistanis
live on less than $2 per day. The economy is based on low-productivity manufactur­
ing and service sectors and a stagnant farming sector, and suffers from a lack of
investment in infrastructure. To absorb its rapidly growing population, Pakistan must
create millions of new jobs annually. Insufﬁcient and irregular energy supplies, a lack
of diversiﬁcation and innovation, low labor productivity, and policy and regulatory
bottlenecks impede economic expansion. Moreover, high illiteracy rates, low school
enrollment, high child mortality rates, and inadequate health and education services
make Pakistan a poor performer in achieving development goals.

    Pakistan requires long-term assistance across many sectors. The mission estab­
lished and ﬁlled a foreign assistance coordinator position in FY 2009 whose role
includes accelerating civilian disbursements and ensuring that more assistance funds
are channeled through Pakistani Government agencies. The Departments of State,
Defense, and Treasury, as well as USAID implement assistance programs. The
embassy is refocusing foreign assistance programs to address the geographic and
thematic areas that most immediately threaten stability and economic development.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   5 .


                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



           The mission’s assistance and political-military strategies include a fourfold in­
      crease in Department of Defense funding, and a threefold increase in civilian as­
      sistance in FY 2010. To respond to this dramatic increase in funding, the mission
      worked closely with Washington agencies on the development and subsequent
      reﬁnement of a stafﬁng plan to ensure there will be adequate personnel resources to
      undertake the major new assistance initiatives. The embassy’s requests for increased
      positions are being met, but many positions remain unﬁlled due to a combination
      of insufﬁcient bidders and visa delays. By the end of FY 2011, the embassy expects
      the number of U.S. direct-hire positions across all agencies to increase from 570
      approved positions at the end of FY 2009 to 695 by the end of FY 2011, and the
      number of locally employed (LE) staff to increase from 1,364 to 1,552.

          Because of the difﬁculties of recruiting for these dangerous assignments, and the
      limitations on accompanying family members, virtually all U.S. direct-hire personnel
      are assigned to Pakistan for one year, which is, as in other missions with one-year
      tours, a serious problem for continuity, program oversight, contact development,
      the productive use of LE staff, and team building. In addition, the incentives beneﬁt
      package includes a number of rest and recuperation (R&R) and regional rest breaks1
      that erodes the actual time an ofﬁcer spends in country on an already short tour.
      Managing the assignment, transfer, and integration of nearly the entire U.S. staff ev­
      ery 12 months places a heavy burden on management and support staff that is itself
      turning over every year, and is also dealing with multiphased construction projects at
      two sites and the effort to identify new premises at two others.

           The embassy also devotes a signiﬁcant portion of its already stretched resources
      to support high-level administration and congressional visitors. During FY 2009, the
      embassy hosted almost 700 such travelers, which entailed over 100 preparatory meet­
      ings and encumbered over 300 vehicles during a total of 175 days in the country. In
      addition to these visits, the embassy facilitated the travel, housing, and transportation
      of over 4000 temporary duty (TDY) staff during the same period. The embassy has
      taken steps to rationalize the number and frequency of its visitors, but even with
      tighter planning, visitor support is likely to continue to draw on all sections of the
      mission for control ofﬁcers and on the management section, in particular, for logisti­
      cal support.

          As the mission undergoes an increase in stafﬁng to meet the President’s agenda,
      the embassy and all three consulates have space and infrastructure problems. There
      are plans to augment the embassy compound in Islamabad around the existing of­
      ﬁces and to build employee housing on the compound and adjacent land that will


      1
          The number of R&R and regional rest breaks depends on the post of assignment.


6 .        OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



eventually allow employees now living in leased housing off-compound to move
to the relative safety of the diplomatic enclave. A new ofﬁce building in Karachi
is scheduled for occupancy in the summer of 2010, but Government of Pakistan
actions resulting in port delays could postpone completion of the Karachi project.
Efforts to locate a suitable property for what is arguably the most dangerous U.S.
consulate in the world—in Peshawar—have not been successful to date. Efforts to
expand operations in Lahore also occupy the embassy’s attention.

    Security for U.S. Government personnel is among the highest mission priorities.
Especially in Peshawar, but also in Islamabad, Karachi, and Lahore, ofﬁcial Ameri­
can and LE staff lives are put at risk every day. Mission leadership and Washington
policymakers recognize and accept this risk in order to pursue vital national strategic
and security priorities. The security situation also limits the mission’s efforts to moni­
tor assistance and development projects; oversee contracts and grants; conduct broad
public diplomacy outreach; and further the person-to-person exchanges across social,
economic, and political lines that are the foundations of diplomacy.

   As of March 1, 2010, Mission Pakistan had 640 U.S. direct-hire staff and 1,503
LE staff. U.S. nonmilitary assistance in FY 2009 totaled approximately $1.25 billion.



ISLAMABAD
    In the 1960s, the capital of Pakistan moved from Karachi to Rawalpindi, and
then to Islamabad once the infrastructure of the new capital was in place. The com­
bined population of Rawalpindi and Islamabad makes the metropolitan area the third
largest in Pakistan (after Karachi and Lahore). Although Islamabad was built as the
seat of the federal government, it has become a rapidly growing business and com­
mercial center.

    Islamabad is not a microcosm of Pakistani society. The population of Islamabad
is better educated and better off than the populations of other urban centers. The
population is also the most diverse of Pakistan’s major cities, having attracted its
bureaucratic workforce from throughout the country. As the region develops as a
bureaucratic, educational, commercial, and ﬁnancial center, it will continue to diverge
from the more rural and industrial parts of the country. Moreover, as Pakistan’s
knowledge industries grow, proximity to the universities and bureaucracies in Islam­
abad will make the capital city even more attractive.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   7 .


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



      KARACHI
          Karachi’s consular district includes the Sindh and Baluchistan provinces that
      encompass 30 percent of Pakistan’s population and 60 percent of its territory. With
      upwards of 18 million inhabitants, Karachi is Pakistan’s largest city and port, its
      ﬁnancial and business capital, the seat of the central bank and stock exchange, and
      the federal government’s ﬁnancial intelligence unit. The city hosts diplomatic mis­
      sions from 22 countries. Some 70 ﬁrms with business interests in the United States
      are members of the Karachi-based American Business Council. The political party
      that governs Karachi is joined in a tempestuous coalition among rivals that holds a
      governing majority in the federal parliament in Islamabad.

          Baluchistan has an active nationalist movement, and both provinces present
      challenges of overcoming poverty, respecting human rights, and building effective
      governance. The bulk of supplies to NATO forces in Afghanistan pass through the
      port of Karachi and proceed overland through Sindh and Baluchistan to the Afghan
      border. Several members of the Afghan Taliban leadership have taken refuge in
      Quetta and Karachi; Pakistani authorities have located and arrested some of them.
      All of Karachi’s diplomatic operations take place in the shadow of the 1995 and
      2006 attacks that killed U.S. and Pakistani staff and the 2002 bombing of the consul­
      ate facility.



      LAHORE
           At the time of Pakistan’s independence, Lahore was the largest and most vibrant
      city in the western sector of the new country (with the eastern sector breaking off in
      1971 to become Bangladesh). While it has been surpassed by Karachi as the coun­
      try’s most populous city and banking and business center and by Islamabad as the
      seat of national government, Lahore and the province of Punjab constitute over 55
      percent of Pakistan’s population and nearly 60 percent of its economic output. It is
      also home province and base for Pakistan’s most powerful opposition party.

           In the 1990s, the consulate in Lahore underwent a signiﬁcant contraction in staff,
      budget, and Washington interest. By mid-2009, there were only ﬁve full-time U.S
      direct-hire staff whose primary purpose was representation and political reporting.
      Its status as a consulate general recently restored, Lahore has moved from being a
      backwater to a frontline contributor to the embassy’s strategic and security priori­
      ties. U.S. staff numbers have nearly doubled in the past year, and with the arrival of



8 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




additional staff, including a signiﬁcant contingent from USAID in coming months,
another doubling is in sight. U.S. engagement, public diplomacy, and assistance pro­
gram activities are once again substantial.



PESHAWAR
    Peshawar is the capital of the North West Frontier Province (NWFP) and the
administrative center of the Federally Administered Tribal Areas (FATA). Almost
midway between Islamabad and Kabul on the edge of the Khyber Pass, Peshawar
is on the eastern side of the Pashtun-dominated areas of Pakistan and Afghanistan
and near the Punjabi-dominated areas that surround Islamabad and extend far to the
south.
                                                                   Established as a
diplomatic post in 1958 and elevated to a consulate general in February 2009, Pesha­
war is said to be the most dangerous U.S. diplomatic post anywhere.

    The USAID ofﬁce in Peshawar leads the management and monitoring of the
$750 million FATA Development Program and is responsible for planning and
managing more than $1 billion of new assistance for the NWFP. Peshawar’s consular
district will receive a major portion of the Pakistan Counterinsurgency Fund ($400
million) and the Pakistan Counterinsurgency Capability Fund ($700 million) before
the end of FY 2011.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   9 .


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





10 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                               EXECUTIVE DIRECTION


    Pakistan is a dangerous place. On February 3, 2010, the day prior to the arrival of
the OIG team, a suicide car bomber attacked a Pakistani Frontier Corps convoy in­
cluding ﬁve U.S. Special Operations soldiers. Three U.S. soldiers died. They had been
housed in Peshawar and were training with the Frontier Corps. They were friends
and colleagues of many serving in Pakistan. At the memorial service honoring them
on February 7, 2010, the Ambassador reinforced both the importance of pressing
forward with our strategy to help Pakistan eliminate violent extremist organizations
and the danger to all mission staff in doing so. These three deaths, added to other
attacks, assassinations, bombings, and the daily stream of terrorist threats, place an
immeasurable emotional weight on the shoulders of people the United States asks to
serve in Pakistan.

     Violent extremist organizations, including al-Qaeda, operating in and from
Pakistan are committed to destabilizing Pakistan’s democratically elected govern­
ment, and to attacking the United States and its interests. In almost every decision,
the Ambassador and DCM balance the imperative to pursue without reserve the
President’s strategy for Pakistan against the risk to life for mission staff. The embassy
tries to operate as a normal diplomatic mission, but the quest for normal operations
faces a reality that includes the determination of terrorist groups to kill Americans, a
population overwhelmingly hostile to U.S. policies, and a legacy of distrust caused by
a widespread belief that the United States neglected the bilateral relationship.

     The Department is required to respond to growth in assistance, personnel, and
resources and to provide a platform to support all the staff and agencies of the U.S.
Government necessary to implement the President’s strategy. Current platforms are
inadequate: the chancery and the consulates general are too small, built for an earlier
era. Plans have been developed for additional facilities to replace or expand existing
ones. Despite the best efforts of the embassy executive team and Washington agen­
cies, full implementation has not kept pace with needs(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)             in obtaining approvals to purchase land and lease needed
ofﬁce space. In addition to the shortcomings of the physical plant, embassy leader­
ship, supported by Cabinet-level ofﬁcials, has had to be heavily engaged in trying to
(b) (2)(b) (2)(b) (2)             obstacles, such as delays in visa issuance and cus­
toms clearance, as well as impediments to the import of sufﬁcient numbers of fully
armored vehicles.



 OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   11 .


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



            The Ambassador provides highly respected leadership to a dynamic interagency
       team. One interagency representative described the Ambassador as “the most effec­
       tive embodiment of whole-of-government leadership” he has seen in over 20 years
       at various embassies. The Ambassador chairs thrice-weekly country team meetings
       and holds both regularly scheduled and ad hoc meetings to disseminate policy guid­
       ance and gather information. The embassy coordinates with consulates via weekly,
       deputy chief of mission (DCM)-chaired digital video conferences, emails, and visits
       to and from the capital. In her interactions with embassy staff, the Ambassador regu­
       larly reiterates both the President’s strategy and the important role of the staff in its
       implementation. The Ambassador and DCM also rely on section chiefs and agency
       heads to keep their staffs informed of developments and changes. Most do so well;
       some can do better.

           In addition to frequent country team and other meetings, the embassy has several
       innovative structures created for this extraordinary situation. Examples include a
       border coordination ofﬁce, which reports directly to the Ambassador; a foreign assis­
       tance coordinator whose role includes accelerating civilian disbursements and ensur­
       ing that more assistance funds are channeled through Pakistani Government agen­
       cies; and the Ofﬁce of the Defense Representative – Pakistan (ODRP), which brings
       together all resident elements of the Department of Defense and Central Command
       (CENTCOM) under the leadership of a vice admiral.

            In addition to its work on cross border issues affecting Pakistan and Afghanistan,
       the border coordination ofﬁce functions as a strategic planning unit for crosscutting
       issues, an arrangement that works well because of the ofﬁce head’s prior experience
       and solid relationship with the Ambassador. The foreign assistance coordinator, who
       is a former ambassador and is supported by a small staff, has been effective in man­
       aging relations among mission and Washington-based agencies, Pakistani institutions,
       and other donors. The coordinator played an important role in developing the new
       civilian assistance strategy, which aims to deliver aid through Pakistani entities and
       build national capacity. The vice admiral is the ﬁrst U.S. ofﬁcer in Pakistan to hold
       the title of Senior Defense Ofﬁcial/Defense attaché. In this capacity, he commands
       the traditional Defense attaché and security assistance ofﬁces. As the representa­
       tive of the commander of CENTCOM, he also has a small joint military staff. This
       arrangement has proven effective as the United States works by, with, and through
       Pakistan’s security organizations to disrupt, dismantle, and destroy violent extremist
       organizations as the United States has neither the military presence nor invitation to
       operate in Pakistan as in Afghanistan.

            All resident U.S. national security agencies assist Pakistan in strengthening coun­
       terinsurgency capabilities so that national authorities can use traditional developmen­
       tal assistance better to extend the government’s writ and demonstrate its ability to

12 .      OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




provide security and services. There is a link between the Pakistani Government’s in­
creasing ability and willingness to carry out a counterinsurgency plan and the advice
and assistance that the Ambassador’s tight-knit team, including interagency represen­
tatives, has delivered to the government.

    The embassy also has 10 working groups including, but not limited to, economic,
public diplomacy, humanitarian assistance, and law enforcement issues. Some work­
ing groups, such as that formed to respond to the internally displaced persons crises
in 2008/2009, have been action-oriented, Ambassador- or DCM-led, and effective.
Others have been less productive, especially when the working group is expected
to move from information exchange to action-taking. Some groups are ad hoc, but
ongoing, suggesting that formalizing them may be in order.

    Embassy Islamabad reports directly to S/SRAP and no longer to the Assistant
Secretary for the Bureau of South and Central Asian Affairs (SCA). However, it con­
tinues to receive administrative and public diplomacy support from SCA’s executive
and public diplomacy ofﬁces. The embassy has worked with S/SRAP in the develop­
ment of various plans and strategies over the past fall and early winter. The embassy
took direct responsibility for writing assistance and civil-military plans in coordina­
tion with CENTCOM. Other plans, such as the Pakistan Communications Plan, were
developed primarily in the Department.

     There is constant interaction between the embassy and staff of S/SRAP, the
ofﬁcial conduit for nearly all embassy communications with Department ofﬁces
and bureaus. The Special Representative for Afghanistan and Pakistan visits Paki­
stan often. Until her departure for leave on February 28, 2010, the Ambassador had
not been to Washington since August 2009, although she has frequent contact with
senior policy ofﬁcials through regular secure video teleconferences and during their
visits to Pakistan.

    Planning ofﬁces in Washington characterized Islamabad’s Mission Strategic Plans
(MSP)2 since 2005 as “unrealistic.” Goals not achieved one year rolled over to the
next, the tone oversimpliﬁed the achievement of U.S. goals, and the plan presup­
posed Government of Pakistan agreement to increases in assistance and stafﬁng.
S/SRAP did not participate in the review process. Since preparation of the last MSP,
numerous (and overlapping) strategies, stafﬁng plans, and budget proposals have
been developed outside of the regular processes. The FY 2012 Mission Strategic Re­
source Plan presents an opportunity for embassy leadership to bring these separate
threads back together.
2
  The inspection coincides with the Department’s initiation of its FY 2012 strategic and budget
planning processes, including the revision of the MSP as the Mission Strategic Resource Plan.



    OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   13 .


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           Providing control ofﬁcers, note takers, control room staff, cars, drivers, and beds
       for so many ofﬁcial visitors puts an enormous strain on a mission where approved
       staff levels have yet to be reached. In December 2009, recognizing the burden visi­
       tors impose, embassy leaders informed Washington that they would henceforth be
       more selective in granting country clearances for ofﬁcial visits. Congressional visitors
       were excepted because the embassy believed exposure to senior Pakistani ofﬁcials
       was crucial to continued congressional support for the President’s strategy.

           The Ambassador and DCM have been more rigorous in the ﬁrst months of 2010
       in evaluating proposed executive branch visits, in some cases insisting that delegation
       numbers be pared. However, the pace is still wearing: the third week of February saw
       two congressional delegations (a third having cancelled at the last minute), as well
       as two executive branch delegations — with a third departing just ahead of the ﬁrst
       congressional delegation and a fourth arriving just after the previous one.

           Large numbers of high-level visits are a fact of life when U.S. national interests
       are as deeply engaged as they are in Pakistan. The embassy manages these visits
       well. However, many of the same reporting and public diplomacy ofﬁcers who are
       expected to meet Washington’s voracious reporting and outreach requirements ﬁnd
       that substantial parts of their time must be devoted to visits while contact work and
       reporting languish.

           The Ambassador and DCM support the embassy’s Equal Employment Opportu­
       nity (EEO) program. The DCM has participated in the weekly orientation program
       for new arrivals and spoken on the embassy’s zero tolerance for sexual harassment
       as well as the Ambassador’s and his expectations that employees treat all mission
       personnel with professionalism and courtesy.

           To make expanded reporting, representation, outreach, and support services pos­
       sible, the Department has authorized substantial personnel growth. However, with
       growth in numbers and increased terrorist threats, some staff members arrive to ﬁnd
       very different jobs or circumstances than they anticipated. The most dramatic exam­
       ple occurred in the early fall of 2008, after the assassination of a USAID contractor
       in Peshawar, the embassy and consulate decided de facto to safe haven some staff
       in Islamabad. Others arriving in the summer of 2009 stayed in the capital. These
       so-called “Peshugees” were, with only a few exceptions, shortchanged on housing,
       allowances, access to their household effects, and jobs. Embassy leadership, working
       with the Department, has found a way to accommodate the “Peshugees,” but their
       experiences exemplify the difﬁculties inherent in managing rapid staff expansion in a
       high-stress, dangerous environment. (See human resources section of this report for
       further discussion of the Peshawar issue.)


14 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    The 2005 inspection report for Embassy Islamabad spoke at length about prob­
lems caused by one-year tours. Those problems continue and include insufﬁcient
time to develop contacts or job expertise and LE staff that are underutilized and
underappreciated. Embassy leaders have made commendable efforts to increase the
number of staff who stay for two years, and the Department and the embassy con­
tinue to explore ways to enhance incentives for extended service.

     Another facet of one-year, unaccompanied, danger and hardship pay tours of
duty is that many ofﬁcers are serving in positions graded higher than their own
rank. At the managerial level, as outstanding as ofﬁcers may be in their specialty,
some do not have the experience or preparation to give their less experienced sub­
ordinates the guidance they need. Moreover, in reporting sections, more seasoned
ofﬁcers must balance demands for their own reporting against the need to develop
less experienced staff. Many mid-level positions are also ﬁlled by ofﬁcers serving in a
cone for the ﬁrst time or for the ﬁrst time after extended service in other specialties.
To expect ofﬁcers on a one-year tour to learn both what the job entails and how to
perform that job well in Pakistan has not proven to be realistic.

    Embassy Islamabad staff work long hours and often, seven-day weeks. Embassy
policy permits scheduling of formal meetings on Saturdays, but not on Sundays. On
Sundays, many ofﬁcers strive to catch up on outstanding work or prepare for coming
events. Embassy leadership is aware of the need for staff to feel that they can take
some personal time off each week, and they demonstrate this by example: they go to
the gym or play tennis. They have also insisted that staff take authorized R&R, even
when visa uncertainties may result in prolonged absences. However, because both
the Ambassador and DCM maintain seven-day, no-holiday schedules, many staff fol­
low their lead.

     The DCM takes his mentoring and professional development responsibilities for
entry-level ofﬁcers (ELO) seriously, meeting with those newly arrived and prepar­
ing reviewing statements for all untenured ofﬁcers. Section chiefs have developed a
list of special projects for ELOs and ELOs are asked to work on high-level visits,
although there is a perception among some ELOs that those opportunities may not
be shared equitably. The Ambassador advised the Director General that she believes
ﬁrst-tour ELOs lack the experience and seasoning to work effectively in Pakistan’s
dangerous and high-stress environment. The Bureau of Human Resources has tried
to accommodate the Ambassador with second-tour ofﬁcers insofar as possible.

    People seek assignments in Pakistan for many reasons. Most of those employees
that the OIG team interviewed showed a sense of mission and personal commit­
ment. The embassy’s leaders believe that they boost such attitudes through their


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   15 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       words and actions. Where they succeed, individuals are least preoccupied with sepa­
       ration from family, heavy workloads, long hours, Spartan working and living condi­
       tions, and danger.

           Responses to pre-inspection personal questionnaires indicated individual morale
       across the mission was mixed. The OIG team’s direct observation and interview
       results generally conﬁrm this picture. The Ambassador and DCM are both riveted
       on policy issues. The Ambassador acknowledges morale may not be as high as she
       would like in some parts of the mission. She also believes the opportunity to support
       one of the highest foreign policy priorities of the U.S. Government by working in
       Pakistan should inspire all staff.

           The Ambassador and DCM were not as aware as they should have been of mid-
       level managers who are not providing the guidance and professional development
       their subordinates deserve. They have also let some personnel issues that detract
       from overall mission performance go unresolved.

             Morale in the embassy varies across sections and agencies, but broadly speaking,
       it is good. Most staff live outside the embassy compound and drive personal ve­
       hicles. While some are uncomfortable with the responsibility that goes with manag­
       ing personal security decisions, most appreciate that they are given the information
       needed to make smart choices.

           In general, morale in the consulates is higher than in the embassy. Despite work­
       ing in a converted warehouse with low ceilings and little privacy, Consulate General
       Karachi staff is motivated, dedicated, and undeterred by a history of violent attacks
       against American interests in the city. Consulate General Lahore staff also have good
       morale, not least because they have greater freedom than many of their counterparts
       throughout Pakistan to meet and engage with Pakistanis. Both consulates general are
       well led. Consulate General Peshawar operates under constant threat. The minimal
       U.S. staff there understands exactly why they are in harm’s way and generally have an
       expeditionary spirit that is rarely called for in the Foreign Service. By putting herself
       forward to engage Pakistanis outside consulate walls, despite the dangers, the princi­
       pal ofﬁcer in Peshawar provides her staff with an example of extraordinary bravery.



       RIGHTSIZING
           It is not possible to evaluate rightsizing at Embassy Islamabad as one would at
       other U.S. embassies. Embassy leadership in 2009 went through what they character­
       ize as a rigorous National Security Decision Directive-38 evaluative process to ensure

16 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




that other agency growth in Pakistan was necessary to effect the President’s strategy.
To make expanded reporting, representation, outreach, and support services pos­
sible, the embassy, working with SCA’s executive ofﬁce, developed a stafﬁng plan that
attempted to identify stafﬁng requirements through FY 2011. Responding to these
efforts, the Department authorized substantial personnel growth, both U.S. direct-
hire and LE staff, in all elements of the embassy and consulates.

     These embassy efforts are laudable. However, the lack of clarity about who is
coming, when, and for what purpose is troubling. Department elements, for exam­
ple, are growing constantly. Work portfolios are being redesigned continuously. The
crush of visitors and other urgent work leaves little time for managers to step back
and consider how to organize sections to take advantage of new ofﬁcers or LE staff.
In the case of political-military work, which is growing rapidly as the U.S. military-to­
military relationship with Pakistan improves, there has been no formal effort to date
to determine which embassy ofﬁcers should engage with relevant Pakistani ofﬁcials
or even with ODRP’s staff of more than 150 personnel. (See the political-military
section for further discussion of the political-military affairs function.)

    Due to the urgency to carry out the President’s strategy, including a desire to
demonstrate a normal bilateral relationship with Pakistan as well as normal embassy
operations, Washington has not always taken into account work space, security, hous­
ing, and other requirements to allow new staff to achieve their tasks. There have also
been some lapses in good management practices, an issue developed in the resource
section of this report.

     Moreover, the press to bring in people and start programs before the support
platform is ready has been based on an expansion of resources through supplemen­
tal funding incorporated into both the FY 2010 budget and the FY 2011 budget
request. The mission will be dependent on regularly appropriated program funding
in the future and will be required to evaluate the affordability of its activities care­
fully. Already, constituent posts are clamoring for additional representation funds,
for instance, which do not come from supplemental funding. The MSP will be the
appropriate vehicle to incorporate Embassy Islamabad’s resource needs into the De­
partment’s long-term budget planning.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   17 .


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





18 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





            POLICY AND PROGRAM IMPLEMENTATION




POLITICAL, ECONOMIC, AND COMMERCIAL AFFAIRS
    The mission’s reporting on Pakistan’s political life, economy, and society reﬂect
wide-ranging U.S. interests. Issues that have commanded the attention of the mis­
sion’s political sections include relationships among Pakistan’s leading politicians and
the plight of trafﬁcked persons, especially bonded laborers. The economic section
has reported extensively on Afghanistan-Pakistan transit trade and the energy sector,
and has pressed the government to strengthen protection of pharmaceutical patents
and combat money laundering. The broad economic-commercial team, including the
Ambassador and DCM, has been active in supporting U.S. companies.

Structure and Stafﬁng

    Political and economic stafﬁng is growing substantially, like that of the broader
mission. Ofﬁcers work long hours, six or seven days a week. Because of the constant
stream of visitors, at any given time some staff members are engaged exclusively,
and others partially, in visitor support. As in other mission ofﬁces, one-year tours
hinder the development of expertise and relationships. Although ofﬁcers generally
have good access to Pakistani ofﬁcials, experience is not uniform and depends on the
issue.

     Managing an operation with elements as far-ﬂung and disparate as this embassy
and its constituent posts would be a challenge under the best of circumstances. The
inspection team found that information ﬂow within the embassy, and with the con­
stituent posts, could be improved and made a number of informal recommendations
to address the situation.

      Because English is the language of the educated and business classes in Pakistan,
it is possible to conduct much of the U.S. Government’s business without knowledge
of local languages. Several political ofﬁcer positions are language designated, and
the incumbents received about six months’ language training; they conﬁrm its utility
as an icebreaker, to converse with non-English speakers, and to review local media.
No economic ofﬁcer positions are language designated, although a few ofﬁcers have



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   19 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       limited Urdu proﬁciency. Since most contacts are government ofﬁcials or business
       leaders, and since LE staff is available for interpretation and translation, economic
       ofﬁcers are able to work effectively in English.

           The political section’s structure has not kept pace with stafﬁng levels and the
       complexity of the mission. All the ofﬁcers and LE staff report to the deputy politi­
       cal counselor and through him to the counselor. While this frees up the counselor
       to collaborate more directly with the Ambassador, the deputy is forced to assume
       enormous responsibilities with little real authority (and a reporting portfolio which
       of necessity suffers). The inspection team made several informal recommendations
       regarding structure and division of portfolios. (See sections below on human rights
       and labor and political-military affairs for related discussions.)

           The mission’s economic and commercial team includes economic ofﬁcers and
       LE staff in the embassy and the consulates, the usual agency representation, the
       foreign assistance coordinator and her staff (with support from the economic sec­
       tion), and a Treasury attaché embedded in the economic section in Islamabad. The
       team shares information or coordinates activities through thematic working groups
       chaired by the DCM, the foreign assistance coordinator, or the section head with
       lead responsibility for the issue.

           The U.S. and Foreign Commercial Service (FCS) created a U.S. direct-hire posi­
       tion in Islamabad in 2008, several years after a Karachi-based position was abolished.
       With no FCS ofﬁcer and only one LE staff in Karachi, the economic ofﬁcer takes
       on much of the trade and investment promotion and visitor support functions for
       which FCS has principal responsibility globally. Karachi’s small economic staff is
       unable to respond to all trade inquiries. In both Karachi and Lahore, the economic
       ofﬁcer handles most trade promotion visits, supported by the FCS LE staff. The
       OIG team endorses FCS efforts to establish and ﬁll two new LE staff positions in
       Karachi for which there is an immediate need.

       Coordination and Collaboration

           Technological barriers and security issues often prevent the constituent posts
       from timely exchanges with the embassy. Although the embassy creates a notional
       travel plan so that its ofﬁcers can visit the consulates, implementation is uneven. At
       the same time, the inspectors received several complaints that e-country clearances
       were withheld unreasonably by some constituent posts and that there was imperfect
       comprehension of the advance travel notiﬁcation and permission requirements im­
       posed by the Government of Pakistan, which are not mentioned in the Management
       Notice regarding in-country travel. The inspectors made an informal recommenda­
       tion to address this issue.
20 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



Locally Employed Staff

    As is the rule worldwide, political and economic section LE staff are physically
separate from the ofﬁcers,
                                                                             The
inspectors reviewed samples of LE staff work and found that much of it could be
the core of reporting cables—with proper training and guidance. At present, their
written efforts are conﬁned primarily to biographic reporting, emailed answers to
queries, and reports of meetings. The OIG team made several informal recommen­
dations to clarify supervision, enhance productivity,

    Of the roughly 23 political and economic LE staff scheduled to be on board by
year-end, only four will have more than a year’s experience and two will have received
training at the Foreign Service Institute. Supervisors told the OIG team that they
intend to send LE staff for training as soon as possible, but since the annual relevant
Foreign Service Institute courses can accommodate a very limited number of stu­
dents worldwide3, this will clearly not be a quick solution.



   Recommendation 1: Embassy Islamabad, in coordination with the Bureau of
   South and Central Asian Affairs and the Foreign Service Institute, should ar­
   range in-country training of its political and economic locally employed staff
   by the end of FY 2010. (Action: Embassy Islamabad, in coordination with SCA
   and FSI)


     The OIG team concluded that there is some risk of overly ambitious political
and economic LE stafﬁng growth in Karachi through the end of 2010. Several con­
siderations argue for a pause to assess stafﬁng size against needs. First, by the fall of
2010, political and economic stafﬁng levels, both U.S. direct-hire and LE staff, will be
more than double the level of a year earlier and would be more than triple that level
if all vacancies are eventually ﬁlled. Second, the new consulate building does not
have ofﬁce space identiﬁed for even the current number of political and economic
staff. Third, the likely addition of FCS LE staff will reduce the commercial work­
load for economic section employees. Fourth, less support for USAID visits will be
required when USAID establishes a permanent presence in the consulate general.



3
  One Islamabad LE staff member is scheduled to attend Foreign Service Institute courses in FY
2010.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   21 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          Recommendation 2: Embassy Islamabad should suspend recruitment for four
          new locally employed staff positions in Karachi (two in the political section,
          two in the economic section) at least through FY 2011 in order to give manage­
          ment time to assess workloads and staff needs. (Action: Embassy Islamabad)



       Representation Funds and Activities

           Embassy Pakistan receives ample representation funds (over $48,000 in both
       FY 2009 and FY 2010), and the Ambassador and DCM take full advantage of their
       residences and the residence staff to maintain a busy representation schedule. A
       signiﬁcant portion of this entertaining was at the behest of visiting Congressional
       delegations, which usually have their own representation funds available; the inspec­
       tion team estimated that several thousand dollars could be recovered from visiting
       delegations.


          Recommendation 3: Embassy Islamabad should establish a system for recov­
          ering from visiting delegations the costs of representation events held for their
          beneﬁt. (Action: Embassy Islamabad)



           The record of other sections of the embassy is more problematic. Most ofﬁcers
       reported hosting no events at all, citing workload, contacts’ preference to meet in
       their own homes and ofﬁces, and security concerns. In contrast, the consulates gen­
       eral in Lahore and Karachi have vibrant representation schedules, although ofﬁcers
       often use their own funds to supplement the embassy’s allotment. Both principal of­
       ﬁcers have made their residences and staffs available to other ofﬁcers to host events,
       thus broadening those ofﬁcers’ experience and enhancing the U.S. Government’s lo­
       cal proﬁle. These two consulates, plus Consulate General Peshawar, believe that they
       have insufﬁcient representation funds given the increase in stafﬁng, programs, and
       outreach generated by the President’s Pakistan strategy. The OIG inspectors made
       two informal recommendations on representation.

       Contacts Management

           Contact management is the lifeblood of any organization, especially when the
       U.S. direct-hire staff experiences almost a complete turnover every year. In Islam­
       abad, the executive ofﬁce, political section, economic section, and public affairs



22 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




section (PAS) all maintain separate lists on distinct contact management systems, and
similar circumstances exist at the constituent posts. The OIG inspectors made an
informal recommendation to address this issue.

Reporting and Advocacy

    Mission Pakistan faces daunting reporting challenges. Pakistan’s role on the
frontline in the war on terrorism means that reporting on related topics is read at the
highest levels of the U.S. Government. The embassy also confronts the customary
requirements for scheduled reports, demarche requests, and spot reporting. One-year
tours hinder the development of expertise and relationships that inform reporting.
The volume of high-level visitors draws reporting resources away from analytical re­
porting toward cables on visit activities and conversations, some of which break little
new ground. It is a goal of mission management and reporting ofﬁcers to increase
the volume and coverage of front channel reporting.

    The embassy’s reporting efforts are uneven. Washington readers praised report­
ing, often in restricted channels, intended for that readership. The embassy receives
infrequent feedback on its overall reporting, however, and therefore does not know
how well the coverage of topics or quality satisﬁes Washington’s interests. Strong
analytical reports and policy messages—both political and economic—are interwo­
ven with cables that do not conform to standard Department practice. There are
signiﬁcant gaps in coverage, particularly on external relations and political-military
affairs, including security assistance. Ofﬁcial-informal cables and emails between
Islamabad and the Department often contain spot reporting that should be in front
channel messages. The countrywide political reporting plan is overly ambitious; only
three of 18 cables from the consulates envisioned for January and February had been
transmitted as of March 1, 2010.

     The embassy’s economic section and consulates have prepared separate reporting
plans that are not coordinated with one another or vetted with Washington read­
ers; they contain far more reports than can be produced and some topics of limited
relevance. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2) The OIG team made several informal
recommendations to improve the coverage and quality of reporting.

Biographic Reporting

    Embassy Islamabad and the constituent posts each have large biographic hold­
ings that are generally uncoordinated and are held on local servers at each post. (This
does not include holdings by other agencies and public affairs sections.) Biographic

OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   23 .


                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




       reports are prepared primarily by LE staff, and the OIG team’s review found them
       of good quality. During the pre-inspection survey, some Washington agencies told
       the OIG team that they would like better access to biographic reporting. The mis­
       sion’s work is largely inaccessible to non-Department end-users in Washington,
       however, because the political sections forward the biographies to Washington on an
       ad hoc basis or in response to a speciﬁc request.


             Recommendation 4: Embassy Islamabad should establish a written transition
             plan for shifting biographic reports from the embassy and the consulates to
             Diplopedia. (Action: Embassy Islamabad)



       Leahy Vetting

            Section 563 of the Foreign Operations Appropriations Act (PL 106-429) bars the
       U.S. Government from providing training and equipment “to any unit of the secu­
       rity forces of a foreign country if the Secretary of State has credible evidence that
       such unit has committed gross violations of human rights…” Determining whether
       such “credible evidence” exists is accomplished by the Leahy vetting process, which
       is often politically sensitive in both the recipient country and in the United States.
       Unfortunately, overseas posts carry out this process under ambiguous and outdated
       guidance. The Department’s last general instruction to the ﬁeld was in a 2003 cable,4
       and an informal handbook produced by the Bureau of Democracy, Human Rights,
       and Labor (DRL) has not been updated since 2007. No standard template for the
       data to be included in Leahy vetting cables exists; the embassy in Islamabad received
       several informal suggestions from the Department for revisions to formats and data
       during the inspection.


             Recommendation 5: The Bureau of Democracy, Human Rights, and Labor,
             in coordination with the Bureau of Political-Military Affairs, the Ofﬁce of the
             Legal Adviser, and the regional bureaus, should revise and reissue the world­
             wide guidance on Leahy vetting. (Action: DRL, in coordination with PM, L,
             EUR, WHA, NEA, SCA, AF, EAP)


           In Pakistan, the DCM’s ofﬁce management specialist coordinates Leahy vetting.
       She receives information from various embassy elements regarding candidates and
       circulates it for internal review; prepares and transmits cables to the Department; and

       4
           03 State 34981


24 .        OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




maintains a database of candidates submitted, cleared, and not cleared. Leahy vetting
is logically a political-military function and usually resides in the political section. In
addition, Leahy vetting is a potential friction point in the bilateral relationship that
will require ongoing policy level attention. Assigning this responsibility to an ofﬁce
management specialist in the executive ofﬁce made sense in a less-well-staffed mis­
sion but is no longer appropriate.


   Recommendation 6: Embassy Islamabad should reassign policy responsibility
   for Leahy vetting coordination to the embassy’s political-military element. (Ac­
   tion: Embassy Islamabad)




Human Rights, Trafﬁcking in Persons, and
Religious Freedom

    Issues related to human rights, trafﬁcking in persons, and religious freedom ﬁg­
ure signiﬁcantly in the reporting workload of the embassy and its constituent posts,
and the embassy has done good work in these areas.

    The creation of a new position in the political section in summer 2009 allowed
two separate ofﬁcers to be assigned to the human rights, religious freedom, labor,
and trafﬁcking-in-persons portfolios, which enhanced reporting productivity, respon­
siveness to Washington inquiries, and effectiveness on the ground. In addition, an
ofﬁcer in the economic section follows trade-related labor issues.

     DRL and the Ofﬁce to Monitor and Combat Trafﬁcking in Persons (G/TIP)
have been pleased with the embassy’s reporting and responsiveness to their inter­
ests. Most notably, the embassy intervened in a high-proﬁle bonded labor case in fall
2009, resulting in freedom for 150 laborers and underscoring the importance of judi­
cial action to reduce such abuses. The Secretary sent the Ambassador a cable praising
the mission’s trafﬁcking-in-persons efforts and singling out the responsible ofﬁcer by
name.

     Both DRL and G/TIP have extended grants to entities in Pakistan; the grants are
managed in Washington, but personnel at the embassy or relevant consulates would
normally monitor the program activities on the ground. This has not been possible
because of travel restrictions. Pre-award consultation with the embassy and consul­
ates helps avoid some oversight difﬁculties, but despite best efforts, at least one grant
is in serious danger of nonperformance.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   25 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           Notwithstanding the strong performance in the human rights and trafﬁcking
       portfolios, the OIG team concluded that there may be an overly generous allocation
       of embassy resources to these portfolios given overall U.S. Government priorities
       and gaps in coverage elsewhere. The team made an informal recommendation in this
       regard.



       THE POLITICAL-MILITARY FUNCTION
           Two components of the embassy cover political-military issues: elements of the
       political section, and a border coordination ofﬁce created in August 2008 to coordi­
       nate the full range of transborder issues between Afghanistan and Pakistan. These
       components interact continuously with the ODRP, which encompasses the tradition­
       al embassy Defense attaché and security assistance functions, and represents CENT­
       COM’s forward presence in Pakistan.

           Washington ofﬁcials praised the quality of reporting on political-military issues;
       the OIG team found the quality was good, and sometimes excellent. However, those
       same Washington ofﬁcials expressed a need for far more information. The embassy’s
       reporting plan calls for only two political-military analytical pieces from the embassy
       and one from Karachi in the ﬁrst six months of 2010, plus ongoing reporting on
       military operations in the Peshawar consular district.

           Although some embassy ofﬁcers said their access to Pakistani ofﬁcials was good,
       the embassy’s two political-military ofﬁcers do not have established or formalized
       relationships with either Pakistani ofﬁcials or even with ODRP’s staff of more than
       150.

            The political-military aspects of the U.S.-Pakistan relationship, and the burdens
       they place upon the embassy, will only increase in the foreseeable future. The shift
       of funding authorities for security assistance from the Department of Defense to
       the Department of State beginning in FY 2011 will increase the policy and manage­
       rial burdens on the Department, both in Pakistan and in Washington, with very high
       stakes. The OIG inspectors believe that the structure and stafﬁng envisaged for the
       political-military function are unlikely to be adequate to the task. It has been a gen­
       eral practice within the Department to create political-military sections in embassies
       with a wide-ranging, complex military relationship with the United States, and that is
       certainly the case in Pakistan.




26 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



   Recommendation 7: Embassy Islamabad should create a political-military
   section separate from the political section and work with the Bureau of Hu­
   man Resources to accurately describe in bidding tools the positions assigned to
   political-military functions. (Action: Embassy Islamabad, in coordination with
   DGHR)


    The OIG inspectors discussed with the political-military team strategies to
enhance its effectiveness as it carves out its role in Islamabad and made an informal
recommendation.

    The border coordination ofﬁce has been effective in large part because it enjoys
the Ambassador’s full faith and conﬁdence. The ofﬁce performs valuable functions
in support of the executive ofﬁce that are not of a political-military nature. In many
embassies, however, most of its functions would be placed in a political-military sec­
tion. It is not clear that the success it has enjoyed to date can be replicated after the
upcoming change of embassy and border coordinator ofﬁce leadership.



   Recommendation 8: Embassy Islamabad should merge positions in the ofﬁce
   of the border coordinator that have substantial political-military responsibilities
   into the newly formed political-military affairs section. (Action: Embassy Islam­
   abad)




FOREIGN ASSISTANCE
Assistance Coordination

    Embassy Islamabad recently established the position of coordinator for eco­
nomic and development assistance, modeled on a similar ofﬁce at Embassy Kabul.
Headed by a senior ofﬁcer with extensive regional experience, the coordinator works
under the direct supervision of the Ambassador and the DCM. The ofﬁce coordi­
nates the efforts of all agencies and ofﬁces providing civilian assistance to ensure
that assistance programs work more directly with Pakistani institutions to develop
capacity and ensure long-term sustainability and that outcomes are measured insofar
as possible. Agencies and ofﬁces providing civilian assistance include USAID, the
Bureau of International Narcotics and Law Enforcement Affairs (INL), the Bureau
of Population, Refugees, and Migration (PRM), and the Departments of Commerce,
Treasury, and Defense.
OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   27 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



            The coordinator is effective in managing relations among agencies and other
       donors; ofﬁcials in Washington uniformly praise her efforts and her role. She played
       a key role in developing and then getting Washington approval for the civilian as­
       sistance strategy. Her staff has done an admirable job of identifying all U.S. funding,
       programs, and projects in-country, including an unexpended pipeline of upwards of
       $1 billion going back to FY 2004.

            With an assistance strategy in place, the coordinator is turning her attention to
       implementation, particularly in several priority areas. First is to accelerate and con­
       solidate assistance programming in FATA and the NWFP, and to verify that plans for
       monitoring programs can be effective when direct access by Americans is problem­
       atic. Second, an approach must be developed to ensure that NAS’ extensive expertise
       and experience in FATA/NWFP is fully utilized by USAID and that programming
       by the two agencies is complementary and not duplicative. A third task is to use the
       detailed information developed on programs and the funding pipeline as a tool for
       managing the expanded U.S. effort further consolidating and rationalizing various
       elements of the assistance effort. A ﬁnal task is to assess the extent to which human­
       itarian assistance should conform to the guiding principle in the civilian assistance
       strategy of local implementation.

            Much of the foreseen assistance build-up is targeted at areas where monitor­
       ing the effectiveness and performance of programs will be especially difﬁcult – the
       NWFP and FATA. Overland access is dangerous under the best of circumstances.
       Several informal proposals for air access were mooted during the inspection team’s
       visit. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)       The inspection team made informal recommendations to
       help shape decisionmaking in this area.

       Security Assistance

            Pakistan is among the top recipients of U.S. security assistance in the world. In
       2009, Pakistan was authorized $300 million in Foreign Military Finance, $2.3 million
       in International Military Education and Training, and several hundred million dollars
       in Pakistan for the Counterinsurgency Fund (PCF) and its successor, the Pakistan
       Counterinsurgency Capability Fund (PCCF). Pakistan also received nonproliferation
       funds and antiterrorism assistance. The Supplemental Appropriations Act provided
       $400 million to the PCF and $700 million in the PCCF for FY 2010 and 2011. For
       FY 2011, the embassy requested $500 million in FMF and $3 million in International
       Military Education and Training. The Supplemental Appropriations Act envisages
       a transfer of the primary responsibility for the PCF-PCCF funds from the Depart­

28 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




ment of Defense to the Department of State. Both departments are still working
on the administrative arrangements for the transfer and the manner in which the
Department will administer these funds. This transfer may impose an additional
workload on the political-military ofﬁcers in the embassy, but the dimensions of this
burden are as yet unclear.

Humanitarian Assistance

    The mission’s response to a large-scale humanitarian crisis in 2009 saved lives
and strengthened relations between the U.S. and Pakistan’s Government and people.
Militants’ incursion into Swat and nearby districts, and ﬁghting that ensued as the au­
thorities launched an offensive to expel them, led to rapid displacement of some two
million people. During the preparations for the inspection, Department representa­
tives lauded the embassy’s concerted response and effective communication with
Washington under the Ambassador’s leadership. The mission’s constructive relation­
ships on the ground enabled the United States to mobilize ample assistance.

    Several mission elements provide humanitarian assistance and compose the core
of the mission’s humanitarian working group, led by the Ambassador. A refugee
coordinator, assisted by one LE staff member, oversees the Bureau of Population,
Refugees, and Migration’s (PRM) humanitarian assistance for internally displaced
people (IDP) and refugees (mostly Afghans). In this capacity, she manages embassy’s
relations with the PRM’s implementing partners—the ofﬁce of the United Nations
High Commissioner for Refugees (UNHCR) and the International Committee of the
Red Cross (ICRC).5 The refugee coordinator is embedded in the embassy’s political
section but is rated by the DCM, an arrangement that the OIG team considers work­
able in view of the constructive relationships among the ofﬁcers involved.

    Two other mission elements provide humanitarian assistance for IDPs. They are
ODRP and USAID’s Ofﬁce of Foreign Disaster Assistance (OFDA). OFDA funds
Pakistan-based international nongovernmental organizations (NGO) and UN agen­
cies, and ODRP supplies equipment and training to the Pakistani military. In addi­
tion, both OFDA and USAID’s Ofﬁce of Transition Initiatives (OTI) fund small-
scale repairs to infrastructure and income restoration projects in conﬂict areas where
some of the population continue to receive humanitarian assistance. This type of
assistance supports the transition from relief to development, and affects the scale
and duration of emergency humanitarian needs.

5
  The Ofﬁce of Inspector General, Middle East Regional Ofﬁce (MERO) is undertaking a per­
formance audit of PRM’s management of humanitarian assistance to ISPs through its inplement­
ing partners, UNHCR and ICRC.


    OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   29 .


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           During the IDP crisis, the refugee coordinator had lead responsibility for re­
       porting on the situation to the Department, as well as coordinating activities with
       UNHCR and ICRC. OFDA deployed a disaster assistance response team to Pakistan
       for several weeks, and ODRP coordinated delivery of relief supplies from the De­
       partment of Defense to the Pakistani military.

           Although the crisis has passed, Pakistan continues to need humanitarian assis­
       tance. Many people remain displaced. New displacements have arisen in connection
       with sporadic ﬁghting. Returnees need relief supplies as well as programs to help
       restore infrastructure and incomes. PRM, OFDA, ODRP, and OTI continue to sup­
       ply humanitarian assistance to displaced people.

           As the humanitarian situation has become less acute, the humanitarian working
       group has met less frequently. Various elements are not always fully informed about
       the others’ humanitarian and early recovery activities, and this poses some risk of
       lack of coordination in directing assistance to IDPs and returnees. The OIG team
       made an informal recommendation to redress this deﬁciency.

           Despite large-scale repatriation of Afghan refugees beginning in 2002, about 1.7
       million registered Afghan refugees remain in Pakistan. PRM funds assistance to them
       principally through contributions to UNHCR and secondarily through cooperative
       agreements with international NGOs that provide complementary assistance not
       handled directly by the UN or the Government of Pakistan. These NGOs provide
       health services and livelihoods training, and mitigate gender-based violence, among
       other kinds of support. Although PRM funding to NGOs accounted for only about
       $6 million among approximately $116 million in total support for Pakistani IDPs and
       Afghan refugees last ﬁscal year, the refugee coordinator and LE staff spend a dis­
       proportionate amount on monitoring some 15 projects among nine NGOs. Limited
       access to project sites hinders oversight. Security risks prevent the refugee coordina­
       tor from visiting most project sites, although the LE staff member has better access.
       The refugee coordinator and LE staff member monitor projects by email and phone
       contact with NGO implementing partners and by periodic meetings in Islamabad.
       They also participate in PRM-organized panel reviews in Washington to evaluate
       competing NGO project proposals submitted to PRM for funding.

           PRM has begun to consolidate certain distinct projects into larger projects with
       multiple objectives and, in one case, to end support for a project that had accom­
       plished its goals and turned over management from an international NGO to a
       Pakistani Government entity. At the same time, PRM has begun to fund a program
       jointly sponsored by UNHCR, the United Nations Development Program, and
       the Government of Pakistan to provide support to communities that host Afghan


30 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




refugee populations. Consolidating projects and reducing the number of cooperative
agreements, without disrupting services to refugees, will reduce the time spent and
the risks associated with evaluating project proposals and monitoring projects, while
promoting sustainable transitions to local implementation.

    A key principle of the U.S. civilian assistance strategy is to build national capacity
by empowering Pakistani entities to implement U.S.-funded projects. The mission has
not evaluated to what extent this principle should apply to U.S. humanitarian assis­
tance. The OIG team made an informal recommendation on this issue.

Narcotics Assistance and Law Enforcement

    NAS administers a budget which nearly doubled in FY 2010 to $193 million,
under a letter of agreement with the Pakistani Government dating from 1982 and
amended 72 times since then but never completely revised. Its programs are orga­
nized into three primary areas: border security, law enforcement and criminal justice,
and counternarcotics. Some of these include training activities performed by several
other U.S. Government agencies but funded by NAS. In addition, ODRP has an FY
2010 budget of $100 million for counternarcotics activities with the Pakistani mili­
tary, and the Department’s Anti-Terrorism Assistance program for FY 2009 provided
$20 million in training and assistance to the Pakistan security services.

    Most law enforcement training has been suspended since June 2009 due to the
inability of trainers to obtain Pakistani visas and Government of Pakistan restric­
tions on access to U.S.-built training facilities. At the time of the inspection, the
embassy was pushing a resolution. If these issues are not resolved soon, it will be dif­
ﬁcult to justify funding increases for a program that the Government of Pakistan has
suspended.

    The law enforcement working group (LEWG) meets monthly under the chair­
manship of the NAS director, rather than the DCM (a common practice where
multiple law enforcement agencies are present). The minutes of the meeting are sent
to the executive ofﬁce for information and, where necessary, approval. The meetings
appear to focus upon coordination of training activities and high-level visits. Some
members of the group noted that the LEWG is not serving as a clearinghouse for
investigative activities. During the inspection, the DCM convened the LEWG mem­
bers to determine how meetings might best be structured to meet participants’ needs.

    For many years, NAS was one of the few U.S. vehicles for managing program­
matic activities in Pakistan. As a result, it carried out many projects that would
ordinarily fall to other agencies and programs, such as road construction. With the


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   31 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       new civilian assistance strategy focused on NWFP and FATA, and given NAS’ track
       record, experience, and access to remote areas of the country, the embassy would
       like to see NAS continue in that role. The OIG inspection team supports this only
       as a short-term exigency until more traditional development mechanisms move into
       place.

       United States Agency for International
       Development

            USAID’s assistance program in Pakistan will increase from $330 million in FY
       2009 to $1.2 billion in FY 2010, encompassing about 80 percent of all FY 2010
       U.S. nonmilitary assistance to Pakistan. To manage the expansion, USAID plans to
       increase staff by about two-thirds through FY 2011, for a total of approximately 335
       American and LE staff countrywide. Given the important role that Pakistan’s provin­
       cial governments will play in implementing U.S. assistance programs, USAID plans
       to establish ofﬁces at the consulates general in Karachi and Lahore in addition to
       increasing staff in Islamabad and Peshawar. USAID’s large and rapid growth pres­
       ents challenges for management support and consolidation that this report addresses
       in the management section.

           The civilian assistance strategy adopted in Washington in December 2009 con­
       templates working principally through Pakistani entities—both government and non­
       government—to implement assistance programs. This entails a fundamental change
       in the way that USAID operates in Pakistan. To implement the new strategy, USAID
       assigned a new mission director and several new senior staff. The leadership is mak­
       ing progress in gaining staff acceptance of the strategy, and is conﬁdent that some
       75 percent of its assistance program will use Pakistani implementers in FY 2010,
       with further gains in FY 2011.

           Working with national implementers, many of which are new partners for
       USAID, presents risks related to the effectiveness of their internal controls, procure­
       ment practices, and implementation capacity. USAID leadership is working to mini­
       mize risks by setting conditions precedent to disbursement and by engaging Pakistani
       audit ﬁrms to prequalify its implementing partners and monitor and train where
       there are deﬁciencies. The USAID Inspector General has recently established an of­
       ﬁce in Islamabad.

           Assistance to conﬂict-affected frontier regions is helping to address basic needs,
       restore damaged infrastructure, improve health and education, increase economic
       opportunities, and strengthen the local governments’ capacities to deliver services.
       USAID is increasing funding substantially in frontier regions, having concluded


32 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




agreements for more than $100 million since December 2009. Working in the fron­
tier region, however, presents additional security risks, and limited or no access to
monitor assistance projects.



PUBLIC AFFAIRS
    One year ago, PAS Pakistan managed a program budget of about $1.5 million.
Today, PAS directly manages more than $30 million, one of the largest public diplo­
macy (PD) programs in the world. This year, the international visitor leadership pro­
gram will bring nearly 200 Pakistanis to the United States; the Fulbright program will
bring hundreds of undergraduate and graduate students and scholars to the United
States; and other exchange programs will bring hundreds more.6 Moreover, Embassy
Islamabad has one of the heaviest visitor loads in the world, works in the face of a
hostile public and media, and suffers under the problems inherent in one-year tours.

    PAS Islamabad is performing very well in this challenging environment. How­
ever, the crushing workload makes it difﬁcult to have a fully effective public diplo­
macy program without regular, extensive outreach work. Each ofﬁcer the OIG team
spoke with admitted that he or she had done insufﬁcient contact work. With current
stafﬁng levels, PAS Islamabad is not able to accomplish the frequent taskings from
within the embassy and from the Department, organize events for visiting ofﬁcials,
manage the exchange programs, and still carry out contact work. (A recommendation
addressing this issue follows below.)

    The issue of outreach is more than unusually difﬁcult in Pakistan. The security
environment precludes the easy meetings and invitations common in friendlier and
safer locales. PD ofﬁcers in Karachi and Lahore have been able to manage more
extensive outreach efforts than ofﬁcers in Islamabad because the former are not tied
down by the reporting requirements and visitor loads of those in Islamabad.

    In effect, security concerns have taken the public out of public diplomacy:
American Centers closed and all PAS American and LE staff moved to secure—-but
forbidding—buildings. American Corners, staffed by Pakistanis, replaced American

6
 In 2009, OIG issued a Memorandum Report on the Limited Scope Review of Managemnet and
Internal Controls over the J. William Fulbright Scholarship Fund in Pakistan (MERO I-09-07).
Embassy Islamabad was addresing the recommendations in that report at the time inspection.
The embassy hired a new auditor for the United States Educational Foundation in Pakistan to
ensure compliance with sound ﬁnancial practices and was in the process of selecting a new ex­
ecutive director for the foundation.



    OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   33 .


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       Centers and they have had some success, but they are a success only because there is
       no alternative to American Corners at present. The four American Corners reported
       approximately 28,000 Pakistani visitors in 2009, but almost none of those visitors
       met an American and few participated in a program that would lead to a better un­
       derstanding of the United States and U.S. policies.

           Embassy Islamabad has asked the Department to support the reestablishment
       of American Centers in Pakistan. While it is too early to know what form the centers
       might take, whether or not security requirements would be so off-putting as to pre­
       vent Pakistanis from entering the premises, and how much these new centers would
       cost, the OIG team believes that it is worth exploring the issue.

           The Department recognized that the increase in resources described above re­
       quired a plan that would spend these resources well and that would include rigorous
       evaluation to determine which programs were most effective in Pakistan. The Ofﬁce
       of the Under Secretary for Public Diplomacy and Public Affairs convened a work­
       ing group that created the Pakistan Communications Plan, which details the public
       diplomacy challenges, the programs recommended to meet those challenges, and the
       performance indicators to be used to evaluate those programs.

            Several of the goals required the completion of sub-plans prior to the arrival of
       the OIG team. These have not been created. Some goals require that baseline mea­
       surements be established so that progress can be measured against a starting point.
       No such benchmarks existed at the time of the OIG team’s visit. Some performance
       indicators require clariﬁcation or reﬁnement before they can be used. Addressing
       these problems may require temporary duty expertise in polling and research based at
       Embassy Islamabad so that the revisions are informed by Pakistani expertise. Unless
       these issues are addressed soon, millions of dollars will have been spent and there
       will be no way to measure the effectiveness of the programs.



          Recommendation 9: The Under Secretary for Public Diplomacy and Public
          Affairs, in coordination with the Bureau of Intelligence and Research, should
          revise the Pakistan Communications Plan so that all elements are clear, that
          baseline measurements are established, and that performance indicators are ap­
          propriate. (Action: R, in coordination with INR)




34 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    The communications plan also calls for PAS Islamabad stafﬁng above current
levels so that the plan’s programs may be carried out. There are currently six PD ofﬁ­
cers in the embassy’s PAS: one senior PD-cone Foreign Service ofﬁcer with approxi­
mately 25 years of experience, two PD-cone ofﬁcers on their ﬁrst PD assignment,
one political-cone ofﬁcer in his ﬁrst PD assignment, one Civil Service employee on
an excursion tour, and one American contractor on a one-year contract. The public
affairs ofﬁcer (PAO) has 25 years of experience in PD work; the ﬁve others—in
total—have less than ﬁve years of PD experience.

    With the exception of the PAO, the staff has been sent to Islamabad on its ﬁrst
PD tour and expected to implement one of the largest and most complex PD pro­
grams in the world. To expect an understaffed, inexperienced (albeit hard-working
and willing) staff to implement a large, complicated, and important PAS program is
not good management.

    The current stafﬁng chart shows 11 PD ofﬁcer positions—PAS Islamabad is op­
erating with ﬁve of 11 positions unﬁlled. Until these positions are ﬁlled, the Pakistan
Communications Plan will not be implemented as envisioned.



   Recommendation 10: The Bureau of Human Resources, in coordination with
   the Bureau of South and Central Asian Affairs, should assign experienced pub­
   lic diplomacy ofﬁcers (either active-duty Foreign Service ofﬁcers on a tempo-
   rary-duty or when-actually-employed basis) to ﬁll the authorized positions until
   the arrival of permanent incumbents. (Action: DGHR, in coordination with
   SCA)


     In the 2005 OIG inspection of Pakistan, the OIG team recommended that the
Bureau of International Information Programs (IIP) begin translating speeches and
important documents into Urdu for use by PAS Islamabad. This recommendation
was never implemented: PAS stated that there were technical issues that prevented
its implementation. In discussions during this inspection, PAS ofﬁcers welcomed the
idea.

    Currently, PAS staff translates and edits key speeches, texts, and documents
themselves, but they are not always able to get them out on the same day Failure to
provide these materials on a timely basis frequently means that the materials sent
become background materials for the recipients—too old to be news. Thus, they may
be read, but they are no longer considered for use in newspapers or on news broad­
casts.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   35 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          Recommendation 11: The Bureau of International Information Programs
          should establish an Urdu language translation capability to include translating
          materials daily and in time for immediate dissemination upon the opening of
          business in Islamabad. (Action: IIP)


            The head of all Embassy Islamabad PD programs is the strategic communica­
       tions coordinator (at the time of the inspection, the incumbent was also the acting
       PAO and acting cultural affairs ofﬁcer). The coordinator is charged with oversight
       of the information programs of PAS, USAID, ODRP, and the military information
       support team. The leaders of these programs meet once a week to discuss upcom­
       ing plans and programs, e.g. press releases, opening ceremonies, media events, and
       publications. All the leaders told the OIG team that they cleared plans and materials
       with the coordinator. However, one of the program leaders told the OIG team that
       “the system worked well,” but that, at present, it was “personality and relationship
       dependent.”

           There is no written guidance establishing the responsibilities and authorities of
       the strategic communications coordinator. Without formal guidance, future incum­
       bents could redeﬁne responsibilities in such a way that there is no central coordina­
       tion of the embassy’s public affairs programs. This could lead to ineffective or even
       contradictory efforts.



          Recommendation 12: Embassy Islamabad should issue a memorandum detail­
          ing the responsibilities and authorities of the strategic communications coordi­
          nator. (Action: Embassy Islamabad)


           The OIG team made informal recommendations about several administrative
       issues.



       CONSULAR OPERATIONS
       Overview

           Three of the four U.S. diplomatic facilities in Pakistan currently provide consular
       services. Islamabad provides the full range of visa and American citizen services
       (ACS); Karachi and Lahore both have ACS units. In November 2009, Karachi re­


36 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




sumed processing a limited number of nonimmigrant visas (NIV) pending the move
to a new compound with sufﬁcient space to resume full NIV operations. Due to the
security situation, the incumbent of the Peshawar consular position is actually resi­
dent in Islamabad, although Peshawar has a trained ofﬁcer in another section who
can provide emergency services for Americans in that district.

    Visa operations, both NIV and immigrant visas (IV), dominate the attention of
consular managers and spawn the majority of their communications with the Bu­
reau of Consular Affairs (CA). The burden of processing security advisory opinions
(SAO) in a country where a signiﬁcant percentage of the male population shares a
handful of common names affects stafﬁng, efﬁciency, overtime, morale, and ELO
development. SAO processing has paralyzed the issuance of both IVs and NIVs in
the past. The consular sections in Islamabad and Karachi are managing their visa
workloads well, primarily because they have adapted SAO processing to Pakistan
ethnic realities. SAOs are discussed in detail in the classiﬁed annex to this report, and
the OIG team made a recommendation to address processing particularities.

Consular Management

    One-year tours of duty tax even the most experienced consular managers. In
Islamabad, two of the three managers had not done visa work since September 11,
2001, when the SAO processes changed markedly, affecting work ﬂow and process­
ing times. Both opted to continue the SAO processes their predecessors had de­
signed while trying to advance the discussion over the SAO conundrum with CA.
Islamabad’s consular managers are committed to excellence in the workplace, and
they welcomed several informal OIG recommendations regarding customer ser­
vice, efﬁcient work ﬂow, and personnel development. Consular management fosters
a generally positive work environment despite the crushing SAO workload and an
outdated facility that provides limited privacy and work space.

    One of the simplest steps that Islamabad can take to improve customer service
involves the appointment system. Although the embassy uses an offsite contractor
to make all visa appointments in both Islamabad and Karachi, virtually all of Islam­
abad’s NIV and IV applicants are given appointments for 7:30 a.m., which causes
overcrowding in the limited indoor waiting area and discomfort to the overﬂow
crowd in the partially covered exterior waiting room. At the OIG team’s suggestion,
the embassy adjusted its appointment times to reduce pressure on its waiting room
and limit the number of hours applicants have to wait before being interviewed.
Management in Karachi also understands the importance of calibrating appoint­
ments and staggering the times of NIV and ACS services when they move to their



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   37 .


                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




       new premises, which have adequate waiting space for a maximum of 20 persons and
       an anticipated, initial NIV interview load of over 100 per day.

            The consul general in Islamabad does not provide close oversight and coordina­
       tion for consular operations countrywide. As the senior ofﬁcer in the largest consular
       section in the country, the consul general obviously spends most of his time on
       Islamabad issues. At present, Karachi’s sole consular ofﬁcer is an FS-03, and Lahore’s
       is currently an FS-04 who doubles as the general services ofﬁcer. Both organize their
       operations relatively independently. The consular sections in Islamabad and Kara­
       chi, for example, use two different protocols for processing NIVs once they have
       received the SAO clearances from CA. Karachi’s process may not be feasible when
       their workload increases, but at present, it is more in line with the standard SAO
       process worldwide than Islamabad’s process. With the imminent transfer of approxi­
       mately 30 percent of the NIV caseload to Karachi, the Islamabad consul general’s
       coordination will be essential to ensure standardization and internal controls as well
       as to reduce duplication of effort.

           Although the consul general’s work requirements statement includes responsibili­
       ty for countrywide coordination and oversight, the most recent evaluation itself does
       not address performance in this area. Unless the coordination role is given promi­
       nence in the work requirements statements of future consuls general, the temptation
       to focus on the complex Islamabad workload will be perpetuated.



           Recommendation 13: Embassy Islamabad should emphasize the consul gen­
           eral’s responsibilities as the coordinator of consular operations countrywide in
           the standard work requirements statement and emphasize performance in that
           area in the annual performance evaluation. (Action: Embassy Islamabad)


           Consular ofﬁcers, notably the ELOs in the two Islamabad visa units, work sub­
       stantial overtime to complete SAO clearance submissions on the same day that the
       applicant has been interviewed and to process SAO responses from CA for appli­
       cants interviewed days, weeks, or months earlier. As discussed in the classiﬁed annex,
       SAO processing in Pakistan is onerous and certainly cannot be completed in the nor­
       mal work day, but consular management has not been pre-authorizing and justifying
       untenured ELO overtime as required by regulation.7 Once Karachi begins full service
       NIV processing, the demand for ELO overtime may become an issue there as well.
       7
        The Pakistan service recognition package already includes 20 percent premium pay for all ten­
       ured ofﬁces to compensate for the unusually long hours required to meet the mission’s goals.



38 .       OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



   Recommendation 14: Embassy Islamabad should pre-approve and justify
   consular overtime countrywide in accordance with regulations. (Action: Em­
   bassy Islamabad)


     The consular section is located in an unclassiﬁed annex several minutes walk
from the chancery. The chancery has a small room with three classiﬁed terminals
for ofﬁces that do not have access to classiﬁed processing in their work spaces. The
consul general regularly checks classiﬁed cable trafﬁc for material of interest to the
section, but other ofﬁcers rarely check cable trafﬁc or classiﬁed email. During the
preparation phase of the inspection, CA personnel noted that ofﬁcers occasionally
fail to respond to classiﬁed emails relating to SAO processing, losing valuable time
in resolving cases. The relentless pace of the visa work means that this situation is
unlikely to be resolved in the near future. Even if one ofﬁcer reads classiﬁed com­
munications, it does not mean that a message to another ofﬁcer about a speciﬁc visa
case will receive timely attention. The OIG team made an informal recommendation
that the embassy set up a classiﬁed, collective email address for the consular section,
advise relevant CA ofﬁces about the new collective address, and set up a daily rota­
tion of consular ofﬁcers to read cable trafﬁc and check the consular email box.

    Consular management does not have a systematic training program for either
ofﬁcers or LE staff, apart from the initial ELO training in post-speciﬁc workﬂow
and processing. There are four Islamabad NIV LE staff members, for example, who
have started work in the past two years but have not yet taken the basic online visa
training, allegedly due to the press of work. They are required to prepare SAO drafts
every day without understanding the context for their work. Similarly, they know
that H and L visas both apply to persons intending to work, but not the difference
between the two.

    Management has established regular administrative days for the consular section­
-an excellent idea. However, these administrative days do not include a regular train­
ing component for either ofﬁcers or LE staff. In Karachi, all the LE staff, including
the newest employees, has taken online basic training and a number of additional
distance learning courses. The OIG team made two informal recommendations relat­
ing to training.

Visa Processing

    Although NIV demand is only about half of the pre-2001 ﬁgures, the workload
has increased from the precipitous decline after the events of September 11, 2001.
IV numbers have increased signiﬁcantly in the past ten years. There were no inter-


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   39 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       view backlogs in either the NIV or IV unit at the time of the inspection. The IV
       unit has been whittling away at a 300-case asylee follow-to-join backlog left by the
       departure of the U.S. Citizenship and Immigration Services ofﬁce in 2007. Before
       they could begin work on the backlog, IV staff members had to design a process to
       address the caseload. Since January 2010, progress has been steady, and all refugee
       interviews should be completed by April 2010.

            Both the NIV and the IV visa units work well. The ofﬁcers interview carefully,
       and with cultural sensitivity. There are a growing number of useful standard oper­
       ating procedures (SOP), although a recent consular management assistance team
       (CMAT) recommended that management pay even closer attention to updating exist­
       ing SOPs or producing additional ones. Two eligible family members, both consular
       associates, are experienced and well integrated into the units. Work ﬂow is rational,
       and the NIV unit is adapting its processes to the new online application process. It
       is too early to comment on Karachi’s NIV unit because, at present, Karachi does not
       have a full-time consular ofﬁcer and processes a limited number of business travel­
       ers. Karachi has hired three NIV LE staff in anticipation of the resumption of full
       NIV services, but there has been no ﬁrm date yet set for the move to the new ofﬁce
       compound, which will determine when full services can begin.

            In the 1980s, Karachi halted IV processing and transferred several thousand
       pending IV ﬁles to Islamabad. This transfer predated the modern computer systems
       or the establishment of the National Visa Center, and if applicants did not contact
       Embassy Islamabad to inquire about their pending visa applications, there was no
       way to track these cases. Now, 30 years later, either the petitioners have ﬁled new
       applications for their relatives or the applicants have lost any interest in immigrat­
       ing, and the thousands of cases are taking much-needed room in Islamabad’s limited
       consular space. The National Visa Center is prepared to follow up on these cases
       if Islamabad can send them the estimated 140 cartons after having veriﬁed if any
       applicants already appear in the IV system. Years ago, Islamabad integrated these
       cases, along with hundreds of other “old” cases, into their regular IV new case ﬁles.
       The process of culling thousands of cases and verifying them in the IV system will
       require weeks of intensive work, and Islamabad’s consular ofﬁcers and LE staff are
       already working long hours. Karachi’s three NIV LE staff, however, will not be fully
       employed until regular NIV services begin sometime in the late summer. The OIG
       team made an informal recommendation that Islamabad explore funding the TDYs
       of two of the Karachi LE consular staff to complete this project.

           As mentioned earlier, SAO processing occupies well over half the work week for
       ofﬁcers in the visa units. In recognition of the complexity of visa work in Pakistan,
       the Department has assigned more ofﬁcers to Islamabad than its case load would


40 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




warrant normally. OIG’s 2005 inspection report enjoined CA to address the problem
of interminable rounds of SAOs, but no sustainable solutions have been forthcom­
ing. The embassy’s innovative but unsanctioned efforts to manage the SAO workload
are detailed in the classiﬁed annex along with a recommendation to CA to resolve
the Pakistan conundrum once and for all. The nexus between the visa units and the
fraud prevention unit is discussed in the fraud prevention section of the report.

    The visa referral program appeared to be working well and following CA guide­
lines. The classiﬁed annex discusses the Visas Viper program.

Expanding Visa Services in Pakistan

    During the inspection, the embassy was preparing a proposal to the Department
to resume NIV processing in Lahore in response to an earlier S/SRAP statement
that NIVs would return to all of the consulates in Pakistan. The OIG team consid­
ered this proposal carefully and does not recommend the further devolution of NIV
processing in Pakistan.

    CA consolidated NIV processing in Pakistan in 1997. This was not done as a
response to any security concerns but as part of CA’s worldwide effort to achieve
economies of scale and ensure senior management oversight of its operations. Even
during the pre-2001 visa heyday, for example, the combined NIV workload from
Islamabad, Karachi, and Lahore was roughly equal to Seoul’s FY 2009 NIV casel­
oad. Breaking Pakistan’s 70,000-case NIV applicant pool into three smaller pools of
25,000 each simply does not make sense. Consolidation of three operations headed
by relatively inexperienced ofﬁcers into one medium-sized operation headed by a
more experienced ofﬁcer was a good management decision in 1997, and it still is.
However, the OIG team does support the embassy’s initiative to assign a full-time,
mid-level consular ofﬁcer to Lahore to manage its ACS and fraud workloads. (See
ACS section of the report.)

    Following the events of September 11, 2001, it is even more important that the
visa process be overseen by senior managers and that it is consistent worldwide. Be­
cause of Pakistan’s nexus with Taliban and Al-Qaeda activity, DHS chose Islamabad
as the site of one of its ﬁrst visa security units (VSU), and that program has been
reviewing the totality of approved NIV applications in Pakistan for several years
and interviewing applicants as necessary. DHS has already determined that it cannot
expand its coverage to include the new NIV operation in Karachi. Siphoning off
additional NIV workload to Lahore would decrease even further the percentage of
cases scrutinized by the VSU, undermining the rationale for putting one of the VSUs
in Pakistan in the ﬁrst place.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   41 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          If the new ofﬁce compound in Karachi were not already so close to completion
       and had partial NIV services there not already resumed to great fanfare, the OIG
       team would not have recommended that NIVs move back to Karachi either. Airline
       connections between Karachi or Lahore and Islamabad are regular and affordable for
       qualiﬁed visa applicants. The only other diplomatic mission in Lahore is that of Iran,
       and Pakistanis travel to Islamabad for visas for all other countries.


          Recommendation 15: Embassy Islamabad should cease efforts to resume
          nonimmigrant visa processing in Lahore. (Action: Embassy Islamabad)



       American Citizen Services

           ACS work in Pakistan is difﬁcult due to a number of factors. Routine ACS ser­
       vices, such as passports and consular reports of birth, can be unusually complicated
       due to the high incidence of attempted fraud, the unreliability of civil documents,
                                                                  Welfare and whereabouts
       cases include battered spouses seeking to escape abusive relationships or American
       women lured to Pakistan for arranged marriages without their informed consent.
       Such cases, as well as arrest and detention cases, are made even more difﬁcult than
       usual because of strained relations between the embassy and the local authorities and
       the difﬁculties in building effective relationships with those authorities during one-
       year tours of duty. All four consular sections in Pakistan provide services to Ameri­
       can citizens, but Peshawar’s consular ofﬁcer is actually working out of Islamabad due
       to the security situation; he travels once a month to Peshawar to provide services.

           Islamabad’s ACS unit is currently inadequate to meet demand. At the onset
       of the inspection, the FS-03 ACS unit chief was serving concurrently as the fraud
       prevention manager (FPM), and a ﬁrst-tour ELO was providing the bulk of the
       ACS services. As the result of the recent CMAT visit and OIG’s 2005 inspection
       report, both of which recommended an independent FPM, consular management
       transferred responsibility for ACS oversight to the IV chief and made the former
       ACS chief into a full-time FPM. In light of this restructuring, even more of the ACS
       workload falls to the ELO and the two LE staff.

           During the inspection, the OIG team witnessed a situation where the ACS ELO
       and one LE staff traveled several hours to see prisoners in a distant prison, having
       received approval to do so after close of business the previous evening. At the same




42 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




time, the IV chief and the second LE staff received last-minute permission to close
the casket and ﬁnalize the shipment of remains for a deceased American citizen.
There was no ACS staff left at the embassy to deal with routine requests for service.

     The situation in Pakistan also requires Islamabad to assume greater responsibil­
ity for countrywide ACS services than in most countries with constituent posts. ACS
services in Lahore and Peshawar are provided by relatively inexperienced, part-time
consular ofﬁcers. Islamabad assumed responsibility for a recent, high-proﬁle arrest
case from Lahore’s district, for example, in order to provide the attention and exper­
tise it required. If Islamabad had a full-time, mid-level ACS ofﬁcer along with the
existing ELO position, it could manage the complicated embassy workload, provide
expertise to the consulates when needed, and provide TDY assistance when the
ACS ofﬁcers at the consulates are on R&R. In February 2010, CA recommended the
creation of an additional FS-03 unit chief position in Islamabad. On approval of the
pending National Security Decision Directive-38 (NSDD-38), the Department will
recruit for the ACS chief position.

    Both the Karachi and Lahore consular sections schedule appointments for their
routine ACS clients. Karachi has two LE staff handling ACS work, one of whom
also serves as cashier. His position appears to be graded signiﬁcantly lower than the
level of work warrants despite his considerable ACS responsibilities; he, in fact, is in
a lower graded position than the LE receptionist-secretary. The OIG team made an
informal recommendation to review this position description as soon as possible.

    The Lahore consular section is staffed by an ELO who also doubles as the con­
sulate’s sole general services ofﬁcer. The consular ofﬁcer is supervised by the man­
agement ofﬁcer, who is also the backup consular ofﬁcer. The demands of general
services work compete with consular duties and limit the time available for consular
work. If the consulate were required to put its emergency action plan into effect,
particularly if it involved the departure of large numbers of American citizens, the
combined management and consular roles would be impossible for the ofﬁcer to
sustain. The embassy and the Department have acknowledged the need for an expe­
rienced consular ofﬁcer position in Lahore, and a position is currently on the bid list
for FY 2011. In the meantime, the OIG informally recommended that the backup to
the new part-time consular ofﬁcer come from one of the political or economic of­
ﬁcers rather than drawing from the management section.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   43 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       Fraud Prevention

           Islamabad’s FPM, who, as discussed earlier, was also the ACS chief at the onset
       of the inspection, had been struggling to devote the necessary time to fraud pre­
       vention. Consular fraud in Pakistan is pervasive. It includes the complete range of
       visa fraud (i.e., document fraud, marriage fraud, and educational credentials fraud),
       birth fraud in claims to U.S. citizenship, and adoption fraud. The sophistication of
       the fraud, ofﬁcial corruption, the potential for links between fraud and international
       terrorism, and the pull of the U.S. economy for economic migrants combine to make
       fraud prevention work in Pakistan challenging and demanding. The lack of full-time
       fraud prevention ofﬁcers in the consulates also limits overall fraud detection and
       prevention efforts.

            OIG’s 2005 inspection report recommended a full-time FPM mid-level position
       in Islamabad. Since that report, CA established the position; then consular manage­
       ment merged it with the ACS position; and ﬁnally, in response to a recent CMAT
       visit, consular management re-established a dedicated FPM position (separating
       ACS and FPM duties—see earlier ACS section for the effect of this change on ACS
       operations.) Given the rapid turnover of consular managers as a result of one-year
       tours, the Islamabad consular section will probably revisit its management structure
       regularly. In the absence of documentation explaining the necessity for the indepen­
       dent FPM position, it is possible that the FPM position will be found subordinate
       once again to some other required consular function in a few years. The OIG team
       made an informal recommendation calling for documentation of the background of
       the independent FPM position, including the relevant OIG and CMAT reports, and
       making this documentation, and the position description, part of the fraud preven­
       tion unit archives.

           Embassy Islamabad has an assistant regional security ofﬁcer for investigations
       (ARSO-I); the ARSO-I will have a dedicated LE investigator shortly. Neither the
       FPM nor the ARSO-I is allowed to accompany the LE investigators when the inves­
       tigators conduct ﬁeld work due to the security situation. Consequently, the investiga­
       tors have developed ways to document their work, including recording interviews
       and photographing subjects, so that the FPM and ARSO-I can audit their activities.
       Nevertheless, the inability to undertake ﬁeld investigations severely limits the work
       of both ofﬁcers. The high level of corruption makes investigation and prosecution
       of fraud extremely difﬁcult. There have been, however, some notable successes, such
       as a recent fraudulent adoption case developed jointly by the FPM and ARSO-I that
       resulted in local arrests and may lead to prosecution in the United States.




44 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    While the FPM and ARSO-I have done a good job in some major investigations,
other elements of the unit’s work have not been addressed with the same vigor. The
fraud prevention unit has overseen only one visa validation study in the last two
years, and that was of the usually qualiﬁed visa referral applicant pool. An overly
ambitious study of student visas was never completed. The fraud prevention unit
has not made use of guidance and assistance available from CA’s Ofﬁce of Fraud
Prevention Programs. As a result, ofﬁcers adjudicating visas have little in the way of
trends analysis to inform their decisions.



   Recommendation 16: Embassy Islamabad, in coordination with the Bureau
   of Consular Affairs, should establish a schedule for conducting visa issuance
   validation studies using approved formats and calling on the Ofﬁce of Fraud
   Prevention Programs for assistance. (Action: Embassy Islamabad, in coordina­
   tion with CA)


    Although the FPM has created SOPs for visa fraud referrals to the fraud preven­
tion unit, these SOPs are largely procedural and give minimal guidance on identifying
the types of fraud that ofﬁcers should be looking for. The NIV and IV chiefs have
not coordinated this type of guidance with the FPM. As a result, many cases that
could end in a simple refusal at the visa interview window are referred to the FPM,
while other potentially more serious cases may be missed. Currently the NIV and
IV section chiefs play no role in reviewing fraud referrals or in reviewing issued visa
cases for indicators that they should have been referred to the FPM. Better guidance
would result in better decisions on the interview line and more efﬁcient work by the
fraud prevention unit



   Recommendation 17: Embassy Islamabad should develop and implement
   clear guidance for fraud referrals by visa ofﬁcers in both Islamabad and Kara­
   chi, to include a requirement that visa section chiefs review fraud referrals. (Ac­
   tion: Embassy Islamabad)


    Neither consular management nor the FPM has provided sufﬁcient fraud pre­
vention and detection training to the interviewing ofﬁcers and the LE staff. How­
ever, the ARSO-I has developed an ambitious training continuum. The OIG team
made an informal recommendation that this program be expanded and institutional­
ized for newly arrived ofﬁcers.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   45 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           The current ARSO-I and FPM have a good working relationship, and their divi­
       sion of responsibilities seems to work well. However, both will be gone by the end
       of the year, and there is no formal description of their relationship. This is also true
       of the VSU-FPM-ARSO-I relationship. The ARSO-I is working on a draft memo­
       randum of understanding with the FPM to formalize their division of labor, but
       there is no similar draft memorandum underway between the consular section and
       the VSU even though DHS encourages such agreements.


          Recommendation 18: Embassy Islamabad should ﬁnalize a memorandum of
          understanding between the consular section and the regional security ofﬁce
          governing the work of the fraud prevention manager and the assistant regional
          security ofﬁcer for investigations. (Action: Embassy Islamabad)



          Recommendation 19: Embassy Islamabad should issue a memorandum of
          understanding between the consular section and the Department of Homeland
          Security, Bureau of Immigration and Custom Enforcement governing the work
          of the fraud prevention manager and the visa security unit. (Action: Embassy
          Islamabad)


           Both Karachi and Lahore have LE staff acting as fraud investigators. These LE
       investigators work on locally developed cases, as well as on cases generated by Islam­
       abad’s NIV and IV units and from other agencies. In both consulates, although the
       sole consular ofﬁcers are designated as FPMs, they have little opportunity to pursue
       fraud investigations and no special training in fraud detection and prevention. The
       embassy’s FPM will have an important role to play in spearheading the countrywide
       fraud prevention program.




46 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





          Best Practice: Auto Reply Frequently Asked Questions
                      for Visa Inquiries via Email

         Issue: Consular sections worldwide receive most of their inquiries about
     general visa practice and speciﬁc case status via email. These inquiries nor-
     mally come into a group mail box, and one or more U.S. and LE staff triage
     and answer those inquiries. Whenever possible, the ofﬁcer or LE staff an-
     swering the inquiries selects a response from a variety of templates designed
     to answer the most common questions and cuts and pastes the appropriate
     templates into the personalized response.

         Even with the extensive use of templates, this mechanism requires staff to
     open and read each email, select templates, and piece together a response,
     which will be more or less detailed depending on the speciﬁcity of the inquiry.
     Often, when there are absences in another, more crucial part of the visa
     operation, correspondence personnel are pulled off their regular duties and
     correspondence goes unanswered.

         Response: Embassy Islamabad analyzed the most frequently asked
     questions in both its IV and NIV mailboxes, and using that data, created an
     automatic response that includes the answers to those questions in a clear
     narrative tailored to the Pakistan clientele rather than a series of links to com-
     plicated website responses. At the end of the auto response page, inquirers
     whose questions have not been answered or who are asking about a speciﬁc
     case are advised to forward their question to another email address, which
     then gets the personal attention of an ofﬁcer or an LE staff member.

         Result: The number of email inquiries requiring a personal reply has been
     reduced by 50 to 70 percent. No actual person needs to review the larger
     number of inquiries that comes into the original email box. This process saves
     personnel resources, provides quicker responses to general inquiries because
     the auto response operates 24 hours a day, and permits staff to pay closer
     attention to the remaining inquiries.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   47 .


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





48 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                           RESOURCE MANAGEMENT



Agency                        Authorized          Authorized               Locally  Total       Total funding
                              US Direct-Hire      US Local-Hire            Employed Staff       FY 2009, in $,
                              Staff               Staff                    Staff                operating budgets

State - D&CP                         262                 16                  90        368           7,141,437
State - ICASS                          22                 7                 826        855          16,217,400
State - Public Diplomacy               22                  ­                 53         75           1,329,805
State - Diplomatic
Security                                -                  -                133        133           8,566,169
State - Marine Security                18                  -                  8         26             138,390
State - Representation                  -                  -                   -            0             72,420
State - OBO                             7                  -                 18         25          29,188,398
U.S. Commercial Service                 2                  -                  8         10             505,344
Defense Attaché Ofﬁce                  16                  -                  4         20             861,504
Ofﬁce of Defense
Cooperation                          128                   -                 18        146
Foreign Agricultural
Service                                 1                  -                  4             5          137,049
Drug Enforcement
Administration                         16                  -                 12         28
Federal Bureau of
Investigation                           7                              -      2             9
Department of Homeland
Security                                4                              -     13         17
BBG                                     1                              -      2             3
DOE                                     1                          -           -            1          237,150
NAS                                     8                          ­         70         78          40,128,985
Treasury                                1                      ­               ­            1          249,000
Library of Congress                     ­                              ­     29         29           1,421,366
Force Protection
Division                                4                 -                   -             4         265,874
USAID                                120                 2                  213        335
TOTAL                                640                25                 1503       2168 $106,460,291
Source: Embassy Islamabad




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010             49 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       MANAGEMENT OVERVIEW
            The management team’s top challenge is coping with the dramatic increase in
       the size of the mission resulting from the President’s Strategic Review for Afghani­
       stan and Pakistan. At the time of the last inspection, U.S. direct-hire stafﬁng was
       278; today it is 640 and is expected to grow to 695 by the end of FY 2011. LE staff
       has grown from 927 to 1,503 and growing to an expected 1,622 by FY 2011. Two
       hundred TDY personnel on any given day and an unrelenting stream of high-level
       visitors further complicate service delivery, resource planning, and billing. All of
       these people need to have ofﬁce space, housing, and transportation. With the num­
       ber of people constantly increasing, multiple ofﬁce renovations and moves have
       been required to accommodate them, including three temporary ofﬁce buildings that
       are being built to accommodate a total of 454 people, and additional on-compound
       housing under construction which will increase the embassy’s capacity to house up to
       378 long-term and other TDY personnel. At the same time, the Department is mov­
       ing ahead with a $1 billion master plan construction project to replace permanent of­
       ﬁce buildings and housing on the compound over the next 4 to 6 years. The around­
       the-clock work pace and obstacles raised by the host government further complicate
       management challenges.

           The management team is led by a senior ofﬁcer who enjoys the full conﬁdence
       of the Ambassador and DCM, as he and his team provide the support platform nec­
       essary to implement the President’s strategy. They are doing a commendable job. At
       the same time, the effects of one-year tours and the sheer volume of work have left
       a number of areas where procedures and internal controls need improvement.

           The size of the management staff had not changed much between 2005 and
       the arrival of the current management team in the summer of 2009, even though
       other parts of the mission had doubled in size. The new team soon realized that they
       had to provide an adequate support platform for today as well as prepare for future
       requirements. The OIG team commends the management team for stepping back
       from the countless day-to-day requirements to think strategically by conducting a
       mission-wide management team offsite last fall where the focus was on building pro­
       cesses and infrastructure. They designed a plan to increase Interagency Cooperative
       Administrative Support Services (ICASS) stafﬁng for the ﬁrst time in years by 16 U.S.
       direct-hires and 205 LE staff at the embassy and the consulates.

            While building their capacity to support the mission and planning for future
       requirements, the management team is also focused on ways to promote continu­
       ity, a particular challenge for a mission where the standard tour of duty is one year.
       They established a “Team Pakistan” SharePoint site so that policies and important


50 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




documents are not lost with each transfer season. They are establishing an LE staff
management analyst position to focus on process mapping, metrics, and knowledge
management, and to provide continuity. The management counselor and manage­
ment ofﬁcer assigned for summer 2010 will make a familiarization trip to Pakistan
in April, and the embassy will use this opportunity to host a second management
offsite.

    Bureaucratic obstacles created by the Government of Pakistan over the past year
severely hamper the embassy’s ability to operate. Even though this has affected ev­
eryone in the mission, the management section feels the consequences most directly,
with problems including difﬁculties with visas, delayed customs exemptions, Minis­
try of Foreign Affairs (MFA) identity card issuance, visa extensions for employees
in-country, refusals to clear armored vehicles through customs, delays in approvals
for land acquisitions in Islamabad, restriction on tarmac passes, and detention of
mission vehicles and personnel. Continuing obstacles in these areas could seriously
delay or threaten mission goals. As discussed in executive direction, U.S. ofﬁcials are
addressing these issues with the Government of Pakistan. At the embassy level, this
issue is complicated by multiple Department and interagency interlocutors with the
MFA, and the OIG team made an informal recommendation about that issue.

Constituent Posts

    Management ofﬁcers at the three consulates general are very much a part of the
embassy’s overall management team. They participate in weekly staff meetings via
teleconference as well as a weekly teleconference with the executive ofﬁces of SCA
and S/SRAP. Management personnel regularly travel to and from the consulates. As
the consulates expand, management ofﬁcers at the consulate are considering whether
it might be beneﬁcial to place some of their new LE staff management personnel
in Islamabad, where they can beneﬁt from the training and expertise of more senior
staff members while providing dedicated support to their respective consulates.



MANAGEMENT CONSOLIDATION AND OUTSOURCING
    Embassy Islamabad is a Tier One post for management consolidation purposes;
the growing breadth of the mission makes consolidation of support services even
more critical. The embassy has made some progress in establishing a joint manage­
ment structure. During the inspection, the Ambassador mandated participation in
the furniture and generator pool (in addition to the previously established appliance
pool). This is a major achievement that will save not only ﬁnancial resources but also


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   51 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       the time of other agencies. Challenges to consolidation remain.




                                            Without adequate transportation resources, other
       agencies have gone outside of ICASS to establish their own motor pools. This issue
       is discussed in detail later in the report.

           Consolidation of information technology is being achieved on a limited basis as
       USAID moves to establish ofﬁces at the consulates. Efforts to consolidate procure­
       ment are on hold as the unit rebuilds following the termination of some employees
       for fraud. USAID participates in the awards program, but consolidation with USAID
       in other areas of human resources (HR) has not progressed very far; the embassy’s
       HR section’s responsibilities are limited to posting job announcements and assisting
       USAID personnel with obtaining their identity cards from the MFA. The arrival of
       a new human resources ofﬁcer (HRO) will provide an opportunity to reopen discus­
       sions with USAID on HR consolidation. The OIG team supports the further con­
       solidation of HR services.

            The management team is also looking at services that could be provided else­
       where. Travel vouchers for permanent change of station are processed by the Finan­
       cial Management Center’s support unit in Bangkok, with additional services under
       consideration. The embassy and SCA are negotiating with the Ofﬁce of Orientation
       and In-Processing (OIP) to transfer many of the welcome and orientation functions
       currently being performed by the embassy to OIP. (See the human resources sec­
       tion of this report.) The embassy also signed a memorandum of agreement with the
       Regional Support Center in Frankfurt to perform computer-aided job evaluations
       (CAJE) for EFM positions, with plans to expand this to all LE staff positions. There
       are plans to hire a nonresident family member to edit the community liaison ofﬁce
       (CLO) newsletter from Washington.



       INTERAGENCY COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES
           Embassy Islamabad’s ICASS council meets regularly to review administrative op­
       erations and proposed changes to the support platform. The challenge of overseeing
       multimillion ICASS platform decisions is difﬁcult at a post where most members of
       the council are on one-year tours. In spite of recent resource increases, as embassy
       stafﬁng has expanded, ICASS has not proven to be as ﬂexible as necessary in meet­
       ing the support requirements of tenant agencies. For example, the ICASS budget


52 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



increased from $11.6 million in FY 2005 to $16.2 million in FY 2009. The actual
ICASS resources per person actually declined from $41,812 in FY 2005 per direct-
hire employee to $25,539 per direct-hire employee in FY 2009, and are well below
comparable costs per person at other SCA posts. Duplicate administrative support
services such as separate motor pools, warehouses, procurement operations, ﬁnancial
management operations, and even customs and expediting services illustrate ICASS
limitations in meeting shared service requirements in this rapidly expanding mission.

Financial Management Offshore Support

    The ﬁnancial management ofﬁce is responsible for several labor-intensive busi­
ness processes that the Department could support more effectively from an offshore
regional center. For example, the Islamabad ﬁnancial management ofﬁce has dif­
ﬁculty managing the process of capturing incremental costs associated with stafﬁng
growth. In the period from FY 2005 to FY 2009, the mission added 362 new U.S.
direct-hire positions. Startup costs for new positions are an important source of
funding for critical items such as furniture, appliances, ofﬁce equipment, vehicles,
and administrative supplies. Under the embassy policy adopted in 2009, the mission
requires startup funds totaling $140,000 for each new position and the payment of
partial-year costs for new positions as a requirement for the Ambassador’s approval.

    The OIG team reviewed a sample of 28 position approval decisions for new
positions established in FY 2009. The sample review found that in 47 percent of
NSDD-38 approvals, the embassy did not have documentation of receipt of startup
funds; in 50 percent of approvals, partial-year ICASS invoices were not prepared.
Some agencies that subscribe only to the basic package and CLO support under
ICASS, which also includes motor pool services, did not provide startup funding.
Comprehensive records for years prior to 2009 were not available for review, but ac­
cording to staff interviewed by the OIG team, startup funds were neither requested
nor tracked as these new positions were established in prior years. Thus, the embassy
did not recover or retain documentation of recovery of startup costs totaling ap­
proximately $45 million, based on FY 2010 startup costs.

    The management counselor is establishing procedures to track costs for new
positions and follow up with sponsoring agencies to recover support costs owed for
new positions. This responsibility will be a primary work requirement of the incom­
ing deputy ﬁnancial management ofﬁcer. Nevertheless, the process of manually
tracking startup costs for hundreds of new positions and partial-year invoices for
thousands of TDY visitors a year is labyrinthine by any standard and more than a
mission in a conﬂict environment should have to assume. The Bureau of Resource
Management’s post support unit may be able to provide assistance with this process.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   53 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       Concurrently, the OIG team believes that the embassy may be able to make selec­
       tive use of the Global Financial Services-Charleston’s post support unit to reduce
       its workload in voucher processing. The OIG team believes that offshore support in
       this area may help the mission focus on other, equally important tasks.


          Recommendation 20: The Bureau of Resource Management, in coordination
          with Embassy Islamabad and the Bureau of South and Central Asian Affairs,
          should review the feasibility of a pilot program to move offshore the tracking
          of new position startup costs, partial-year invoices, voucher processing, and
          temporary duty traveler invoices for Mission Pakistan. (Action: RM, in coordi­
          nation with Embassy Islamabad and SCA)



       Startup Costs for Fully Armored Vehicle
       Funding

            The critical threat security environment for Mission Pakistan requires transporta­
       tion by FAV throughout the country. The mission maintains an interagency ﬂeet of
       207 armored vehicles with an estimated acquisition cost of $41 million. At several
       of the constituent posts, anticipated stafﬁng increases will require a large number of
       additional FAVs and replacement of existing vehicles in coming years. The incremen­
       tal costs associated with FAV acquisition are not currently reﬂected in the embassy’s
       NSDD-38 costs of position support under ICASS.


          Recommendation 21: Embassy Islamabad should include the costs of acquir­
          ing fully armored vehicles in the schedule of startup costs for National Security
          Decision Directive-38 cables approving new positions. (Action: Embassy Islam­
          abad)




       FACILITIES: THE BUILDING BOOM
       Islamabad Master Plan

           The entire Embassy Islamabad compound is on the verge of replacement with
       new facilities under the master plan that has more than $1 billion allocated to it and
       includes a new chancery, warehouse, employee association commissary and club, resi­


54 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




dential quarters, TDY hotel, and other utility buildings. This plan was based on the
assumption that the embassy would purchase 18.5 acres adjacent to the compound
in two lots. Unfortunately, the host government has denied the purchase request for
one lot, and details about the second, smaller lot are now in dispute. Under pressure
to proceed with a construction contract award, the Bureau of Overseas Buildings
Operations (OBO) developed a contingency plan to conﬁne initial construction to
the main campus, focusing on construction of the chancery ﬁrst. Embassy Islam­
abad is also searching for alternative locations to build residences in the larger diplo­
matic enclave. Even though it is unlikely to be adjacent to the embassy compound,
such a site would take advantage of the additional security provided for the enclave
by the Government of Pakistan.

     Assuming the contract is signed this year, as scheduled, and the embassy faces
no serious delays, OBO expects to have the new chancery built within four years as
the ﬁrst of a series of new facilities. As the new chancery is ﬁnished, the old one will
be torn down and replaced with the consular annex, and so forth. This domino ap­
proach should minimize the disruption to embassy operations over the next several
years. However, a number of projects need further development early enough in the
process to ensure that the ﬁnal compound will be sufﬁcient to accommodate the
growth in personnel and resources that are necessary to implement the President’s
foreign policy objectives in Pakistan. For example, the cafeteria and American club
will need to be replaced with larger facilities to accommodate both the growth in
personnel and the increase in residences and TDY quarters that will be located on
the compound. The embassy also needs to prioritize the move of off-compound of­
ﬁces, namely the NAS and Library of Congress ofﬁces, back onto the compound in
order to colocate all facilities. The OIG team informally recommended that embassy
management coordinate with OBO to address these issues in future planning. There
is also a formal recommendation concerning the warehouse during construction that
is addressed in the property management section of this report.

   In the meantime, OBO is building a number of temporary buildings on the com­
pound to accommodate immediate needs and growth. These projects include:
• 	 A building for ODRP to accommodate 125 people, scheduled to begin con­
    struction by mid-2010;
• 	 Two USAID buildings, one that was completed during the inspection to seat 54
    people, and another to seat 250 that is in the early stages of construction; and
• 	 TDY pods with 189 rooms, the ﬁrst two-thirds of which was completed in
    fall 2009 and the second one-third which is scheduled for completion in early
    spring 2010.



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   55 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



            The embassy’s facilities maintenance unit has also expanded and repurposed
       existing facilities to accommodate the growth in both permanent and temporary
       positions. During the course of the four-week OIG inspection, the facilities mainte­
       nance unit renovated 1,500 square feet of space in the maintenance building in order
       to house 85 desks for the housing unit, USAID’s regional inspector general ofﬁce,
       the incoming OIG Middle East regional ofﬁce, and other smaller ofﬁces. The facili­
       ties manager also plans to renovate the Information Resource Center for use by the
       ﬁnancial management ofﬁce as part of an ongoing series of ofﬁce renovations and
       moves throughout the mission. The OIG team commends the embassy for the speed
       and efﬁciency of its work in the midst of constant personnel growth.

       Karachi

           Consulate General Karachi’s biggest challenge is the upcoming move into a new
       consulate compound (NCC) and the rapid expansion of both U.S. direct-hires and
       LE staff. Aside from the standard planning to move ofﬁces and people into a new
       space, Consulate General Karachi faced numerous delays in the construction of the
       NCC due to difﬁculties with the customs clearances and other bureaucratic obstacles.

            The consulate general is currently operating out of what was once the consulate’s
       warehouse. To better ensure the safety of staff, the original consulate building was
       abandoned several years ago, and an extensive rehabilitation of a temporary location
       in a more secure portion of the compound was undertaken, pending the construc­
       tion of the NCC in a different part of Karachi. The original consulate building is
       now used as setback between the temporary ofﬁce building and a major road. The
       facilities maintenance staff has done an admirable job of converting the temporary
       ofﬁce building into a user-friendly, comfortable working space, despite the fact that
       the building was never intended to be used for ofﬁces and has insufﬁcient space for
       operations. However, a number of major maintenance projects in the temporary
       ofﬁce building were deferred in light of construction of a NCC, in which all ofﬁces
       and residences would be located in a secure compound, maximizing both resources
       and security.

           The 2006 plans for the NCC did not anticipate the explosive growth that Kara­
       chi faces. By FY 2012, Karachi will increase from 33 to 55 U.S. direct-hire positions
       and from 170 to 191 LE staff. USAID is proposing to send 19 additional employees
       to Karachi to support a high-proﬁle foreign assistance agenda. A number of other
       agencies are also looking to expand their presence in Karachi. The consulate esti­
       mates that it will require an additional 24 desks and 28 residential housing units by
       the time the new facility opens. In short, the NCC has become overpopulated before
       completion.

56 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     Embassy Islamabad formally proposed to the Department that the temporary
ofﬁce building be retained to provide additional ofﬁce space for these new agen­
cies. However, the embassy has not yet conducted a detailed cost beneﬁt review to
identify alternatives to retention of the facility or to identify medium-term funding
requirements needed to operate two compounds. Any decision to keep the original
compound open would require marshalling considerable additional resources. The
OIG team believes that colocation of as many functions as possible on the NCC is
necessary for reasons of security and logistics and prudent use of U.S. Government
resources.

    First, the temporary ofﬁce building has a number of aging structural systems that
need to be replaced or rebuilt; for example, the water pump system is over 40 years
old, leaks, and is unreliable. The main generator is nearly 30 years old. The embassy
purchased a used generator to back up the main generator during Karachi’s daily
power outages, but this is also an aging system that may soon fail. The original build­
ing, though abandoned, may also need work to prevent further disintegration that
could endanger the adjoining consular section. In order to continue occupying the
temporary ofﬁce building, the entire facility would require a thorough inspection and
then rehabilitation, potentially costing millions of dollars.

     Second, maintaining two consulate compounds would require a signiﬁcant
increase in the support staff, including facilities maintenance and custodial work­
ers, IT support, property management, and local guards; it would also increase the
demand for motor pool services, both drivers and FAVs. Because of the requirement
for FAVs to transport employees, even a minimal motor pool increase of ﬁve ve­
hicles would cost more than a million dollars. The mission would also face obstacles
importing the vehicles after they were purchased. (For additional discussion of this
issue, see the section on ofﬁcial vehicles.)

     Third, if the Department decided to maintain the temporary ofﬁce building
after the NCC is ﬁnished, it would bear any number of additional costs, including
utilities, ofﬁce furniture and equipment, and incidental repairs. Many of these costs
would depend on decisions made by agencies on the number of U.S. direct-hires and
LE staff that they plan to employ. As discussed throughout this report, the mission
in Pakistan is constantly revising its stafﬁng plans to add new positions every few
months.

   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   57 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



            Although retention of the existing ofﬁce building may be an attractive solution
       in the short term, the long-term objective of colocating in the NCC would minimize
       the costs and security vulnerabilities associated with keeping multiple compounds.
       The NCC has space identiﬁed in the original plans for two annex wings for the new
       ofﬁce building. Immediately amending the current construction contract to include
       construction of those annexes would take advantage of the current contractor mobi­
       lization at the NCC to save time and money. Agencies that have expanded, or will be
       expanding, could fund their ofﬁce space as part of the NSDD-38 approval pro­
       cess. There are also other options for colocating agencies on the NCC: using newly
       purchased containers1 or converting the NCC’s consul general residence (CGR) into
       secure ofﬁce space. (See discussion of the housing compound and current CGR be­
       low.) In short, this time-sensitive decision requires consideration of several cost and
       security factors. Agencies are eager to expand their presence in Karachi and need to
       know exactly what facilities and resources will be available to them. The Department
       needs to exercise due diligence in a comprehensive review of all relevant factors
       before allowing any agencies to occupy the temporary ofﬁce facility after the opening
       of the NCC.

          Recommendation 22: Embassy Islamabad, in coordination with the Bureau
          of South and Central Asian Affairs and the Bureau of Overseas Buildings Op­
          erations, should conduct urgently a comprehensive review of all options and
          costs for increasing ofﬁce space on the new Karachi compound and initiate an
          appropriate plan of action. (Action: Embassy Islamabad, in coordination with
          SCA and OBO)


           Regardless of the decision about retaining the current consulate compound, the
       anticipated stafﬁng for Consulate General Karachi has already outgrown the newly
       constructed residences on the NCC. The U.S. Government owns a two-acre hous­
       ing compound near the existing ofﬁce facility with seven apartments, eight pods for
       permanent residence, six TDY pods, the current American Club, and the CGR. The
       housing compound is in a relatively secure neighborhood, with roads that are already




       8
         Embassy Islamabad recently constructed a 54-seat temporary ofﬁce building at a cost of ap­
       proximately $650,000. The entire process from bid to demobilization took about one year, with
       six months of construction, but Karachi could use the previously approved OBO speciﬁcations
       for Islamabad’s building and save time.

58 .      OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




closed off to the general public. The existing CGR is much better suited, both in size
and location, for the outreach required by the President’s strategy in Pakistan. It is
already being used for a large number of representational functions and public di­
plomacy programs that cannot be held safely in more public settings, and it provides
suitable accommodations for high-level visitors. The much smaller CGR on the NCC
is insufﬁcient for any of these purposes. (See the classiﬁed annex for further dis­
cussion of the CGR.) By retaining the staff housing compound and existing CGR,
Karachi would have the residential space to accommodate its growing U.S. direct-hire
staff and could then convert the NCC’s CGR and TDY quarters into much-needed
ofﬁce space.


   Recommendation 23: Embassy Islamabad should retain the two-acre housing
   compound currently owned by the U.S. Government in Karachi, including the
   consul general’s residence. (Action: Embassy Islamabad)


    The delay in making these decisions has implications for Karachi’s move plan­
ning process. SCA sent a rehired annuitant to Karachi to manage the move process.
However, the security requirements in Karachi will make this process more difﬁcult
than usual, and management will begin making arrangements immediately to dispose
of excess property and determine how to move ﬁles and equipment to the NCC
upon its completion. There are also a number of post-managed facilities projects on
the NCC that require attention before the NCC is fully occupied. For example, the
RSO plans to construct a gated fence between the housing area and the chancery.
The OIG team informally recommended that the embassy and the consulate cooper­
ate on the necessary plans as soon as possible.

Lahore

    Consulate General Lahore has been working with OBO and the Bureau of
Diplomatic Security on the possibility of relocating to a new facility. However, the
current consulate general building in Lahore is adequate to absorb the anticipated
growth in staff, and the OIG team believes that a new site is not necessary. Facilities
maintenance is currently conﬁguring ofﬁce space for 20 new USAID positions, and
the general services ofﬁce (GSO) is moving into the basement of the building as
GSO staff increases. Other areas exist that could be used for repurposing ofﬁces in
the existing building.

    While retaining the consulate general building will save the expense of purchas­
ing and building on a new site, the current site has internal layout and setback issues.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   59 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       The purchase of two adjacent properties would allow the construction of a new ex­
       pendables warehouse and make the area currently being used for expendables storage
       in the consulate building basement available for renovation as useable ofﬁce space.


          Recommendation 24: Embassy Islamabad, in coordination with the Bureau
          of Overseas Buildings Operations and the Bureau of Diplomatic Security,
          should retain the existing consulate general compound in Lahore and imple­
          ment the necessary upgrades. (Action: Embassy Islamabad, in coordination
          with OBO and DS)



       Peshawar

            The OIG team did not have enough time in Peshawar, due to security restric­
       tions, to make a complete assessment of the consulate’s facilities. However, OBO
       is already engaged in a number of projects to improve the current compound and
       upgrade residential security. Ongoing projects are expected to cost more than $3 mil­
       lion, and another $3.5 million project is up for contract bid. The local government
       has identiﬁed a new site that may be suitable for an NCC.

       Real Property

           The OIG team identiﬁed unusual problems with the titles for U.S. Government-
       owned properties. In Karachi, the CGR and other U.S. Government-owned residenc­
       es were built on land under a 99-year lease that expired in 1962. The lease was never
       renewed, and the consulate is working with a local law ﬁrm to resolve the issue. The
       consulate general submitted a renewal application to the local authorities in Decem­
       ber 2009 and expects this issue to be resolved soon. The OIG team concurs with this
       step.

          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

60 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





   Recommendation 25:




Facilities Maintenance

     The facilities maintenance unit in Islamabad has a heavy work load: it serves
more than 300 residences, a number of aging buildings on the compound, two off-
site ofﬁces, and accommodates constant construction projects. Upon the arrival of
the current facilities manager in September 2009, there were more than 7,000 out­
standing work orders. As of the end of this inspection, less than six months later, the
unit has reduced this to only 997 outstanding work orders. Considering that the unit
receives more than 100 new requests each week, this is a commendable accomplish­
ment.

    However, the OIG team’s review of work orders revealed that more than 99
percent of completed work orders over the course of a month are for unscheduled
work and special projects. There were also a number of repetitive “emergency” tasks
for which work was done before a work order request was submitted. This was due
in part to restrictions on the use of eServices by LE staff. (See the classiﬁed annex
for further discussion of this issue.) However, a number of these tasks could be in­
cluded in the preventive maintenance plan. The OIG team informally recommended
that Embassy Islamabad review and improve its preventive maintenance program.

    Consulate General Karachi’s facilities maintenance unit is increasing its staff in
anticipation of the move into the NCC. Those who have already been hired are tak­
ing training in the new systems and have proven to be helpful at the current com­
pound as well. Consulate staff is pleased with the quality of maintenance services
they receive in the facility. But there are a number of management controls problems
regarding the oversight of operations. (See the management controls section of the
report below.)




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   61 .


                      SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




             Embassy Islamabad oversees facilities maintenance for the consulates in Pesha­
         war and Lahore. The embassy expects two new facilities managers to arrive at post
         within the next two months, one of whom will be dedicated to supporting the con­
         sulates. This should improve both oversight and general operations.

       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)


62 .        OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





FINANCIAL MANAGEMENT
    The ﬁnancial management ofﬁce’s most important strategic challenge is identi­
fying resources to support anticipated mission-wide stafﬁng growth over the next
several years. The ofﬁce operates in a dynamic, rapidly changing environment in
which resource decisions often occur outside regular planning and budget processes.
For example, in FY 2010 the embassy identiﬁed approximately $3 million in mid-year
costs related to Consulate General Karachi’s NCC move and the need to hire new
support staff for U.S. personnel increases, which were planned under the President’s
Afghanistan-Pakistan Strategy.

     The ﬁnancial management ofﬁce received above-average scores on OIG and
ICASS customer service questionnaires. The embassy provides effective support to
serviced agencies and consulates in vouchering, accounting, and cashiering despite
a busy and expanding workload. The OIG team made an informal recommenda­
tion that the voucher unit consolidate payments of employee taxi vouchers, electric­
ity bills, and telephone bills into monthly payments, preferably by electronic funds
transfer, to reduce the volume of 17,000 cashier vouchers processed last ﬁscal year.



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   63 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       The accounting unit conducts reviews of unliquidated obligations to conﬁrm that
       valid requirements for funding exist on an ad hoc basis, increasing the possibility that
       funds could be returned unspent. The OIG team made an informal recommendation
       that the newly arrived deputy ﬁnancial management ofﬁcer conduct regular reviews
       of unliquidated obligations.



       HUMAN RESOURCES
           Given the constraints under which the section has been working, the human
       resources section has done a remarkable job providing the full range of human
       resources services for this growing mission. The human resources section ranked
       highest in satisfaction scores in the workplace and quality of life questionnaires (the
       section was the lowest ranked during the 2005 inspection). The section is also re­
       sponsible for initiating travel orders, an issue to be addressed in the travel section of
       the report.

           Islamabad had just one HRO until a deputy HRO position was established and
       ﬁlled in late October 2009. Within two months of the arrival of the deputy, the
       HRO resigned, leaving the deputy as acting HRO. A new HRO arrived during the
       inspection. An EFM with previous experience in human resources is expected to
       arrive in April to ﬁll a newly established expanded professional associates program
       position. There are 14 LE staff in the section; most are relatively new. The section
       has a good training plan in place.

           Because of the continuing growth in virtually all sections and agencies, the hu­
       man resources section has focused on recruitment. The section has recruitment
       procedures in place and has done a good job of advertising new positions both
       internally and throughout the international community. Approximately 300 applica­
       tions are received for each vacancy although as many as 1,000 applications have been
       received for some jobs. From January 2009 until the time of the inspection, 573 jobs
       had been advertised of which 242 had been ﬁlled, with another 331 in process. In
       Karachi, 50 new staff members were hired in the last calendar year, including new
       maintenance positions for the NCC. The ICASS council recently approved an ad­
       ditional 43 new LE staff positions for Lahore, and recruitment is in process.

           In other areas, the section was not keeping up with basic requirements. With the
       arrival of the HRO and the new EFM, the section should be able to devote time to
       improving processes and establishing tracking mechanisms where they do not cur­
       rently exist.


64 .      OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



In-Processing

    The OIG team’s pre-inspection survey questionnaires revealed that the informa­
tion employees received prior to arrival in country is not adequate, and that check-in
procedures are cumbersome. The Welcome to Pakistan/Status of Quarters cable
which goes to newly assigned employees contains comprehensive and useful infor­
mation, but it does not go to employees of other agencies. During the inspection,
the human resources section was discussing how best to ensure that newly assigned
employees of other agencies receive the same information. The OIG team reviewed
the arrival checklist and found it overly burdensome. There is no system to track the
completion of the check-in tasks. The newly arrived deputy ﬁnancial management
ofﬁcer is establishing a customer service center made up of employees from various
management ofﬁces to provide a one-stop approach to checking in, which should
improve the process.

     There is a weekly orientation program for permanent and TDY personnel. The
focus of this program is security, with short presentations by representatives from
human resources, general services, and the health unit. It does not include an over­
all brieﬁng on the embassy and its goals which might be useful for those employees
who are new to working in an embassy environment. The embassy is working with
OIP regarding transferring some of the in-processing functions to that ofﬁce and
mandating that all personnel from all agencies go through a Washington version of
in-processing before arrival in Pakistan. The OIG team supports this initiative and
believes this will reduce the burden on the embassy’s management section.

    During visits to the three consulates in Pakistan, the OIG team found a number
of employees who had not been to the embassy and who therefore did not appreci­
ate how their work contributed to overall mission goals. In some cases, there was
limited contact with their counterparts at the embassy. Although conditions at the
consulates may vary from those in Islamabad, embassy policies are countrywide.
Many section chiefs at the embassy also exercise some supervision of personnel in
the consulates.


   Recommendation 26: Embassy Islamabad, in coordination with the Bureau
   of South and Central Asia Affairs, should request that the Bureau of Human
   Resources include two days of consultations in Islamabad in the post assign­
   ment travel orders for all personnel assigned to the consulates. (Action: Em­
   bassy Islamabad, in coordination with SCA and DGHR)




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   65 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       Checkout Procedures

            Embassy Islamabad has a departure checklist which was recently revised. The
       HR section did not have a system for tracking whether or not departing employ­
       ees completed the departure checklist, resulting in some employees departing post
       before completing evaluations or returning embassy equipment. The previous system
       relied on withholding the departing employee’s airline ticket, which has become less
       effective with the introduction of electronic ticketing. The new checklist includes
       a statement that the departing employee’s unaccompanied air baggage will not be
       shipped until the checklist is completed and turned in. This should be more effective
       in ensuring that all checkout tasks are completed before departure.

       American Stafﬁng

            In 2007 and 2008, the Bureau of Human Resources conducted numerous inter­
       views overseas as part of the Worldwide Classiﬁcation Review, a study to update the
       standard ﬁeld position descriptions that serve as the position classiﬁcation criteria for
       all overseas positions. The review was necessary because the classiﬁcation criteria for
       generalist positions below the FS-01 level had not been revised since 1978; classiﬁca­
       tion criteria for Senior Foreign Service positions had not been revised since 1986;
       and the grade structures of the sections within embassies had not been reviewed for
       consistency in more than 12 years. The Bureau of Human Resources is in the ﬁnal
       stages of updating Foreign Service classiﬁcation standards based on a worldwide
       review conducted over the last 18 months. SCA has requested a copy of those draft
       standards in order to conduct its own region-wide position classiﬁcation review. The
       OIG noted several inconsistencies in the classiﬁcations of U.S. direct-hires in Paki­
       stan from principal ofﬁcers to section chiefs.


          Recommendation 27: Embassy Islamabad, in coordination with the Bureau
          of South and Central Asia Affairs, should conduct a special position classiﬁca­
          tion review of positions in Pakistan with particular emphasis on the consulates
          general in light of the Bureau of Human Resources’ updated Foreign Service
          classiﬁcation standards. (Action: Embassy Islamabad, in coordination with
          SCA)




66 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



Performance Evaluations

    The OIG team found that work requirements and employee evaluation reports
(EER) for the current rating period were not being tracked. Human resources
resumed development of a tracking system during the inspection and it revealed
that work requirements were not on ﬁle for nearly half of the employees, including
many section chiefs. In a spot check conducted by the OIG team, many of the work
requirements that were on ﬁle were not dated or were dated long after the initial 45
days of the rating period. In survey material, the embassy stated that 53 EERs were
submitted late in the past year. At the time of the inspection, there were still nine
outstanding EERs, some for people who had already left post. (See checkout proce­
dures section.) There was no record that the embassy had sent the names of those
employees for whom EERs would be submitted late to the Ofﬁce of Performance
Evaluation nor was there a record that the 53 late EERs included the names of the
responsible ofﬁcers.



   Recommendation 28: Embassy Islamabad should fully implement the system
   to track, complete, and submit work requirements and employee evaluation re­
   ports on time. (Action: Embassy Islamabad)



Eligible Family Member Program

    Although Pakistan assignments are technically unaccompanied, spouses are al­
lowed to reside in Pakistan (except Peshawar) if they ﬁll key EFM positions. Five
years ago there were 14 such positions; today there are 24, and soon to be 26. Al­
though just 11 of these positions are currently ﬁlled, the HR section reports an
increase in interest from the spouses of employees assigned to jobs in summer 2010.
The OIG inspectors assessed the program and found that generally it has worked
well. Job announcements are listed on the embassy’s website as well as on the SCA
website. The CLO coordinator sends the weekly newsletter to all newly assigned
employees directing readers to information on EFM positions. EFM personnel ﬁles
included job announcements, position descriptions, and resumes, but did not include
EFM work requirements or evaluations. The OIG team made an informal recom­
mendation that work requirements and evaluations be prepared for all EFMs.

    The Department does not guarantee that a spouse will be accepted for a par­
ticular position; however, to date, every spouse who has wanted to work has been
assigned to an EFM position. The embassy is ﬂexible in working with incoming
spouses to identify positions that would ﬁt with their background and expertise.

OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   67 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           The post employment committee has not been activated as there has yet to be
       more than one candidate for an EFM vacancy. With the increase in the number of
       interested applicants and the potential for competition, the OIG team made an infor­
       mal recommendation that the post employment committee be convened and briefed
       on their responsibilities before they need to interview and select candidates.

       Locally Employed Staff

           LE staff in Pakistan have been the victims of kidnapping, harassment from the
       media and local law enforcement ofﬁcials, and unwarranted criminal proceedings due
       to their employment with the U.S. Government. In meetings at the embassy and the
       three consulates, LE staff raised concerns about their personal safety, citing death
       threats and harassment by host government ofﬁcials as disturbing—and unfortu­
       nately common—occurrences. They also stated that they do not reveal their place of
       work to any but immediate family members. In recognition of this persistent harass­
       ment of LE staff and the signiﬁcant increase in terrorist incidents across the country,
       the embassy fought for an increase to the regulatory maximum Unique Conditions
       of Work Allowance that their employees were already receiving. The Under Secretary
       for Management approved a Public Interest Determination to increase the allowance
       during the inspection.

           The LE staff also raised the issue of eligibility for special immigrant visas (SIV).
       They believe that since eligibility has been reduced to one year of service for LE
       staff in Iraq and Afghanistan, LE staff in Pakistan should also have special eligibility.
       In particular, they want the criteria currently applied to employees with 20 years of
       service to be applied routinely to employees with the minimum 15 years of service.
       Mission management expressed concern, however, that SIV approvals before 20
       years would take away experienced LE staff whose expertise is critical as the mission
       grows. The mission’s SIV committee reviews applications electronically and submits
       votes electronically. They meet via teleconference to discuss any cases where the vote
       is not unanimous. Currently the consul general in Islamabad serves as the commit­
       tee chair. The OIG team made an informal recommendation that another commit­
       tee member be appointed to chair this committee while the consul general serves in
       an advisory role as is customary elsewhere. The OIG team also made an informal
       recommendation that each newly constituted SIV committee meet in person at the
       beginning of their tenure to discuss the guidance set forth in 9 FAM 42.32(d)(2)N6.5
       and how they as a committee want to place service in Pakistan in the context of the
       regulations governing this program.




68 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     The LE staff committee also mentioned their perception that over the past few
years, they have not enjoyed the same relationship with the Americans at the embassy
as in the past. They attributed this in part to the one-year tours for most U.S. direct-
hire personnel and the heavy workload that appears to preclude more than superﬁ­
cial relationships. The primary reason cited, however, was their perception that the
Americans no longer trust them, which they said adds to the communication gap and
security procedures that have been implemented in the past six months. (See the clas­
siﬁed annex for an informal recommendation on this issue.)

    With the dramatic increase in the number of LE staff throughout the mission,
the informal, one-on-one orientation that currently takes place may no longer be suf­
ﬁcient. At the time of the inspection there was a plan to initiate a monthly orienta­
tion program for LE staff that would include an overview of the mission, in addition
to answering questions related to their compensation, beneﬁts, and conditions of
work. The OIG team commends the embassy for this initiative.

     In reviewing LE staff personnel ﬁles, the OIG team did not ﬁnd a record of the
required 5-year security revalidations. (See the classiﬁed annex for a formal recom­
mendation on this issue.) Position descriptions are out-of-date or do not include
sufﬁcient information about the duties and responsibilities of the position, and there
was no indication that each position is reviewed on an annual basis. In interviews of
LE staff throughout the mission, the OIG team heard anecdotal accounts of inac­
curate grade levels, particularly in comparison to employees at USAID. In 2009, 11
embassy LE staff left to take similar positions with other agencies at higher grade
levels. With the growth in staff, the management team has instructed each section to
review its structure and establish levels of mid-management where previously some
LE staff supervisors were responsible for 50 or more employees. This will require
that many position descriptions be rewritten to reﬂect new duties and responsibili­
ties and that supervisory training be provided to new supervisors. The embassy and
SCA are negotiating with the Regional Support Center in Frankfurt to regionalize
computer-aided job evaluation work (there is already a memorandum of agreement
with the Regional Support Center to perform this work for all EFM positions). The
OIG team did not make a recommendation since the embassy is aware of the need
to review position descriptions and grade levels and was already working to address
this issue.

    Embassy Islamabad tracks LE staff training and there is a repayment agreement
that employees must sign prior to going abroad on ofﬁcial orders. However, there is
no comprehensive training plan nor is there a written training policy. The embassy
does not require LE staff to prepare individual development plans, a basic manage­
ment tool to determine training needs.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   69 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          Recommendation 29: Embassy Islamabad should establish a mission-wide
          comprehensive training policy and plan, including the preparation of individual
          development plans for the locally employed staff, and should make that plan
          available to American supervisors. (Action: Embassy Islamabad)



       Peshawar: De Facto Drawdown

            In November 2008, the Peshawar emergency action committee, in consultation
       with Embassy Islamabad, decided to reduce the number of U.S. direct-hire employ­
       ees in Peshawar due to the deteriorating security situation. At that time, some em­
       ployees were relocated to Islamabad, where most served the remainder of their tours.
       One of the employees from the group who relocated in 2008 is still at the embassy,
       and three others arrived in summer or early fall 2009 and never established them­
       selves permanently in Peshawar. Of the displaced Foreign Service ofﬁcers, some
       worked in Peshawar for several months, some for a few days, and some never were
       stationed there at all, making only intermittent trips for one or two days at a time.
       During the inspection, the OIG team interviewed each of these employees. These
       employees expressed a range of concerns, including housing, beneﬁts, work require­
       ments, and supervisory arrangements. One employee is reporting to ﬁve supervisors
       at the same time. One supervisor is unable or unwilling to recognize the workloads
       imposed by other supervisors or why this displaced employee is working six days
       a week. One employee, who was allowed to report for duty in Peshawar upon her
       arrival in October 2009, spent just seven days there before being relocated to Islam­
       abad. Her work requirements were signed four months later, but do not reﬂect the
       duties she performs in her section in Islamabad. Some work requirements for the
       other employees are not available or were just recently signed. In some cases, the
       supervisor actually assigning their work is not the designated rating ofﬁcer. This situ­
       ation may prejudice performance evaluations, career development, and promotion
       prospects.


          Recommendation 30: Embassy Islamabad should complete accurate and
          timely work requirements, counseling documentation, and evaluations for em­
          ployees who are encumbering Peshawar positions but are actually working in
          Islamabad. (Action: Embassy Islamabad)


           The Director General of Human Resources recently approved the establish­
       ment of 16 temporary positions in Islamabad, one for every Department position
       in Peshawar. This allows the housing and beneﬁts for the employees relocated from


70 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



Peshawar to match those for other employees based in Islamabad. Most of these
positions have been ﬁlled for summer 2010. The embassy will decide at a later date
which employees will go to one of the temporary positions in Islamabad and which
to the “real” positions in Peshawar. Based on the security situation in Peshawar, the
embassy, in consultation with the Department, will determine when employees can
return to Peshawar and the corresponding temporary positions eliminated.

    The Department has procedures that should be followed when security or other
concerns warrant a reduced U.S. presence or drawdown including a ceiling on the
number of employees at post until the Under Secretary for Management approves
the return of evacuated employees. Employees may be sent to a safe haven in a loca­
tion other than the United States if it is anticipated that they will return to their origi­
nal post within a relatively short time. A drawdown is initially approved for a period
not to exceed 30 days, and may be extended in 30-day increments for a maximum of
180 days.

    These procedures were not followed in the case of Peshawar. The de facto draw-
down has continued well past 180 days. As mentioned above, despite this de facto
drawdown, Islamabad-based Peshawar employees return periodically to Peshawar,
and a new group will be arriving soon to follow this same ad hoc protocol. It is not
clear when this situation will change. (See the classiﬁed annex for a formal recom­
mendation on this issue.)



GENERAL SERVICES
    The GSO unit is doing a good job of delivering services in an extraordinarily
challenging environment. The rapid increases in new American personnel and inﬂux
of high-level visits place especially heavy demands on GSO operations. For example,
during the OIG team’s visit, the embassy hosted ﬁve senior-level visitors in a single
week. Over the past year, the embassy brought approximately 80 new residences into
the housing pool. Services such as visa extensions, vehicle registration, and customs
clearance permissions that would be routine in other countries require an inordinate
amount of work because of difﬁcult relations with host Government authorities.
Despite these challenges, scores on OIG and ICASS surveys are at or above average
for all GSO services, except procurement, a signiﬁcant accomplishment in this fast-
paced environment.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   71 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       Ofﬁcial Vehicles

           Embassy Islamabad’s number one operational limitation mission-wide is the
       insufﬁcient availability of ICASS motor pool services for local transportation. In
       Islamabad and Lahore, employees are authorized to request motor pool services for
       other authorized use; in Karachi and Peshawar, employees are required to use the
       motor pool vehicles for all transportation requirements. The need to support fre­
       quent high-level visitors and large numbers of TDY personnel places an additional
       burden on the mission’s motor pool. Under these difﬁcult circumstances, the motor
       pool receives surprisingly high praise from embassy staff. However, during its 4-week
       inspection, the OIG team witnessed 5 days in Islamabad when the motor pool issued
       notices that it was restricting motor pool service to the home-to-ofﬁce shuttle due to
       exceptional operational demand, limiting the embassy’s overall operational readiness
       as well as the access to goods and services that employees rely on. These limitations
       are due to a combination of factors, including the difﬁculty in providing the neces­
       sary vehicles (see the classiﬁed annex for details) and the proliferation of agencies
       with their own motor pools and individually assigned ofﬁcial vehicles.

           Generally, agencies and ofﬁces with their own ofﬁcial vehicles will hire their own
       chauffeurs. Unlike the ICASS motor pool, these drivers are only hired for daytime
       shifts. The agencies and ofﬁces must then either pay their drivers overtime or rely on
       the ICASS motor pool for nighttime and out-of-town travel. The NAS section, for
       example, paid its six drivers for 1,413 hours of overtime in a 3-month period dur­
       ing FY 2009. In contrast, the ICASS motor pool hires its drivers across three shifts
       throughout the week, so that after-hours work is covered by standard pay. There is
       also a disproportionate distribution of work among the drivers; ICASS drivers are
       over tasked while some other drivers spend the majority of their time waiting to
       provide transportation home. The numerous supervisory lines for drivers also result
       in an inconsistent application of controls over ofﬁcial vehicles, such as maintenance
       checks and record keeping. The NAS motor pool is particularly deﬁcient in record-
       keeping, with irregular daily records and extremely late submissions for overtime.

           All of the motor pool issues could be managed better through a central ICASS
       dispatch system. Embassy Islamabad could convert all drivers to ICASS positions
       and place them under a consolidated dispatch ofﬁce allowing for more efﬁcient use
       of embassy drivers’ time, increased management controls over the use of ofﬁcial
       vehicles, and signiﬁcant reduction in overtime costs.




72 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



   Recommendation 31: Embassy Islamabad should consolidate all mission driv­
   ers under the International Cooperative Administrative Support Services dis­
   patch system. (Action: Embassy Islamabad)


    The constituent posts have few vehicles and drivers outside of the ICASS motor
pools, because other agencies have not had a high proﬁle at the consulates. However,
the growth of the consulates over the next few years could generate the same frac­
turing of resources seen in Islamabad. The OIG team informally recommended that
Embassy Islamabad review the policies in the consulates for maintaining consoli­
dated services in the future.

    Embassy Islamabad’s policy for other authorized use of ofﬁcial vehicles does not
charge for home-to-ofﬁce or other transportation by U.S. direct-hire employees. The
Ambassador’s justiﬁcation for this is the speciﬁc security threats throughout Pakistan
make travel by public transportation at all times, and by personal vehicle under many
circumstances, unacceptably dangerous. The OIG team agrees with the Ambassa­
dor’s determinations and ﬁnds the policy to be appropriate. Unfortunately, the policy
does not conform precisely to 14 FAM 433.4 a. (2), which requires either a ﬁnding by
the regional security ofﬁcer that armored vehicle transportation with a security escort
is necessary for security reasons or a waiver of transportation costs by the Assistant
Secretary for Administration. Therefore, the OIG team informally recommended
that Embassy Islamabad request such a waiver.

     Embassy Islamabad’s motor vehicle use policy authorizes employees to self-drive
ofﬁcial vehicles when it is required by their ofﬁcial responsibilities. However, the
policy does not inform employees of their personal liability and the extent of em­
bassy liability insurance coverage. The OIG team informally recommended that the
policy include such information.

    In December 2009, NAS provided information on its program development and
support vehicles to the motor pool supervisor to comply with Department require­
ments to include these vehicles in the Integrated Logistics Management System’s
(ILMS) motor vehicle inventory report. While the information was entered into the
database, the actual vehicles were never presented for the physical inventory rec­
onciliation process. The NAS vehicles are kept in various locations throughout the
country, including one in Quetta.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   73 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          Recommendation 32: Embassy Islamabad should conduct an audit of the
          program development and support vehicles of the narcotics affairs section that
          are included in the motor vehicle inventory. (Action: Embassy Islamabad)


           There is additional discussion of motor vehicles in the classiﬁed annex.

       Travel Services

            Travel operations require closer supervision and management. The current
       supervision of the travel function is divided between the HR and GSO units, with
       the HR unit taking responsibility for the preparation of most travel orders for R&R
       and TDY travel. Neither the supervisory general services ofﬁcer nor the LE staff
       travel supervisor reviews actual travel itineraries before the travel vendor issues tick­
       ets. After the vendor issues the tickets, bills are sent to the GSO for administrative
       approval. Because the GSO does not retain records of authorized travel, including
       documentation of fare costs, cost construct records, Fly America exceptions, non-
       use of contract air fares, and premium class travel authorization, the government
       cannot be certain that payments submitted by the vendor were authorized correctly.
       A streamlined travel unit that places responsibility for travel under a single supervisor
       would improve controls and prevent possible fraud and abuse.

          Recommendation 33: Embassy Islamabad should reorganize travel respon­
          sibilities so that the general services ofﬁce is responsible for preparing and ap­
          proving travel orders, issuing tickets, supervising the travel vendor, and verify­
          ing the correctness of bills submitted. (Action: Embassy Islamabad)



       Travel Contract

           The embassy does not have a contract in place to procure travel services. The
       embassy’s memorandum of understanding with the local vendor references a Gen­
       eral Services Administration master contract in Washington that expired several years
       ago. A contract or purchase order between the embassy and a local travel provider is
       required by 14 FAM 542 b. (1) to provide assurances that the embassy is not paying
       more than would be chargeable if the services were obtained directly from local air­
       lines. The lack of a travel contract means that the embassy does not have a basis for
       requiring that the vendor follow U.S. Government travel regulations or claim rebates
       on commissions paid by airlines. In Pakistan, most airlines pay a 5 percent com­
       mission on tickets issued to the embassy, according to travel contractor employees



74 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




interviewed by the OIG team. The contractor receives commission payments directly
from the airlines, a portion of which could be refunded to the embassy under a travel
contract, a practice often employed by embassies that have competitively selected
travel vendors. Travel contractor staff interviewed by the OIG team were not famil­
iar with 14 FAM travel regulations and procedures including requirements for use of
city-pair contract air fares, business class travel documentation requirements, cost-
constructive travel documentation requirements, and blanket travel authorization
requirements. A new travel contract will reduce costs to the government and increase
internal controls over travel.



   Recommendation 34: Embassy Islamabad should advertise, compete, and
   select a travel contractor to provide travel services to the embassy and constitu­
   ent posts. (Action: Embassy Islamabad)



Property Management

     A major component of the OBO master plan is the replacement of Embassy
Islamabad’s primary warehouse. The warehouse currently stores $6.5 million worth
of expendable and nonexpendable supplies, with a number of containers and a
warehouse annex off the compound for extra storage, mostly for residential furni­
ture. Current construction plans call for tearing down the existing warehouse so that
the site can be used for construction staging, requiring the leasing of a temporary
warehouse outside of the compound for a substantial amount of time. This solution
is less than ideal.

    Embassy security policies that prohibit any employees from being located at the
current warehouse annex would certainly apply to a warehouse located outside of
the compound, reducing the ability of the accountable property ofﬁcer to main­
tain efﬁcient controls. Warehouse employees would need to travel to the temporary
warehouse in order to receive, record, and pick up any property. The motor pool is
scarcely able to provide appropriate vehicles for employee use, and it would be very
difﬁcult to transport people and property on a regular basis with existing resources.
There are also numerous complications with transferring property on and off the
embassy compound. The diplomatic enclave restricts the entry of trucks, and gate
passes are required for transferring property in and out of the enclave. While it is al­
ready difﬁcult to arrange access for occasional deliveries, it would be even more bur­
densome to make arrangements for the constant trafﬁc between the compound and



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   75 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       a temporary warehouse.
                                                  The retention of the warehouse until a
       temporary or permanent warehouse can be constructed on the Embassy Islamabad
       compound is not a priority item in the OBO master plan.


          Recommendation 35: Embassy Islamabad, in coordination with the Bureau
          of Overseas Buildings Operations, should develop construction plans that
          retain the existing embassy warehouse until a temporary or permanent replace­
          ment can be built on the embassy compound. (Action: Embassy Islamabad, in
          coordination with OBO)


           Embassy Islamabad completed its annual inventory during the inspection, and
       the noted discrepancies are within acceptable limits. The OIG team identiﬁed a few
       procedural controls that were applied inconsistently, and the accountable property
       ofﬁcer corrected them immediately after counseling. The management controls sec­
       tion of this report includes a discussion on mission-wide problems with the receiving
       reports.

            The Karachi warehouse, located off the current compound, is sorely neglected.
       Storage space is cramped and disorganized. A number of crates have been left on the
       loading dock. There is scrap and refuse throughout the site. The OIG team informal­
       ly recommended that Consulate General Karachi clean out the warehouse site and
       hold a surplus sale as soon as possible.

           Transferring property to and from the site requires a great deal of advance
       planning by both warehouse and motor pool staff, resulting in long delays to bring
       property to the consulate. Sometimes the consulate ﬁnds it easier to bypass the ware­
       house completely and purchase new supplies directly from vendors. The warehouse
       LE staff is mostly unsupervised, and this situation has resulted in a breakdown of
       management controls.

           There are discrepancies between the inventory ﬁles and equipment on hand.
       Consulate General Karachi was unable to ﬁnd the records for six printers that were
       set aside for disposal. The number of toner cartridges in the expendables store room
       did not match the inventory records. Though the physical inventory report was in
       process, it did not reﬂect any of these problems. The property management ofﬁcer
       normally delegates the annual physical inventory process to the LE staff, but this has
       not provided the necessary oversight.




76 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



   Recommendation 36: Embassy Islamabad should require that the Consulate
   General Karachi property management ofﬁcer adequately supervise the ware­
   house LE staff and provide adequate oversight of the physical inventory and
   reconciliation process. (Action: Embassy Islamabad)



Housing

     The housing program is well organized and efﬁciently managed, but identifying
suitable housing for new personnel arriving in Pakistan is difﬁcult due to the volume
and pace of new arrivals and security considerations limiting the areas where embas­
sy personnel are authorized to live. These difﬁculties are compounded in many cases
by the lack of timely notice from sponsoring agencies of the arrival dates of person­
nel. Consequently, many new employees are moved into temporary quarters while
their housing is prepared for occupancy. Unlike crisis-zone missions in Kabul and
Baghdad, Embassy Islamabad provides housing of quality and size similar to what
is found at more traditional missions, a fact that many employees noted as a plus
for morale. The housing pool consists of 26 government-owned properties and 253
short-term leased properties located off the embassy compound. The GSO is em­
ploying creative solutions such as duplexing existing housing units to meet demand
and implementing furniture, generator, and appliance pools to reduce make-ready
times and manage resources more efﬁciently.

Temporary and Group Housing

    The bombing of the Marriott Hotel in Islamabad in 2008 resulted in the deaths
of three TDY employees under chief of mission authority. The mission’s policy is
to house all TDY employees in embassy or consulate quarters, unless other arrange­
ments are speciﬁcally authorized by the emergency action committee. The embassy
is midway through a construction program to build 189 TDY units on the Islam­
abad compound. All three consulates have established TDY quarters off-compound.
Forty-four of the houses in the embassy housing pool are group houses. Some em­
ployees interviewed by the OIG team felt that the criteria for assigning group hous­
ing are not transparent, because they occur outside the normal interagency housing
board assignments process. The OIG team made an informal recommendation that
the criteria for assigning permanent personnel to group housing be speciﬁed in the
embassy’s housing handbook.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   77 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       Shipping and Customs

           The primary difﬁculty for the shipping and customs unit is obtaining customs
       clearances for imports. Over the last 6 months, there have been a number of ex­
       tended delays with customs, and in response, the unit revised most of its guidance to
       customers on how long they would need to wait for shipments. During the inspec­
       tion, the unit also developed procedures to send out weekly reports on incoming
       shipments to keep customers informed.

           The one-year assignment schedule also means a higher number of household
       effects shipments than usual. The ICASS council recently approved four new posi­
       tions for the embassy shipping unit in an effort to meet demands. In the meantime,
       shipping employees are doubling up on responsibilities. They are unable to provide
       staff to monitor the performance of the packing companies; the GSO is developing
       a rotational inspection schedule to provide appropriate oversight.

           Embassy Islamabad manages the shipping and customs work for Peshawar and
       Lahore and has also been assisting Karachi with customs clearances. In addition, the
       unit manages countrywide shipping and packing contracts. The existing contracts
       were on an extension by memorandum of agreement, and are about to be renegoti­
       ated. The OIG team informally recommended that once the contracts are awarded,
       Embassy Islamabad provide copies to all of the consulates for their use in processing
       payments for services.

           Consulate General Karachi manages most of its own shipping, as well as over­
       sight of the Department of Defense shipments to Afghanistan. More than 6,000
       containers a month arrive in the port of Karachi and are then shipped overland to
       Afghanistan; this number is expected to increase to 8,500 a month later this year.
       Consulate General Karachi hosts ﬁve customs expeditors hired by the Department
       of Defense to manage these shipments. Still, the consulate’s shipping supervisor
       spends 50 to 60 percent of his time assisting with the Department of Defense ship­
       ments. Consulate General Karachi is likely to ﬁnd it even more difﬁcult to keep up in
       the future as the consulate moves into the NCC and sees a growth in population.

           Likewise, Consulate General Lahore has seen an increase in shipping. While
       customs and most administrative details are managed by Embassy Islamabad, the
       consulate receives and sends out a number of shipments without appropriate moni­
       toring. The OIG team informally recommended that the consulate develop and
       implement a tracking system.




78 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



Procurement and Contracting

    The procurement and contracting unit is critically understaffed and relatively
inexperienced. The embassy is hiring eight new staff members and modernizing
procurement by moving to the Department’s ILMS for procurement services. Files
reviewed by the OIG team complied with requirements for competitive award of
procurements in Federal Acquisition Regulation (FAR) 6.102, when applicable, and
contained satisfactory documentation of formal technical evaluation panel decisions
as required by FAR 15.101-2. The management of blanket purchase agreements had
some weaknesses. The OIG team made an informal recommendation stating that
local procurement personnel in Karachi should receive a purchase card to facilitate
offshore procurements.



VISITOR SUPPORT UNIT
    The visitor support unit is relatively new but has already proven its worth. As
mentioned earlier in this report, the embassy devotes a signiﬁcant portion of its
already stretched resources on support to high-level Administration and congressio­
nal visitors. In order to manage this tremendous workload, the embassy established
a visitor support unit in June 2009. An EFM serves as the unit’s supervisor and is
assisted by an LE staff visitor clerk. The unit provides the full range of logistical
support for each visit so that the control ofﬁcer can focus on the substantive aspects
of the visit. The unit also has responsibility for managing the reservation system for
the TDY quarters and two apartments for high-level visitors. (See the sections of
this report on housing and the embassy association.) The OIG team commends the
supervisor for reaching out to other embassies with similar visitor support units for
ideas and guidance.



INFORMATION MANAGEMENT
    Embassy Islamabad’s information management (IM) program currently meets
the information technology needs of all users in Islamabad and the consulates
general in Karachi, Lahore, and Peshawar. It also provides the appropriate level of
information system security for the mission. The OIG team assessed the technical
and management operating procedures and the physical security of the information
technology spaces in Islamabad and the consulates. IM operations at the embassy
and consulates general are adequate.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   79 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



            The IM program is also responsible for switchboard operations, telephone and
       radio management, classiﬁed and unclassiﬁed pouch operations, and mail operations.
       The OIG inspectors reviewed these operations and found that the Department’s pol­
       icies and guidelines are being followed. The OIG’s workplace and quality of life and
       personal questionnaire results showed that all services are adequate mission-wide.

           Embassy Islamabad’s information management ofﬁcer (IMO) oversees the
       information systems and information processing centers for the mission. When fully
       staffed, the information management ofﬁce is supported by a large cadre of U.S.
       direct-hire and LE staff. The information systems ofﬁcer oversees the day-to-day
       operations of the unclassiﬁed systems supporting 734 users, 559 personal computers,
       and 7 servers. The information program ofﬁcer is in charge of the classiﬁed system
       operation supporting a classiﬁed network of 55 workstations, and 7 servers. The IM
       team also includes EFM courier escorts and cleared American contract radio and
       telephone technicians. The IMO also has operational oversight over IM programs at
       the consulates general.

           Consulate General Lahore has an information systems ofﬁcer to oversee and
       manage all IM operations that include unclassiﬁed systems support to 112 users, 89
       personal computers, and 5 servers, and a classiﬁed system consisting of 6 worksta­
       tions linked to Islamabad.

          Consulate General Karachi has an information programs ofﬁcer and an infor­
       mation management specialist to oversee and manage IM operations that include
       unclassiﬁed operations to support 164 users, 147 personal computers, and 7 servers,
       and a classiﬁed system consisting of 10 workstations, and 3 servers.

           Consulate General Peshawar has an information systems ofﬁcer to oversee and
       manage IM operations that include unclassiﬁed systems support to 26 personal com­
       puters, and 5 servers, and a classiﬁed system consisting of 10 workstations linked to
       Islamabad.

           In addition to the regular duties described above, the IM sections at Embassy
       Islamabad and the consulates provide support to an above-average number of high-
       level visitors in an extremely difﬁcult environment.

           The OIG team counseled the IM staff at both the embassy and the consulates
       general on several matters including the proper labeling of equipment and the need
       for locked closets to house the computer switches. The embassy resolved some of
       these issues to the satisfaction of the OIG team during the course of the inspection
       and other mitigation activities are in progress.



80 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    The telephone room in Consulate General Peshawar is cluttered. Limited stor­
age space has made the telephone room a repository for excess and spare equipment.
Good management practice requires well-organized space. Disposal of excess equip­
ment, systematic storage of spare equipment, and general clean up of the room will
reduce ﬁre hazards, the potential for personal injury, and ease ﬁnding required spares.



   Recommendation 37: Embassy Islamabad should remove all excess and spare
   equipment from the telephone room in Consulate General Peshawar. (Action:
   Embassy Islamabad)


     There are no computer server room temperature sensors throughout the mis­
sion to notify appropriate staff in the event of equipment overheating; such sensors
have never been installed. According to 12 FAM 629.4-4 c., the senior information
management ofﬁcer, the data center manager or system manager, in conjunction with
the GSO, is responsible for ensuring that air conditioning and humidity controls and
gauges are installed in the computer room so that the environment is maintained
within the speciﬁcations established by equipment manufacturers. To accomplish
this, the server room is normally equipped with a notiﬁcation device in the event of
an overheating condition. If the server room overheats, the equipment may malfunc­
tion, causing loss of equipment, data and services. The OIG team made an informal
recommendation on this matter.

    Ganged power strips were found on top of equipment racks at Consulate Gen­
eral Peshawar. Installations were apparently performed expediently rather than with
safety in mind, and the current situation makes the facility vulnerable to an electrical
ﬁre. A general cleaning up of the electrical wiring will reduce the chance of electri­
cal ﬁre or other hazards. The OIG team made an informal recommendation on this
matter.

    There are no information management SOPs at Consulate General Lahore. Until
the arrival of the incumbent, there was no professional information systems ofﬁcer
in Lahore to develop them. Best practices dictate development and maintenance of
up-to-date SOPs. Creating and maintaining written SOPs for all information man­
agement areas of responsibility will simplify matters for TDY and replacement staff.
The OIG team made an informal recommendation on this matter.

    Information security is discussed in the classiﬁed annex.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   81 .


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





82 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                                    QUALITY OF LIFE


    Life at Embassy Islamabad is difﬁcult and will remain so for some time. The
workload is extremely heavy and most employees work six—if not seven—days a
week. A notice directing that no meetings be scheduled on Sundays was drafted but
has not been issued formally. Security restrictions limit travel for ofﬁcial and unof­
ﬁcial business and require, in most cases, the use of FAVs. Only six embassy partici­
pants are allowed to attend any single outside cultural or social event. With the dra­
matic increases in stafﬁng, work space will continue to be cramped. The construction
of several temporary ofﬁce buildings on the compound will help to alleviate over­
crowding until the new embassy compound is built, but the widespread construction
creates additional stresses.

     Morale varies throughout the mission. Section chiefs and others who have regu­
lar contact with the executive ofﬁce have a greater sense of the overall goals of the
mission and their role in achieving them and report very high morale, while those at
other levels report lower morale. The employee association, the health unit, and the
CLO all work hard to provide recreational and other outlets for the community. Em­
ployment opportunities for EFMs and family visitation travel have also helped. The
Department’s Pakistan service recognition package, which includes a special allow­
ance for those who stay a second year, has made service in Pakistan more attractive.



UNITED STATES EMPLOYEE ASSOCIATION
     The United States Employee Association (USEA) provides facilities and activities
that are important to employee well-being and morale, particularly in the current se­
curity environment where off-compound shopping, dining, and recreation are strictly
limited. Increasingly, USEA has been asked to take on responsibilities that go beyond
those expected at other employee associations, but that are critical to the embassy’s
ability to manage the dramatic growth in permanent and temporary personnel.

     USEA’s services include a commissary, several food service outlets, and a bar.
USEA also manages a swimming pool, tennis court, and other exercise facilities;
sells gas coupons and stamps; and brings vendors onto the compound at least twice
a week. The Islamabad commissary has branches in Karachi, Lahore, and Peshawar.



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   83 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       The employee association in Peshawar runs the Khyber Club, which is not afﬁliated
       with any other association; it has a bar, a restaurant, 12 TDY rental rooms, a swim­
       ming pool, tennis court, and a gym.

           USEA’s charter was approved in May 2009, and the bylaws were submitted to
       the Ofﬁce of Commissary and Recreation Affairs (A/OPR/CR) in July 2009. These
       documents are being revised to include language covering the operation of TDY
       quarters discussed below. License agreements covering the support provided by
       USEA in Lahore, Karachi, and Peshawar have been drafted. The annual audit was
       underway during the inspection.

           The current general manager has over 20 years of experience as a business
       manager. She and her two senior managers recently attended A/OPR/CR training
       in Bangkok. An operations manager oversees food services in Islamabad and com­
       missaries in Islamabad and the three consulates. USEA plans to hire a management
       ofﬁcer to oversee ﬁnance, procurement, information technology, human resources,
       housekeeping, recreation, and events planning. The manager in Karachi oversees
       food services at the consulate and the club, services taken over by USEA three years
       ago.

            Membership has doubled since 2007: there are currently 608 full members and
       96 guest members. Large numbers of TDY personnel also use USEA services and
       facilities.

           In a spot check of inventory controls at the commissary, the inspectors found
       that items on the shelves and in the storeroom did not match the records. This
       discrepancy, which appeared to be the result of pressure from the membership to
       immediately stock the shelves once a new shipment arrived and before the inventory
       had been updated, was corrected the day after the OIG team noted the problem, and
       no recommendation was made. Alcohol sales are strictly controlled, and the inspec­
       tors found documentation to justify purchases over the authorized limit. A surprise
       inventory of the bar revealed no discrepancies.

           The board of directors is active and committed. One voting and one nonvoting
       member are elected by each consulate and participate in board meetings via telecon­
       ference. Committees examine food services, recreation, social activities, and human
       resources. The food services committee conducted a recent survey that resulted in
       a board decision to contract with a master chef to improve quality, variety, healthier
       options, and service. The committee is also exploring the possibility of contracting
       commissary management with the Army Air Force Exchange Service. The board is
       undertaking a complete information technology infrastructure upgrade at all USEA



84 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




facilities countrywide which, among other beneﬁts, will replace the accounting
system, eliminate the antiquated paper-based system, and improve internal controls.
With most of the board members serving one-year assignments, there is little con­
tinuity or time for training; some board members were more knowledgeable than
others about 6 FAM 500, which governs employee associations.

     Like the embassy, USEA is also growing. There are currently 171 employees with
22 more coming on board within the next few months. This growth results from
the embassy’s request that USEA take over additional services in Islamabad, Lahore,
and Karachi. In October 2009, USEA took over management of 125 TDY units,
representing $1.4 million in ﬁxed assets, constructed on the embassy compound
(see housing section of this report) and two 3-room TDY apartments. Units under
construction during the inspection will increase capacity to 189 units (378 beds).
From October through December 2009, total revenue from the TDY quarters was
$566,000. During the inspection, the board discussed allocation of overhead ex­
penses, retention of a management fee, allocation of funds to a reserve/ﬁxed assets
account, and the requirement to return part of the proceeds from the rental of TDY
quarters to the Department. In addition, as part of OBO’s master plan for new fa­
cilities, the Department will build an 80-room hotel (see the facilities section of this
report), and the embassy has asked USEA to manage that facility as well.

    In Lahore, USEA is expanding beyond the current commissary to provide food
service on the consulate compound and to manage up to three guest houses and an
exercise facility. In Karachi, USEA is expanding services to include management of
TDY quarters.

    The inspectors were concerned about the dramatic increase in the embassy’s
expectations of USEA and were pleased to learn that representatives from A/OPR/
CR would be in Islamabad shortly after the conclusion of the inspection. The in­
spectors also commended embassy management and the board for recognizing the
need for greater oversight and their decision to hire an outside management consult­
ing ﬁrm to perform regular reviews of management operations and internal controls.



   Recommendation 38: Embassy Islamabad should direct the United States
   Employee Association to hire a manager to oversee association operations in
   Lahore. (Action: Embassy Islamabad)




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   85 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          Recommendation 39: Embassy Islamabad should request, and the Bureau of
          Administration should perform, annual site visits scheduled soon after board
          elections to review management and internal controls and to provide speciﬁc
          guidance and training to board members during the period of expansion. (Ac­
          tion: Embassy Islamabad, in coordination with A)




       HEALTH UNIT
            The health unit in Islamabad has been called on to perform more like a hospital
       emergency room than like a typical embassy health unit, responding admirably to
       life and death emergencies. Last year, the director of the Ofﬁce of Medical Services
       nominated the health unit for a meritorious honor award for their response to two
       separate catastrophic hotel bombings that resulted in multiple casualties. The day
       before the OIG team’s arrival in Pakistan, a suicide bomber attacked a girl’s school in
       northwestern Pakistan, killing and injuring many schoolgirls. A U.S. Special Opera­
       tions unit on a civilian outreach mission with the Pakistan Frontier Corps was visiting
       the school. Three U.S. service members were killed, and two were severely injured.
       The health unit responded and, working with their military colleagues, provided
       medical care until the two wounded service members could be evacuated for further
       treatment. The heath unit drafted an after-action report including lessons learned
       and a memorandum of agreement to deﬁne the divisions of responsibility among
       the health unit, ODRP, and the Air Expeditionary Advisory Group/Combined Air
       Power Task Force at Bagram Air Base, Afghanistan.

           The health unit has a regional medical ofﬁcer (RMO), a Foreign Service health
       practitioner (FSHP), three locally hired expatriate registered nurses, a laboratory
       technician, and several LE support staff. The unit plans to establish a Foreign Service
       social worker position to provide crisis intervention, problem assessment, counseling
       for employees, and to coordinate efforts with the regional medical ofﬁcer psychiatrist
       (RMO/P). A new FSHP position in Peshawar has been established and ﬁlled, and
       there are plans to establish a similar position in Karachi by 2011. The constituent
       posts receive frequent visits from the Islamabad RMO and FSHP. In addition, all
       posts in Pakistan receive frequent visits from the RMO/P located at Embassy New
       Delhi.

           Most employees report satisfaction with their medical support. In addition to
       responding to crises, the health unit sees an average of 200 patients a month. There
       were seven medical evacuations and ten local hospitalizations in FY 2009. The FSHP
       established SOPs for handling and tracking procurement requests for medical sup­

86 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



plies and equipment for all four health units. Secure storage of medical records
will improve with the completion of renovations that include a new ﬁle room. The
post capabilities database was up-to-date, and records on controlled substances are
current and accurate. Although noncontrolled medications are correctly stored, the
inventory records have not been modernized. The health unit still uses stock cards
for ordering and keeping the inventory of its pharmacy. The OIG team made an
informal recommendation on this subject.

    The health unit participates in a weekly orientation program for new arrivals and
each new arrival is asked to complete a screening checklist for post traumatic stress
disorder, a practice that the Ofﬁce of Medical Services recently implemented world­
wide.

    Some of those working in Pakistan believe that living and working in Pakistan is
more dangerous than serving in Iraq or Afghanistan primarily because employees in
Pakistan serve without the protective security provided by the U.S. military. Respons­
es to the workplace and quality of life questionnaires and interviews with employ­
ees during the inspection validated this view. The Foreign Service Institute offers
a course for employees coming from an assignment at a high-stress or high-threat
post. Although available to employees from all stressful or dangerous assignments,
the Director General has mandated this course for all employees who have spent 90
days or more in Iraq or Afghanistan. It is not mandatory for employees coming out
of an assignment in Pakistan. The OIG team made an informal recommendation on
this issue.



COMMUNITY LIAISON OFFICE
    Until October 2009, there had not been a CLO coordinator in Islamabad since
2002. The incumbent brings a wealth of experience to the job having served in
the same capacity at three previous posts. The coordinator and LE assistant com­
municate with the embassy via a SharePoint site and a weekly newsletter. The OIG
team made an informal recommendation that the embassy establish a CLO advisory
board.

    CLO-sponsored activities are well attended, particularly those that involve sports
or other outdoor activities. The CLO often plans activities in coordination with
the health unit, the Marine security guard detachment, or the employee association,
which provides an annual budget of $10,000 in support of CLO activities. A “Walk
to Washington” initiative has over 90 participants representing all agencies. In an en-



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   87 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       vironment with a large number of military and other agency personnel, the tendency
       is for employees of each agency to stick together. The CLO activities help bring
       these groups together.

           The coordinator is a nonvoting member of the employee association board and
       a member of the embassy’s employment committee although to date this committee
       has not met. The coordinator does not participate in country team meetings due to
       space limitations. The coordinator is not a member of the interagency housing board
       and does not participate in meetings of the emergency action committee.


          Recommendation 40: Embassy Islamabad should designate the community
          liaison ofﬁce coordinator as a member of the interagency housing board and
          the emergency action committee. (Action: Embassy Islamabad)


           The ICASS council recently approved an EFM position for the CLO operation
       in Lahore.



       EQUAL EMPLOYMENT OPPORTUNITY AND FEDERAL WOMEN’S
       PROGRAM
            Embassy Islamabad has two designated EEO counselors and a Federal Women’s
       Program coordinator. There is one active EEO case. Three LE staff perform EEO
       liaison duties. They also report one active EEO case. Embassy Islamabad issued the
       Department’s policies on discrimination and sexual harassment prior to the inspec­
       tion team’s arrival. There is no record of prior EEO training at the embassy. How­
       ever, the EEO counselors and the HRO plan to conduct EEO training in the near
       future. EEO policies and information about how to contact a counselor are posted
       on a bulletin board just inside one of the two entrances to the chancery and in the
       consular annex. A SharePoint site is under development. Because of the multiple
       buildings on the compound, the OIG team made an informal recommendation that
       EEO information be posted in both English and Urdu in other high trafﬁc areas.

           The newly arrived assistant regional security ofﬁcer is the EEO counselor in
       Lahore and recently completed the training. Given the absence of any other EEO-
       trained staff, the management ofﬁcers are standing in as temporary EEO counselors
       in Karachi and Peshawar. They both plan to appoint LE staff liaisons.




88 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



    The training requirements for EEO counselors can be onerous, particularly
where the tour of duty is just one year. In addition, although EEO cases come to
the LE staff liaisons, they have no formal training. The Islamabad EEO counselor is
already in discussions with the Ofﬁce of Civil Rights regarding a special segment in
the regular refresher training courses offered in Frankfurt and Bangkok in which LE
staff liaisons could participate via teleconference.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   89 .


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





90 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                           MANAGEMENT CONTROLS


    Embassy Islamabad and its constituent posts operate in a high-risk environment
for waste, fraud, and mismanagement. In general, satisfactory controls are in place
in the mission, as documented by the annual chief of mission management controls
certiﬁcation. Pakistan ranks 134 of 180 nations on Transparency International’s
Corruption Perception Index. Multi-billion dollar U.S. foreign assistance programs
operate in conﬂict areas where oversight is difﬁcult or, in some cases, impossible.
One-year tours of duty and security restrictions increase the difﬁculty of maintain­
ing internal controls, especially in the consulates. The OIG team noted a number of
areas where internal controls were weak.



BUSINESS CLASS TRAVEL INTERNAL CONTROLS
    The embassy and constituent posts issued airline tickets in 2009 with an esti­
mated value of approximately $7 million. As part of the Pakistan service recognition
package approved in June 2009, most employees assigned to Islamabad and Lahore
are authorized two R&R trips per year. Most employees assigned to Peshawar receive
two R&R trips and one regional rest break, while most Karachi employees receive
two R&R trips and two regional rest breaks.

     The OIG team found that, in a signiﬁcant number of embassy travel agent
invoices reviewed, actual tickets issued were business class tickets rather than the
economy class tickets indicated on travel authorizations. This was the case for most
classes of travel: R&R, permanent change of station, and TDY travel. The embassy
did not use form DS-4087 to approve business class travel in advance for these tick­
ets, as required by 14 FAM 567.2-2. Travelers are prohibited from using government-
funded business class accommodations for R&R travel, per 14 FAM 567.2-4 b. (7)
(c), unless justiﬁed under one of the other provisions. (See 14 FAM 567.2-4.) Em­
bassy management notes that travel orders are authorized for economy class tickets
only for the applicable class of travel. The travel vendor occasionally issues ticket
upgrades to certain embassy employees, primarily U.S. direct-hires. However, such
upgrades are not applied uniformly. Most LE staff travel economy class on ofﬁcial
travel, for example, and the embassy retains documentation in travel ﬁles to support
issuance of business class tickets for some employees but not others. In some cases,
employees may purchase upgrades themselves or use frequent ﬂyer miles to upgrade


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   91 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       ﬂight class. In all cases where a business class ticket is issued, the traveler and the
       embassy are required to retain documentation that tickets were issued in accordance
       with Department travel regulations. The issuance of business class tickets without
       proper documentation increases the risk of abuse and fraud in employee travel.


          Recommendation 41: Embassy Islamabad should issue a revised travel policy
          that requires the use of form DS-4087 or other appropriate documentation for
          all business class travel, whether authorized by the embassy on travel orders,
          conducted on a cost-constructive basis, or upgraded by the traveler. (Action:
          Embassy Islamabad)




       COST-CONSTRUCTIVE TRAVEL
           The embassy is not following proper procedures with respect to documenting
       costs associated with indirect travel for personal convenience. In general, all ofﬁcial
       travel—permanent change of station, TDY, R&R, medical, educational, training, and
       family visitation travel—must be performed as indicated in the travel orders. Depart­
       ment travel guidance in 14 FAM 456 requires that the embassy furnish the travel
       contractor with a letter authorizing issuance of tickets for indirect travel for personal
       convenience in cases where the traveler elects to travel by an alternate route. The
       mission does not provide this documentation to the travel agency, nor does it retain
       records of the method used to calculate costs for tickets issued on a cost-construc­
       tive basis.

           Travel authorized on a cost-constructive basis is subject to speciﬁc procedures
       outlined in the FAM and the Federal Travel Regulation. Among other provisions,
       travelers cannot use contract fares for cost constructing an alternative itinerary, can­
       not use business class fares for purposes of comparison, must adhere to applicable
       Fly America provisions, and must use the fare to the relief point for such travel.
       Although travelers can elect to travel on a cost-constructive basis on all classes of
       travel, in practice, R&R travel is by far the most common category of travel in which
       embassy employees travel on routes different from those authorized on their travel
       orders. For R&R travel, the mission prepares travel orders for full-fare economy
       tickets to the designated relief points, which vary depending on the type of travel
       authorized. For R&R travel, London is the designated relief point; for regional rest
       breaks, Dubai is the designated relief point. The OIG team found that the embassy
       did not retain documentation of cost-constructive calculations used for this R&R
       travel. In other classes of travel reviewed by the OIG team, the inspectors could not

92 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




determine whether the actual cost of indirect travel to the United States was calcu­
lated correctly because of a lack of documentation. The absence of documentation
of the method used to issue tickets on a cost-constructive basis increases the risk of
abuse and fraud in employee travel.



   Recommendation 42: Embassy Islamabad, in coordination with the Bureau
   of South and Central Asian Affairs, should identify and approve cost-construc­
   tive routes for rest and recuperation travel and document all cost-constructive
   travel with the associated costs. (Action: Embassy Islamabad, in coordination
   with SCA)




CONSULATE GENERAL KARACHI CLASS B CASHIER CONTROLS

                                                  The OIG team conducted a review
of a sample of electricity invoices paid in cash by Consulate General Karachi in the
past six months, (b) (7)(C)(b) (7)(C)(b) (7)(C)                       and found that
internal controls for these payments are still a problem. Discrepancies in invoices
include: an unpaid arrearage, payment of monthly amounts in cash for amounts dif­
ferent from those noted on the electricity company’s invoices, and total payments in
a six-month period in excess of billed amounts. Per 4 FAH-3 H-433.2, the certifying
ofﬁcer is responsible for verifying the accuracy and correctness of vouchers and sup­
porting documents. A review of electricity invoices could detect any irregularities or
continuing problems in this area.



   Recommendation 43: Embassy Islamabad should conduct a review of elec­
   tricity utility invoices in Consulate General Karachi for the past six months and
   determine the reasons for discrepancies in cash payments to the utility com­
   pany. (Action: Embassy Islamabad)




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   93 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       BLANKET PURCHASE AGREEMENTS
           The embassy has established 62 blanket purchase agreements (BPA) for procure­
       ment of commonly used supplies and services totaling approximately $400,000 an­
       nually. The consulates have established BPAs for similar purchases. The BPAs are not
       funded in advance of procurement, as required by 4 FAH-3 H-422.5. In addition,
       as noted in the 2005 OIG inspection, the procurement ofﬁce does not keep records
       documenting BPA purchase activities. The OIG team noted that BPAs, while better
       than cash procurements on the local economy, are still potentially vulnerable to fraud
       and require careful monitoring.



          Recommendation 44: Embassy Islamabad should implement internal controls
          on blanket purchase agreements to include spot checking of prices on the local
          market, rotating orders among qualiﬁed vendors, and obtaining ﬁscal data in
          advance of procurement. (Action: Embassy Islamabad)




       VOUCHER PAYMENT INTERNAL CONTROLS
           The U.S. Government provided approximately $2.25 billion of foreign assistance
       (both military and nonmilitary) to Pakistan in FY 2009. The embassy receives al­
       lotments for NAS foreign assistance programs and makes payments in support of
       many foreign assistance programs from different agencies and Department bureaus.
       Examples include grant programs sponsored by the Bureau of Democracy, Human
       Rights, and Labor and the Bureau of International Security and Nonproliferation,
       military assistance to be administered by the Bureau of Political-Military Affairs,
       other programs administered under Department of Defense authority, and INL-
       funded counterterrorism and counternarcotics programs.

           The voucher ﬁles in some cases lack information to establish the validity of
       obligations and payments. Per 4 FAH-3 H-433.6 c., original supporting documents
       are required to support the validity of obligations. For example, in some cases in­
       vitational travel lacks appropriate grant authorization from sponsoring agencies. In
       other cases, advance payments for commercial items were not documented correctly.
       Because of the unusual number, scope, and scale of foreign assistance programs in
       Pakistan for which the embassy issues payments, the risk of improper payments is
       considerable without careful voucher review. Under current practice, LE staff mem­
       bers are authorized to certify vouchers up to $40,000. The OIG team believes that

94 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




internal controls on foreign assistance payments would be improved by conducting
the certifying review offshore at the Global Financial Services-Charleston post sup­
port unit, which is equipped to process these transactions.



   Recommendation 45: Embassy Islamabad, in coordination with the Bureau
   of Resource Management, should send vouchers for foreign assistance pay­
   ments to the Global Financial Services-Charleston post support unit for certiﬁ­
   cation. (Action: Embassy Islamabad, in coordination with RM)




PROPERTY MANAGEMENT
    The embassy’s receiving procedures for personal property need improvement.
The OIG team noted a number of instances in which payments were made to ven­
dors without signed receiving reports in either the property management or voucher
ﬁles. Examples included nonexpendable property purchased for Consulate General
Peshawar and Consulate General Karachi; and expendable supplies, including fuel
and swimming pool chemicals, for Embassy Islamabad. Receiving reports reviewed
by the OIG team in Consulate General Karachi and Consulate General Lahore were
frequently incomplete or prepared late. Receiving reports are an important internal
control. When a receiving report is signed stating that the supplies or service have
been received, the procurement process is completed, the accountability function
begins, and the process for payment is initiated. The implementation of ILMS will
automate the receiving process and make generating receiving reports faster, but
written SOPs would help ensure that all procedures are being followed correctly.



   Recommendation 46: Embassy Islamabad should issue standard operating
   procedures concerning receiving procedures for accountable property for the
   embassy and constituent posts. (Action: Embassy Islamabad)


    The embassy and consulates are not exercising adequate controls over expend­
able supplies. Some of these deﬁciencies will be corrected with the transition to the
ILMS system; for example, Lahore and Karachi are not keeping the expendable stock
ﬁles up-to-date. However, a review of supply request ﬁles in Karachi revealed that
expendable supplies are often issued without the approval of an American supervi­
sor or the responsible property manager as required by 14 FAM 414.5.

OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   95 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



          Recommendation 47: Embassy Islamabad should implement procedures for
          the proper approval and tracking of expendable supplies. (Action: Embassy
          Islamabad)




       FACILITIES MAINTENANCE
           While the facilities maintenance staff in the embassy and consulates appears to
       provide adequate service, the work order systems fail to provide a complete record
       for oversight and review of efﬁciency. In Islamabad, work orders are not approved
       consistently by the facilities manager before work is started; material costs are not
       recorded in the work orders; the staff does not regularly have the customer or su­
       pervisor sign the work order to verify the information; and employee hours are not
       consistently recorded into the WebPASS database system. In Karachi, the ﬁles are
       neither complete nor are they organized or entered into WebPASS in a timely man­
       ner. The Karachi work orders also do not record the date the job was completed, and
       a number of work orders recorded a suspect number of hours written in by employ­
       ees, including hundreds of hours in overtime over the course of several months.



          Recommendation 48: Embassy Islamabad should issue and enforce standard
          operating procedures governing the completion of accurate and timely mainte­
          nance records. (Action: Embassy Islamabad)




       THE ACCOUNTABLE CONSULAR OFFICER
           The Islamabad accountable consular ofﬁcer and the consular cashier keep ac­
       curate records of the small collections they accept directly, primarily for ACS ser­
       vices. The accountable consular ofﬁcer is having a more difﬁcult time reconciling
       the machine-readable visa fees, which are collected by an offsite contractor, with the
       number of NIV cases interviewed. A recent CMAT visit noted the same deﬁciency,
       but the accountable consular ofﬁcer has not begun to maintain the appropriate
       spreadsheet to track the correlation between machine-readable fees collected offsite
       and NIVs interviewed over a related period. He also does not verify that the fees re­
       ported as collected by the offsite contractor correspond to the OF-158s that conﬁrm
       the deposit of those fees into the U.S. Treasury account.


96 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



  Recommendation 49: Embassy Islamabad should begin using the standard
  Bureau of Consular Affairs-designed spreadsheet to reconcile machine-readable
  fees collected with the number of nonimmigrant visa cases processed. (Action:
  Embassy Islamabad)




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   97 .


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





98 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                        LIST OF RECOMMENDATIONS


Recommendation 1: Embassy Islamabad, in coordination with the Bureau of South
  and Central Asian Affairs and the Foreign Service Institute, should arrange in-
  country training of its political and economic locally employed staff by the end
  of FY 2010. (Action: Embassy Islamabad, in coordination with SCA and FSI)

Recommendation 2: Embassy Islamabad should suspend recruitment for four new
  locally employed staff positions in Karachi (two in the political section, two in the
  economic section) at least through FY 2011 in order to give management time to
  assess workloads and staff needs. (Action: Embassy Islamabad)

Recommendation 3: Embassy Islamabad should establish a system for recovering
  from visiting delegations the costs of representation events held for their beneﬁt.
  (Action: Embassy Islamabad)

Recommendation 4: Embassy Islamabad should establish a written transition plan
  for shifting biographic reports from the embassy and the consulates to Diplope­
  dia. (Action: Embassy Islamabad)

Recommendation 5: The Bureau of Democracy, Human Rights, and Labor, in co­
  ordination with the Bureau of Political-Military Affairs, the Ofﬁce of the Legal
  Adviser, and the regional bureaus, should revise and reissue the worldwide guid­
  ance on Leahy vetting. (Action: DRL, in coordination with PM, L, EUR, WHA,
  NEA, SCA, AF, EAP)

Recommendation 6: Embassy Islamabad should reassign policy responsibility for
  Leahy vetting coordination to the embassy’s political-military element. (Action:
  Embassy Islamabad)

Recommendation 7: Embassy Islamabad should create a political-military section
  separate from the political section and work with the Bureau of Human Re­
  sources to accurately describe in bidding tools the positions assigned to political-
  military functions. (Action: Embassy Islamabad, in coordination with DGHR)

Recommendation 8: Embassy Islamabad should merge positions in the ofﬁce of
  the border coordinator that have substantial political-military responsibilities into
  the newly formed political-military affairs section. (Action: Embassy Islamabad)




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   99 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        Recommendation 9: The Under Secretary for Public Diplomacy and Public Af­
          fairs, in coordination with the Bureau of Intelligence and Research, should revise
          the Pakistan Communications Plan so that all elements are clear, that baseline
          measurements are established, and that performance indicators are appropriate.
          (Action: R, in coordination with INR)

        Recommendation 10: The Bureau of Human Resources, in coordination with the
          Bureau of South and Central Asian Affairs, should assign experienced public di­
          plomacy ofﬁcers (either active-duty Foreign Service ofﬁcers on a temporary-duty
          or when-actually-employed basis) to ﬁll the authorized positions until the arrival
          of permanent incumbents. (Action: DGHR, in coordination with SCA)

        Recommendation 11: The Bureau of International Information Programs should
          establish an Urdu language translation capability to include translating materials
          daily and in time for immediate dissemination upon the opening of business in
          Islamabad. (Action: IIP)

        Recommendation 12: Embassy Islamabad should issue a memorandum detailing
          the responsibilities and authorities of the strategic communications coordinator.
          (Action: Embassy Islamabad)

        Recommendation 13: Embassy Islamabad should emphasize the consul general’s
          responsibilities as the coordinator of consular operations countrywide in the stan­
          dard work requirements statement and emphasize performance in that area in the
          annual performance evaluation. (Action: Embassy Islamabad)

        Recommendation 14: Embassy Islamabad should pre-approve and justify consular
          overtime countrywide in accordance with regulations. (Action: Embassy Islam­
          abad)

        Recommendation 15: Embassy Islamabad should cease efforts to resume nonim­
          migrant visa processing in Lahore. (Action: Embassy Islamabad)

        Recommendation 16: Embassy Islamabad, in coordination with the Bureau of
          Consular Affairs, should establish a schedule for conducting visa issuance valida­
          tion studies using approved formats and calling on the Ofﬁce of Fraud Preven­
          tion Programs for assistance. (Action: Embassy Islamabad, in coordination with
          CA)

        Recommendation 17: Embassy Islamabad should develop and implement clear
          guidance for fraud referrals by visa ofﬁcers in both Islamabad and Karachi, to
          include a requirement that visa section chiefs review fraud referrals. (Action:
          Embassy Islamabad)


100 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




Recommendation 18: Embassy Islamabad should ﬁnalize a memorandum of un­
  derstanding between the consular section and the regional security ofﬁce govern­
  ing the work of the fraud prevention manager and the assistant regional security
  ofﬁcer for investigations. (Action: Embassy Islamabad)

Recommendation 19: Embassy Islamabad should issue a memorandum of under­
  standing between the consular section and the Department of Homeland Secu­
  rity, Bureau of Immigration and Custom Enforcement governing the work of the
  fraud prevention manager and the visa security unit. (Action: Embassy Islamabad)

Recommendation 20: The Bureau of Resource Management, in coordination with
  Embassy Islamabad and the Bureau of South and Central Asian Affairs, should
  review the feasibility of a pilot program to move offshore the tracking of new
  position startup costs, partial-year invoices, voucher processing, and temporary
  duty traveler invoices for Mission Pakistan. (Action: RM, in coordination with
  Embassy Islamabad and SCA)

Recommendation 21: Embassy Islamabad should include the costs of acquiring
  fully armored vehicles in the schedule of startup costs for National Security Deci­
  sion Directive-38 cables approving new positions. (Action: Embassy Islamabad)

Recommendation 22: Embassy Islamabad, in coordination with the Bureau of
  South and Central Asian Affairs and the Bureau of Overseas Buildings Opera­
  tions, should conduct urgently a comprehensive review of all options and costs
  for increasing ofﬁce space on the new Karachi compound and initiate an appro­
  priate plan of action. (Action: Embassy Islamabad, in coordination with SCA and
  OBO)

Recommendation 23: Embassy Islamabad should retain the two-acre housing com­
  pound currently owned by the U.S. Government in Karachi, including the consul
  general’s residence. (Action: Embassy Islamabad)

Recommendation 24: Embassy Islamabad, in coordination with the Bureau of
  Overseas Buildings Operations and the Bureau of Diplomatic Security, should re­
  tain the existing consulate general compound in Lahore and implement the neces­
  sary upgrades. (Action: Embassy Islamabad, in coordination with OBO and DS)

Recommendation 25: (b)(7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
   (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
   (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
   (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)



OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   101 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



        Recommendation 26: Embassy Islamabad, in coordination with the Bureau of
          South and Central Asia Affairs, should request that the Bureau of Human Re­
          sources include two days of consultations in Islamabad in the post assignment
          travel orders for all personnel assigned to the consulates. (Action: Embassy Islam­
          abad, in coordination with SCA and DGHR)

        Recommendation 27: Embassy Islamabad, in coordination with the Bureau of
          South and Central Asia Affairs, should conduct a special position classiﬁcation
          review of positions in Pakistan with particular emphasis on the consulates general
          in light of the Bureau of Human Resources’ updated Foreign Service classiﬁca­
          tion standards. (Action: Embassy Islamabad, in coordination with SCA)

        Recommendation 28: Embassy Islamabad should fully implement the system to
          track, complete, and submit work requirements and employee evaluation reports
          on time. (Action: Embassy Islamabad)

        Recommendation 29: Embassy Islamabad should establish a mission-wide compre­
          hensive training policy and plan, including the preparation of individual develop­
          ment plans for the locally employed staff, and should make that plan available to
          American supervisors. (Action: Embassy Islamabad)

        Recommendation 30: Embassy Islamabad should complete accurate and timely
          work requirements, counseling documentation, and evaluations for employees
          who are encumbering Peshawar positions but are actually working in Islam­
          abad. (Action: Embassy Islamabad)

        Recommendation 31: Embassy Islamabad should consolidate all mission drivers
          under the International Cooperative Administrative Support Services dispatch
          system. (Action: Embassy Islamabad)

        Recommendation 32: Embassy Islamabad should conduct an audit of the program
          development and support vehicles of the narcotics affairs section that are includ­
          ed in the motor vehicle inventory. (Action: Embassy Islamabad)

        Recommendation 33: Embassy Islamabad should reorganize travel responsibili­
          ties so that the general services ofﬁce is responsible for preparing and approving
          travel orders, issuing tickets, supervising the travel vendor, and verifying the cor­
          rectness of bills submitted. (Action: Embassy Islamabad)

        Recommendation 34: Embassy Islamabad should advertise, compete, and select a
          travel contractor to provide travel services to the embassy and constituent posts.
          (Action: Embassy Islamabad)



102 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



Recommendation 35: Embassy Islamabad, in coordination with the Bureau of
  Overseas Buildings Operations, should develop construction plans that retain the
  existing embassy warehouse until a temporary or permanent replacement can be
  built on the embassy compound. (Action: Embassy Islamabad, in coordination
  with OBO)

Recommendation 36: Embassy Islamabad should require that the Consulate Gen­
  eral Karachi property management ofﬁcer adequately supervise the warehouse LE
  staff and provide adequate oversight of the physical inventory and reconciliation
  process. (Action: Embassy Islamabad)

Recommendation 37: Embassy Islamabad should remove all excess and spare
  equipment from the telephone room in Consulate General Peshawar. (Action:
  Embassy Islamabad)

Recommendation 38: Embassy Islamabad should direct the United States Em­
  ployee Association to hire a manager to oversee association operations in Lahore.
  (Action: Embassy Islamabad)

Recommendation 39: Embassy Islamabad should request, and the Bureau of Ad­
  ministration should perform, annual site visits scheduled soon after board elec­
  tions to review management and internal controls and to provide speciﬁc guid­
  ance and training to board members during the period of expansion. (Action:
  Embassy Islamabad, in coordination with A)

Recommendation 40: Embassy Islamabad should designate the community liaison
  ofﬁce coordinator as a member of the interagency housing board and the emer­
  gency action committee. (Action: Embassy Islamabad)

Recommendation 41: Embassy Islamabad should issue a revised travel policy that
  requires the use of form DS-4087 or other appropriate documentation for all
  business class travel, whether authorized by the embassy on travel orders, con­
  ducted on a cost-constructive basis, or upgraded by the traveler. (Action: Embassy
  Islamabad)

Recommendation 42: Embassy Islamabad, in coordination with the Bureau of
  South and Central Asian Affairs, should identify and approve cost-constructive
  routes for rest and recuperation travel and document all cost-constructive travel
  with the associated costs. (Action: Embassy Islamabad, in coordination with SCA)




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   103 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        Recommendation 43: Embassy Islamabad should conduct a review of electricity
          utility invoices in Consulate General Karachi for the past six months and deter­
          mine the reasons for discrepancies in cash payments to the utility company. (Ac­
          tion: Embassy Islamabad)

        Recommendation 44: Embassy Islamabad should implement internal controls on
          blanket purchase agreements to include spot checking of prices on the local mar­
          ket, rotating orders among qualiﬁed vendors, and obtaining ﬁscal data in advance
          of procurement. (Action: Embassy Islamabad)

        Recommendation 45: Embassy Islamabad, in coordination with the Bureau of Re­
          source Management, should send vouchers for foreign assistance payments to the
          Global Financial Services-Charleston’s post support unit for certiﬁcation. (Action:
          Embassy Islamabad, in coordination with RM)

        Recommendation 46: Embassy Islamabad should issue standard operating proce­
          dures concerning receiving procedures for accountable property for the embassy
          and constituent posts. (Action: Embassy Islamabad)

        Recommendation 47: Embassy Islamabad should implement procedures for the
          proper approval and tracking of expendable supplies. (Action: Embassy Islam­
          abad)

        Recommendation 48: Embassy Islamabad should issue and enforce standard oper­
          ating procedures governing the completion of accurate and timely maintenance
          records. (Action: Embassy Islamabad)

        Recommendation 49: Embassy Islamabad should begin using the standard Bureau
          of Consular Affairs-designed spreadsheet to reconcile machine-readable fees col­
          lected with the number of nonimmigrant visa cases processed. (Action: Embassy
          Islamabad)




104 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                      INFORMAL RECOMMENDATIONS


Informal recommendations cover operational matters not requiring action by or­
ganizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.



POLITICAL AND ECONOMIC AFFAIRS
Routine reporting is not distributed to the consular section, although those ofﬁcers
are regularly selected for control ofﬁcer and note taking duties. They are thus de­
prived of information that would help them to perform their duties better.

Informal Recommendation 1: Embassy Islamabad should review and revise
standard distributions for incoming and outgoing cables to ensure distribution to all
relevant Department sections.

In the political section, ofﬁcers reported that they do not receive routine readouts of
country team and section heads’ meetings, and that the sole weekly section meeting is
an unsatisfactory mechanism for discussing policy issues since LE staff also attend.

Informal Recommendation 2: Embassy Islamabad should require that the politi­
cal counselor meets more regularly with his ofﬁcers and provide readouts of country
team and section heads’ meetings.

The political section’s structure has not kept pace with stafﬁng levels and the com­
plexity of the mission. All the ofﬁcers and LE staff report to the deputy political
counselor and through him to the counselor. The deputy has enormous responsibili­
ties yet little real authority (and a reporting portfolio which of necessity suffers). The
ofﬁce management specialist could take on additional responsibilities.

Informal Recommendation 3: Embassy Islamabad should restructure the political
section to reﬂect policy priorities and good management practice.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   105 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



        Although travel budgets exist, reporting ofﬁcers do not make consultation trips
        between and among posts. For example, at the time of the inspectors’ visit, the
        embassy ofﬁcer with responsibility for internal political reporting had yet to travel
        in-country, the human rights ofﬁcer was undertaking his ﬁrst out-of-capital travel,
        and Lahore’s political ofﬁcer was about to end her tour without ever having visited
        the embassy.

        Informal Recommendation 4: Embassy Islamabad should require that all reporting
        ofﬁcers travel between the embassy and the constituent posts to enhance coordina­
        tion and consultation.

        The Management Instruction on in-country travel is more than a year old, does not
        establish norms for granting or denying e-country clearance, and does not contain
        information on Government of Pakistan requirements for requesting advance per­
        mission from the Ministry of Foreign Affairs for travel to certain areas.

        Informal Recommendation 5: Embassy Islamabad should revise and reissue
        Management Notice 09N/026 regarding in-country travel, including Government of
        Pakistan requirements and the reasons for obtaining or withholding e-country clear­
        ance.

        The portfolios of ofﬁcers and LE staff overlap, which means that multiple ofﬁcers
        task the same LE staff members without coordination. LE staff members are used
        generally as researchers, and their written efforts are conﬁned primarily to biographic
        reporting, emailed answers to queries, and reports of meetings.

        Informal Recommendation 6: Embassy Islamabad should realign the portfolios
        of the locally employed staff members in the political section to better mesh with a
        restructured section and then train them to prepare reporting cables.

        American ofﬁcers have not explained how the work of the LE staff supports the
        embassy’s goals and reporting. Staff meetings help foster a team spirit, but are often
        a forum for information exchange and coordination, not for substantive discussion.




106 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 7: Embassy Islamabad should keep the locally em­
ployed staff members in the political section informed of developments on issues to
which they are contributing and involved in planning reporting as appropriate.

Most ofﬁcers reported that they did not host any representation events, citing work­
load, a preference of contacts to meet in their homes and ofﬁces, and security con­
cerns. In FY 2009 the political section’s entire representation budget was spent by the
counselor in the ﬁnal month of the year. The NAS director recently solicited his law
enforcement working group colleagues to cover the U.S. hosting of his international
counterparts at the monthly foreign law enforcement community meeting, which
would have otherwise consumed roughly three-quarters of his annual representation
allotment.

Informal Recommendation 8: Embassy Islamabad should review its allocation and
use of representation funds to maximize beneﬁts and opportunities for all embassy
sections and ofﬁcers.

Informal Recommendation 9: Embassy Islamabad should include representation
in the work requirements statements and evaluations of its reporting ofﬁcers.

Embassy Islamabad and its constituent posts maintain separate contact lists, which is
inefﬁcient, increases the likelihood of contacts falling through the cracks (especially
with nearly 100 percent annual turnover in U.S. direct-hire staff), and complicates
tasks like guest lists, greeting cards, and making appointments.

Informal Recommendation 10: Embassy Islamabad should create a countrywide
contact management system.

The daily ofﬁcial-informal emails between Islamabad and the Department often con­
tain spot reporting, often speciﬁcally written for that channel.

Informal Recommendation 11: Embassy Islamabad should require that spot re­
porting in email trafﬁc to the Department is retransmitted by front channel means,
perhaps in weekly or fortnightly roundups.

The countrywide political reporting plan is ambitious, unbalanced, and unfulﬁlled.
There is no countrywide economic plan. The mission receives only infrequent and ad
hoc feedback on reporting, and, therefore, cannot know how well its coverage aligns
with Washington’s interests.

Informal Recommendation 12: Embassy Islamabad should develop and imple­
ment an integrated countrywide political and economic reporting plan.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   107 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



        The inspection team reviewed a sampling of cables and found many that did not
        conform to standard Department practices, including the use, content, and length of
        summaries, overall cable length, sourcing, and timeliness.

        Informal Recommendation 13: Embassy Islamabad should require that the per­
        sonnel who draft and clear cable adhere to Department norms regarding cable sum­
        maries, overall length, and timeliness.

        The volume of visitors draws considerable resources away from analytical reporting
        to reporting cables on visits, some of which break little new ground.

        Informal Recommendation 14: Embassy Islamabad should review its visit report­
        ing with a view toward making it less labor intensive.

        Agencies in Washington have expressed a desire for more biographic reporting.

        Informal Recommendation 15: Embassy Islamabad should analyze its biographic
        holdings, consult with Washington users to determine gaps in coverage, and adopt a
        measurable annual goal for expanding the number of biographies it posts to Diplo­
        pedia.

        Informal Recommendation 16: Embassy Islamabad should review whether a single
        ofﬁcer should manage the human rights, trafﬁcking in persons, and religious freedom
        portfolios, given overall U.S. Government priorities and current gaps in reporting
        coverage.



        POLITICAL-MILITARY AFFAIRS
        ODRP holds a commander’s update brieﬁng videoconference daily (except for
        Sunday) with representatives from units in Pakistan, CENTCOM, SCA, the Washing­
        ton liaison ofﬁce, and ofﬁces within ODRP. The brieﬁng presents a comprehensive
        review of U.S. military operations, activities, and challenges in Pakistan and is invalu­
        able in following the military’s role, functions, operations, and activities in Pakistan.

        Informal Recommendation 17: Embassy Islamabad should require that a political-
        military ofﬁcer attends the daily commander’s update brieﬁng.




108 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



FOREIGN ASSISTANCE
As the humanitarian situation has become less acute, the humanitarian working
group has met less frequently. Because of this, working group members are not
always fully informed about others’ activities. This poses some risk of lack of coordi­
nation in directing assistance to internally displaced persons and returnees.

Informal recommendation 18: Embassy Islamabad should establish a mechanism
to keep all elements providing humanitarian and early recovery assistance informed
on a timely basis of each others’ activities.

A key principle of the U.S. civilian assistance strategy is to build national capacity by
enabling Pakistani entities to implement U.S.-funded projects. The mission has not
evaluated to what extent this principle should apply to U.S. humanitarian assistance.

Informal recommendation 19: Embassy Islamabad should decide whether or not
humanitarian assistance should or can make more use of local implementers consis­
tent with the broader civilian assistance strategy, and then forward its decision to the
Department.

The meetings of the law enforcement working group appear to focus on coordina­
tion of training activities and high-level visits instead of on investigative activities
and operational issues.

Informal Recommendation 20: Embassy Islamabad should shift the work of the
law enforcement working group towards a more operational focus.

The inspection found that aircraft availability was often assumed rather than
weighed. There has been some discussion of obtaining additional air support to
facilitate monitoring of the civilian assistance buildup.

Informal Recommendation 21: Embassy Islamabad should establish clear proce­
dures for requesting and using the embassy’s air assets.

Informal Recommendation 22: Embassy Islamabad should review future in-coun­
try air transportation requirements and determine whether or not additional capabili­
ties are required.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   109 .


                      SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



              PUBLIC AFFAIRS SECTION
              PAS Islamabad has not hosted a countrywide conference during the tenure of the
              incumbent ofﬁcers. A countrywide PAS conference would bring together PD ofﬁcers
              and senior LE staff to discuss how best to use the resources available.

              Informal Recommendation 23: Embassy Islamabad should organize a countrywide
              public affairs section conference for all public diplomacy Foreign Service ofﬁcers
              and senior locally employed staff.

              The OIG team found several grants that were not directed primarily towards achiev­
              ing PD priorities. In the absence of experienced PD ofﬁcers, grants require senior
              oversight.

              Informal Recommendation 24: Embassy Islamabad should require that the public
              affairs ofﬁcer in Islamabad approve all future public diplomacy grants.

              The OIG team found that the PAS warehouse contained out-of-date materials that
              may not accurately reﬂect current policies.

              Informal Recommendation 25: Embassy Islamabad should cull and destroy the
              program materials in the public affairs section warehouse space that are no longer
              current.


        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)

110 .            OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                             SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Informal Recommendation 27: Embassy Islamabad should request authoriza­
tion from the Bureau of Consular Affairs to accept credit card payments, follow the
required procedures if given permission, and procure the necessary equipment.

Neither of the consular EFMs in Islamabad has work requirements statements or
has received a performance evaluation.

Informal Recommendation 28: Embassy Islamabad should prepare work require­
ments statements and performance evaluations for the consular section’s consular
associates.

Because of the one-year tours, ofﬁcers in the Islamabad consular section do not ro­
tate among units, even brieﬂy. This limits the ofﬁcers’ opportunity to experience the
full range of consular skills. Other consular sections use mini-rotations of two weeks
as a way of providing variety and cross-fertilization during one-year tours.

Informal Recommendation 29: Embassy Islamabad should develop a mini-rota­
tional program within the consular section that exposes all ofﬁcers to at least two
consular skills during their tours of duty.

All IV ﬁles pass through the cashier on their way from the EFM ﬁnger printer to the
LE staff document checker. The cashier calls the applicant to the window, collects
the passports, and veriﬁes that no additional fees need to be paid. Only SIVs, ﬁancé,
and returning resident cases normally require fee payment at the time of interview.
This additional step is redundant except for those categories.

Informal Recommendation 30: Embassy Islamabad should bypass the cashier
review of immigrant visa ﬁles and collect the passports and review fees at the docu­
ment checker windows except when the section is processing ﬁancé, special immi­
grant visa, and returning resident applicants.

There is no classiﬁed computer terminal in the unclassiﬁed consular annex in Islam­
abad. The consul general reads classiﬁed cable trafﬁc regularly at the embassy, but
the visa ofﬁcers do not consult their classiﬁed emails regularly, occasionally missing
CA requests for action on SAO cases.

Informal Recommendation 31: Embassy Islamabad should create a classiﬁed con­
sular group email collective and disseminate the address to its regular Department
interlocutors.

Informal Recommendation 32: Embassy Islamabad should set up a rotating daily
schedule so that all consular ofﬁcers share the work of accessing the consular email
collective mail box and read relevant classiﬁed cables.


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   111 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        The Islamabad consular section has no systematic training program for ofﬁcers and
        LE staff. There are four LE staff members in the NIV unit who have been on the
        job for between six and 12 months but have not taken the online basic visa course.
        There is no comprehensive plan to use parts of administrative days for training. Of­
        ﬁcers do not oversee LE training.

        Informal Recommendation 33: Embassy Islamabad should require new locally
        employed staff to take the relevant online consular training courses before their ﬁrst
        year anniversary under the mentoring of a consular ofﬁcer.

        Informal Recommendation 34: Embassy Islamabad should develop and imple­
        ment an ofﬁcer and locally employed staff training continuum for the periodic
        administrative days.

        Karachi transferred several thousand old IV ﬁles to Islamabad in the 1980s. Those
        ﬁles are mixed with other IV ﬁles in an overcrowded ﬁle room. The National Visa
        Center is prepared to retire or update the cases but only when Islamabad can pull the
        ﬁles out, check the visa system for any corresponding electronic ﬁles, and send them
        to Portsmouth. IV section resources are too stretched to handle that project.

        Informal Recommendation 35: Embassy Islamabad should fund the two unde­
        rused locally employed visa staff in Karachi for temporary duty in Islamabad to
        prepare the old Karachi immigrant visa case ﬁles for shipment to the National Visa
        Center as soon as possible.

        The junior LE ACS assistant in Karachi is an LES-05. Given his substantial ACS
        duties and his cashiering duties, this position—the most junior in the consular sec­
        tion—appears to be under graded by one or two grades. No other LE staff member
        in the consular section is graded lower than LES-07 including the new receptionist-
        secretary. It is rare to ﬁnd an ACS employee graded so low.

        Informal Recommendation 36: Embassy Islamabad should update the position
        description for the locally employed staff member providing cashier and Ameri­
        can citizen services in Karachi to reﬂect his passport, consular report of birth, and
        backup emergency services responsibilities and then resubmit his position descrip­
        tion through the Computer-Aided Job Evaluation process.

        The general services ofﬁcer in Lahore is the part-time consular ofﬁcer. The backup
        consular ofﬁcer is the management ofﬁcer. Drawing from the same section for both
        the part-time and backup consular ofﬁcers is overtaxing an already overworked sec­
        tion. The part-time and backup consular ofﬁcers used to come from the political
        section.


112 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 37: Embassy Islamabad should identify either the po­
litical or economic ofﬁcers in Lahore as the backup consular ofﬁcer.

The 2005 OIG report and the 2010 CMAT report recommended that the Islamabad
FPM be a full-time position. Consular management, unaware of the rationale for
these recommendations, repeatedly reassigns its FPM to a second section chief job.
This diminishes the fraud prevention effort.

Informal Recommendation 38: Embassy Islamabad should compile all documen­
tation about the genesis of the full-time fraud prevention manager and make it read­
ily available in the fraud prevention unit archives.

The ARSO-I in Islamabad has developed an ambitious training program.

Informal Recommendation 39: Embassy Islamabad should expand and institu­
tionalize the assistant regional security ofﬁcer for investigation training program to
all new consular ofﬁcers.



MANAGEMENT
The multiple interlocutors, internal and interagency, make it difﬁcult to manage com­
munications with the MFA on the variety of delays and obstacles to efﬁcient man­
agement of the mission.

Informal Recommendation 40: Embassy Islamabad should review internal and
interagency communication channels with the Ministry of Foreign Affairs.



FACILITIES
The cafeteria and the American club will need to be replaced by larger facilities to
accommodate the growth in personnel and the increase in residences and TDY
quarters that will be located on the compound. The embassy also needs to prioritize
the move of the NAS and Library of Congress ofﬁces back onto the compound in
order to colocate all functions.

Informal Recommendation 41: Embassy Islamabad should, in future construction
plans, accommodate the growth of mission personnel and colocation of all ofﬁces.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   113 .


                      SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




        Consulate General Karachi is behind schedule in developing its move plan for the
        NCC. Although a WAE should arrive soon to manage this process, it will take a great
        deal of coordination between Embassy Islamabad and the consulate to identify all
        steps and allocate the necessary funds for the move.

        Informal Recommendation 42: Embassy Islamabad should work with Consul­
        ate General Karachi to make the necessary plans for moving into the new consulate
        compound.

        More than 99 percent of completed work orders in Islamabad over the course of a
        month are for unscheduled work. There were also a number of repetitive “emergen­
        cy” tasks for which work was done before a work order request was submitted.

        Informal Recommendation 43: Embassy Islamabad should review and improve
        the preventive maintenance program.




        Informal Recommendation 44: (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)
        (b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)(b) (7)(C)


        The old ofﬁce building on the Consulate General Karachi compound is inhabited by
        pigeons and rodents, creating a health and safety hazard for those who must enter
        the building. There is refuse and trash in the building.

        Informal Recommendation 45: Embassy Islamabad should direct Consulate Gen­
        eral Karachi to clean out the old ofﬁce building.



        FINANCIAL MANAGEMENT
        The embassy’s Class B cashier processes approximately 17,000 transactions a year,
        a large portion of which consist of employee taxi vouchers, cell phone bills, and
        electricity bills. Consolidation of utility invoices into monthly payments, preferably
        by electronic funds transfer, would increase the efﬁciency of the cashier’s operations
        and reduce the inherent risks of cash payments.


114 .      OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 46: Embassy Islamabad should consolidate cell phone,
electricity, and employee taxi voucher payments into monthly payments, preferably
by electronic funds transfer.

The ﬁnancial management ofﬁce does not have a well structured process for re­
viewing accounts to determine that obligations are still valid. In 2005 and 2006, the
embassy lost signiﬁcant amounts of funding in the diplomatic and consular program
and public diplomacy accounts when those funds expired.

Informal Recommendation 47: Embassy Islamabad should conduct regular
reviews of unliquidated obligations with the procurement unit and other embassy
elements to verify the validity of obligations before the close of each ﬁscal year.



HUMAN RESOURCES
Work requirements for EFMs have not been done.

Informal Recommendation 48: Embassy Islamabad should prepare work require­
ments for eligible family members.

The post employment committee has not been activated as there has yet to be more
than one candidate for each EFM vacancy.

Informal Recommendation 49: Embassy Islamabad should activate the post em­
ployment committee and brief members on their responsibilities before the commit­
tee needs to convene to interview and select candidates.

The consul general serves as the chair of the special immigrant visa committee. The
committee does most of its work via email and teleconference.

Informal Recommendation 50: Embassy Islamabad should designate a new chair
for the special immigrant visa committee, shifting the consul general to an advisory
role.

Informal Recommendation 51: Embassy Islamabad should schedule at least one
special immigrant visa committee in-person meeting per year to discuss the regula­
tions and how the committee wishes to place service in Pakistan in the context of
the regulations governing this program.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   115 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



        OFFICIAL VEHICLES
        The growth of the mission over the next few years risks generating the sort of frac­
        turing of motor vehicle resources in the consulates as seen in Islamabad.

        Informal Recommendation 52: Embassy Islamabad should review the policies in
        the consulates general to provide adequate guidance for maintaining consolidated
        motor pool services in the future.

        The Ambassador’s determination and ﬁndings for the vehicle policy memorandum
        on not charging for other authorized use of ofﬁcial vehicles do not conform ex­
        actly to 14 FAM 433.4 (2), which requires that the motor vehicle accountable ofﬁcer
        or designee collect a charge for all other authorized use, except when the regional
        security ofﬁcer, with the concurrence of the ambassador, determines, in writing, that
        transportation in an armored vehicle with a security escort is necessary for employee
        protection, or when, because of unusual circumstances, the Assistant Secretary for
        Administration approves a post request to waive the charge for secure transportation.

        Informal Recommendation 53: Embassy Islamabad should request a waiver from
        the Assistant Secretary for Administration.

        Embassy Islamabad’s motor vehicle use policy does not inform employees who self-
        drive of their personal liability and the extent of embassy liability insurance coverage.

        Informal Recommendation 54: Embassy Islamabad should include language in
        its motor vehicle use policy informing incidental drivers of their potential personal
        liability and the extent of liability coverage post has for such drivers.

        Most non-Department agencies do not subscribe to automotive maintenance ser­
        vices in ICASS, and instead take their armored vehicles to shops out on the economy
        for maintenance. Consulates General Lahore and Peshawar also use public auto
        repair shops for maintenance.

        Informal Recommendation 55: Embassy Islamabad should issue a policy on the
        maintenance of ofﬁcial vehicles in local auto repair shops.



        PROPERTY MANAGEMENT
        The warehouse in Karachi is disorganized; supplies and furniture have been damaged
        by improper storage. Scrap metal, old appliances, tires, and other trash are piled in
        driveways. Crates and boxes are unsecured on the loading dock.

116 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 56: Embassy Islamabad should assist Consulate
General Karachi in holding a surplus sale and cleaning out the Karachi warehouse as
soon as possible.



HOUSING
A signiﬁcant number of personnel permanently assigned to Mission Pakistan live in
group housing arrangements rather than the single-occupant units that are the norm
at most posts. Some of these employees are direct-hire employees assigned to regu­
lar one-year tours; some are personal services contractors eligible for housing. The
criteria for assigning employees to group housing rather than to single units are not
transparent to some customers, and the embassy housing handbook is outdated.

Informal Recommendation 57: Embassy Islamabad should update the post hous­
ing handbook to include criteria used to assign employees to group housing.



SHIPPING AND CUSTOMS
The consulates do not have copies of the shipping and packing contracts used to
compare bills against the agreements when they receive invoices.

Informal Recommendation 58: Embassy Islamabad should provide copies of the
countrywide shipping and packing contracts to all of the consulates for their use in
processing payments for services.

While customs and most administrative details are managed by Embassy Islam­
abad, Consulate General Lahore receives and sends out a number of shipments that
should be better monitored.

Informal Recommendation 59: Embassy Islamabad should help Consulate Gen­
eral Lahore to develop and implement a tracking system for incoming and outgoing
shipments.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   117 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        PROCUREMENT
        There are no LE staff members with a purchase card in Consulate General Karachi.
        Consequently, procurement of necessary items from offshore sources is difﬁcult.

        Informal Recommendation 60: Embassy Islamabad should assist Consulate Gen­
        eral Karachi with training and requesting a purchase card for Karachi’s procurement
        staff.



        HEALTH UNIT
        Embassy Islamabad does not keep an inventory list of medical expendable supplies.

        Informal Recommendation 61: Embassy Islamabad should implement an automat­
        ed system such as RxIS in WebPASS to maintain accurate medical supply inventories.

        Living and working in Pakistan is stressful and dangerous. The Director General has
        mandated that all employees who have spent 90 days or more in Iraq and Afghani­
        stan take the Foreign Service Institute’s high-stress assignment outbrieﬁng program.

        Informal Recommendation 62: Embassy Islamabad should recommend to the
        Director General that the high-stress outbrieﬁng program be made mandatory for
        employees following completion of an assignment in Pakistan.



        COMMUNITY LIAISON OFFICE
        There is no CLO advisory board.

        Informal Recommendation 63: Embassy Islamabad should establish a community
        liaison ofﬁce advisory board.



        EQUAL EMPLOYMENT OPPORTUNITY PROGRAM
        EEO information is posted in just two locations on the compound in Islamabad and
        only in English.



118 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 64: Embassy Islamabad should post Equal Employ­
ment Opportunity information in English and Urdu in high trafﬁc areas throughout
the compound in Islamabad.



INFORMATION MANAGEMENT
The embassy has not installed computer server room temperature sensors that would
notify appropriate staff in the event of equipment overheating.

Informal Recommendation 65: Embassy Islamabad should purchase and install
temperature sensors with remote notiﬁcation capability in all computer server rooms.

The OIG team found ganged power strips on equipment racks at Consulate General
Peshawar.

Informal Recommendation 66: Embassy Islamabad should provide technical as­
sistance so that Consulate General Peshawar can install power strips correctly.

There are no information management guidelines at Consulate General Lahore.

Informal Recommendation 67: Embassy Islamabad should create written standard
operating procedures for all information management areas of responsibility at Con­
sulate General Lahore.

The combination on the server room door at Consulate General Peshawar needs to
be changed.

Informal Recommendation 68: Embassy Islamabad should change the combina­
tion of the server room door at Consulate General Peshawar.




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   119 .


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





120 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                               PRINCIPAL OFFICIALS


                                                        Name                            Arrival Date


Ambassador                                              Anne W. Patterson                        07/07
DCM                                                     Gerald M. Feierstein                     08/08


Chiefs of Sections:


Management                                              Charles Slater                           07/09
Consular                                                Christopher Richard                      08/08
Economic                                                Martha Patterson                         12/08
Narcotics Affairs                                       Garace Reynard                           08/09
Political                                               Bryan Hunt                               08/09
Public Affairs                                          Larry Schwartz                           10/09
Regional Security                                       Stephen Smith                            08/08
Border Coordination                                     Elizabeth Richard                        08/08
Coordinator for Economic and
Development Assistance                                  Robin Raphel                             09/09


Other Agencies:


Defense Attaché                                         Col Joseph Abbott                        02/09
Senior Defense Representative/
Ofﬁce of Defense Representative                         VAdm Michael Lefever                     07/08
 Pakistan
Department of Homeland Security                         Shawn McGraw                             11/08
Drug Enforcement Administration                         John Dudley                              09/08
Legal Attaché                                           Susan Mitchell                           05/09
Department of Treasury                                  Erin English                             06/09
U.S. Agency for International                           Robert Wilson                            05/09
 Development


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   121 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




        U.S. Department of Agriculture                         Joseph Carroll                           10/08

        U.S. Foreign & Commercial Service                      William Center                           08/08

        Department of Energy                                   Regina Galer                             01/10



        Principal Ofﬁcers:


        Karachi                                                Stephen G. Fakan 
                       12/08

        Lahore                                                 Carmela Conroy                           08/09
      

        Peshawar                                               E. Candace Putnam                        08/09





122 .     OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                                    ABBREVIATIONS


                    ACS       American citizen services
         A/OPR/CR             Ofﬁce of Commissary and Recreation Affairs
               ARSO-I         Assistant regional security ofﬁcer for investigations
                   BPA        Blanket purchase agreement
                     CA       Bureau of Consular Affairs
                  CAJE        Computer-assisted job evaluation
         CENTCOM              Central Command
                   CGR        Consul general residence
                   CLO        Community liaison ofﬁce
                CMAT          Consular Management Assistance Team
                   COB        Current consulate ofﬁce building
                  DCM         Deputy chief of mission
                   DHS        Department of Homeland Security
                   DRL        Bureau of Democracy, Human Rights, and Labor
                     DS       Bureau of Diplomatic Security
                  EEO         Equal employment opportunity
                   EER        Employee evaluation report
                   EFM        Eligible family member
                   ELO        Entry-level ofﬁcer
                    FAV       Fully armored vehicle
                    FCS       United States and Foreign Commercial Service
                   FPM        Fraud prevention manager
                  FSHP        Foreign Service health practitioner
                   GSO        General services ofﬁce
                G/TIP         Ofﬁce to Monitor and Combat Trafﬁcking in Persons
                     HR       Human resources


OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   123 .


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                        HRO        Human resources ofﬁcer
                      ICASS        International Cooperative Administrative Support
                                   Services
                       ICRC        International Committee of the Red Cross
                          IIP      Bureau of International Information Programs
                       ILMS        Integrated logistics management system
                           IM      Information management
                       IMET        International Military Education and Training
                        IMO        Information management ofﬁcer
                         INL       Bureau of International Narcotics and Law
                                   Enforcement Affairs
                         IRM       Bureau of Information Resource Management
                           IV      Immigrant visa
                             L     Ofﬁce of the Legal Adviser
                           LE      Locally employed
                     LEWG          Law Enforcement Working Group
                     MERO          The Ofﬁce of Inspector General, Middle East Regional
                                   Ofﬁce
                        MFA        Ministry of Foreign Affairs
                         MSP       Mission Strategic Plan
                        NAS        Narcotics assistance section
                        NCC        New consulate compound
                         NIV       Nonimmigrant visa
                       NGO         Nongovernmental organization
                      NSDD         National Security Decision Directive
                      NWFP         North West Frontier Province
                        OBO        Bureau of Overseas Buildings Operations
                      ODRP         Ofﬁce of the Defense Representative – Pakistan
                      OFDA         Ofﬁce of Foreign Disaster Assistance
                        OIG        Ofﬁce of Inspector General



124 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                    OIP       Ofﬁce of Orientation and In-Processing
                    OTI       Ofﬁce of Transition Initiatives
                   PAO        Public affairs ofﬁcer
                    PAS       Public affairs section
                  PCCF        Pakistan Counterinsurgency Capability Fund
                    PCF       Pakistan Counterinsurgency Fund
                     PD       Public diplomacy
                     PM       Bureau of Political Military Affairs
                   PRM        Bureau of Population, Refugees, and Migration
                   R&R        Rest and recuperation
                  RMO         Regional medical ofﬁcer
               RMO/P          Regional medical ofﬁcer psychiatrist
                   RSO        Regional security ofﬁcer
                   SAO        Security advisory opinion
                   SCA        Bureau of South and Central Asian Affairs
                    SIV       Special immigrant visa
               S/SRAP         Special Representative for Afghanistan and Pakistan
                   SOP        Standard operating procedure
                   TDY        Temporary duty
              UNHCR           United Nations High Commissioner for Refugees
                USAID         United States Agency for International Development
                 USEA         United States Employee Association
                   VSU        Visa security unit




OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010   125 .


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





126 .   OIG Report No. ISP-I-10-64 - Inspection of Embassy Islamabad and Constituent Posts, Pakistan, June 2010


                    SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
